No. ___________

In the Supreme Court of the United States

THOMAS J. DART, SHERIFF OF COOK COUNTY, ILLINOIS,
Petitioner,
v.
ANTHONY MAYS, INDIVIDUALLY AND ON BEHALF OF A
CLASS OF SIMILARLY SITUATED PERSONS, ET AL.
Respondents.
On Petition for Writ of Certiorari to the
U.S. Court of Appeals for the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI
GRETCHEN HARRIS SPERRY
Counsel of Record
ROBERT T. SHANNON
JAMES M. LYDON
Hinshaw & Culbertson
151 N. Franklin Street
Chicago, IL 60606
(312) 704-3521
gsperry@hinshawlaw.com
Counsel for Petitioner Thomas J. Dart

i
QUESTION PRESENTED
In 2015, this Court decided Kingsley v.
Hendrickson, 135 S. Ct. 2566 (2015), announcing for
the first time that Fourteenth Amendment due
process claims alleging excessive force against pretrial
detainees must be evaluated under an objective
standard. Kingsley is an extension of Bell v. Wolfish,
441 U.S. 520 (1979), which long ago set forth the
objective standard to be applied to detainees’
challenges to their conditions of confinement. But
circuit courts across the country have misconstrued
Kingsley and are deeply divided about whether and
how it altered the Bell standard for evaluating jail
conditions claims. Accordingly, the question presented
here is:
Whether Kingsley v. Hendrickson abrogated or
modified the standard for evaluating pretrial
detainees’ claims challenging their conditions
of confinement under the Fourteenth
Amendment, as set forth in Bell v. Wolfish.

ii
PARTIES TO THE PROCEEDINGS BELOW
The parties to the proceeding below were:
Petitioner Thomas J. Dart, Sheriff of Cook County,
Illinois, in his official capacity; and
Respondents Anthony Mays, individually and on
behalf of a class of similarly situated pretrial
detainees.

iii
RELATED PROCEEDINGS
Mays v. Dart, et al., 20-cv-2134, U.S. District Court for
the Northern District of Illinois. Judgments entered
April 9, 2020 and April 27, 2020.
Mays v. Dart, et al., No. 20-1792, U.S. Court of
Appeals for the Seventh Circuit. Judgment entered
September 8, 2020.

iv
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
PARTIES TO THE PROCEEDING BELOW ............ ii
RELATED PROCEEDINGS ..................................... iii
TABLE OF CONTENTS ........................................... iv
TABLE OF APPENDICES ........................................ vi
TABLE OF AUTHORITIES ..................................... vii
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ........................................ 2
STATEMENT OF THE CASE ................................... 3
A. Factual Background ...................................... 4
B. District Court Proceedings ........................... 7
Temporary Restraining Order (TRO) ........... 7
Preliminary Injunction.................................. 9
C. The Seventh Circuit’s Decision................... 11
REASONS FOR GRANTING THE PETITION ....... 13

v
I.

The Circuit Courts Of Appeals Are Deeply
Divided Over The Standard Applied To Alleged
Due Process Violations Brought By Pretrial
Detainees Challenging The Conditions Of
Confinement. .....................................................18

II.

This Circuit Split Is Particularly Evident In
Cases Analyzing Challenges To COVID-19
Protocols Under The Fourteenth Amendment.24

III. The Seventh Circuit’s Approach Falls On The
Wrong Side Of the Split And This Case Is An
Ideal Vehicle To Address The Question........... 26
CONCLUSION ......................................................... 36

vi
TABLE OF APPENDICES
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, DATED SEPTEMBER
8, 2020 ............................................................................. 1a
APPENDIX B — MEMORANDUM OPINION
AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN
DIVISION, FILED APRIL 27, 2020 ....................... 29a
APPENDIX C — MEMORANDUM OPINION
AND ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN
DIVISION, DATED APRIL 9, 2020 ...................... 130a

vii
TABLE OF AUTHORITIES
Page(s)
Cases
Alderson v. Concordia Parish Corr. Facility,
848 F.3d 415 (5th Cir. 2017) ................................19
Aslanturk v. Hott,
459 F. Supp. 3d 681 (D. Va. May 8, 2020) ...........25
Baez v. Moniz,
460 F. Supp. 3d 78 (D. Mass., May 18,
2020) .....................................................................24
Banks v. Booth,
2020 U.S. Dist. LEXIS 107762 (D.D.C.
June 18, 2020) ......................................................25
Barrera v. Wolf,
455 F. Supp. 3d 330 (S.D. Tex. April 17,
2020) .....................................................................25
Baxley v. Jividen,
2020 U.S. Dist. LEXIS 239699 (D. W.
Va. Dec. 21, 2020) .................................................25
Bell v. Wolfish,
441 U.S. 520 (1979) ...................................... passim
Cameron v. Bouchard,
815 Fed. Appx. 978 (6th Cir. 2020) ......................25
Castro v. City of Los Angeles,
833 F.3d 1060 (9th Cir. 2016) ..............................20

viii
City of Canton v. Harris,
489 U.S. 378 (1989) ........................................21, 30
Coreas v. Bounds,
451 F. Supp. 3d 407 (D. Md. April 3,
2020) .....................................................................25
Darnell v. Piniero,
849 F.3d 17 (2d Cir. 2016) ..............................20, 24
Dilworth v. Adams,
841 F.3d 246 (4th Cir. 2016) ................................18
Farmer v. Brennan,
511 U.S. 825 (1994) ............................ 16, 19, 23, 30
Fernandez-Rodriguez v. Licon-Vitale,
2020 U.S. Dist. LEXIS 116749 (S.D.N.Y
July 2, 2020) .........................................................24
Gomes v. U.S. Dep’t Homeland Sec.,
2020 U.S. Dist. LEXIS 115070 (D.N.H.
July 1, 2020) .........................................................24
Gonzales v. O Centro Espirita Beneficiente
Uniao do Vegetal,
546 U.S. 418, 429 (2006) ......................................31
Hardeman v. Curran,
933 F.3d 816 (7th Cir. 2019) ................................21
Hare v. City of Corinth,
74 F.3d 633 (5th Cir. 1996) ..................................19
Hernandez v. Mora,
2020 U.S. Dist. LEXIS 106184 (N.D. Tex.
June 15, 2020) ......................................................25

ix
Hope v. Warden York Cty. Prison,
972 F.3d 310 (3d Dist. 2020) .................... 18, 24, 31
Hudson v. McMillian,
503 U.S. 1 (1992) ..................................................23
Jones v. Wolf,
2020 U.S. Dist. LEXIS 58368 (W.D.N.Y.) ...........24
Kennedy v. Mendoza-Martinez,
372 U.S. 144 (1963) ..............................................15
Kingsley v. Hendrickson,
135 S. Ct. 2566 (2015) .................................. passim
Mays v. Dart,
947 F.3d 810 (7th Cir. 2020) ................................25
McCann v. Ogle,
909 F.3d 881 (7th Cir. 2018) ................................21
Miranda v. County of Lake,
900 F.3d 335 (7th Cir. 2018) ..........................16, 21
Miranda-Rivera v. Toledo-Davila,
813 F.3d 64 (1st Cir. 2016)...................................19
Nam Dang v. Sheriff, Seminole Cty. Fla.,
871 F.3d 1272 (11th Cir. 2017) ............................19
O.M.G. v. Wolf,
2020 U.S. Dist. LEXIS 129300 (D.D.C.
2020) ...............................................................18, 26
Pell v. Procunier,
417 U.S. 817 (1974) ..............................................34

x
Pembauer v. Cincinnati,
475 U.S. 469 (1986) ..............................................22
Richmond v. Huq,
885 F.3d 928 (6th Cir. 2018) ................................19
Roman v. Wolf,
2020 U.S. App. LEXIS 30510 (9th Cir.
2020) .....................................................................25
S. Bay United Pentecostal Church v.
Newsom,
140 S. Ct. 1613, 1613-14 (2020) ............... 28, 32, 34
Stearns v. Inmate Services Corp.,
957 F.3d 902 (8th Cir. 2020) ................................18
Strain v. Regalado,
977 F.3d 984 (10th Cir. 2020) ..............................19
Yanes v. Martin,
464 F. Supp. 3d 467 (D.R.I., June 2,
2020) .....................................................................24
Statutes
28 U.S.C. § 1254(1) ......................................................1
42 U.S.C. § 1983.................................................2, 7, 18
Other Authorities
U.S. Const. amend. VIII ..............................................2
U.S. Const. amend. XIV, § 1 ........................................2

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Thomas J. Dart, Sheriff of Cook County,
Illinois, respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Seventh Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit is reported at 974 F.3d 810 and
is reproduced at Pet. App. 1a-28a. The district court’s
order granting the plaintiffs’ request for a preliminary
injunction is reported at 456 F. Supp. 3d 966 and is
reproduced at Pet. App. 29a-129a. The district court’s
order granting the plaintiffs’ request for a temporary
restraining order is reported at 453 F. Supp. 3d 1074
and is reproduced at Pet. App. 130a-172a.
JURISDICTION
The judgment of the United States Court of
Appeals for the Seventh Circuit was entered on
September 8, 2020. (1a-28a). Pursuant to the Court’s
March 19, 2020 order, this Petition was timely filed
within 150 days of the final judgment. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Eighth Amendment to the U.S. Constitution
provides: “Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.” U.S. Const. amend. VIII.
The Fourteenth Amendment to the U.S. Constitution
provides, in relevant part: “No state shall make or
enforce any law which shall abridge the privileges or
immunities of citizens of the United Sates; nor shall
any state deprive any person of life, liberty, or
property, without due process of law…” U.S. Const.
amend. XIV, § 1.
The statutory provision involved is 42 U.S.C. § 1983,
which states:
“Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of
any State…subjects, or causes to be subjected,
any citizen of the United States or other
person within the jurisdiction thereof to the
deprivation of any rights, privileges, or
immunities secured by the Constitution and
laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper
proceeding for redress…”

3
STATEMENT OF THE CASE
Nearly forty years ago, the Court issued its opinion
in Bell v. Wolfish, 411 U.S. 520 (1979). It defined the
standard for evaluating pretrial detainees’ challenges
to their conditions of confinement under the
fourteenth
amendment
due
process
clause:
punishment may not be inflicted on a pretrial
detainee. Unless the conditions of confinement
amount to punishment, a detainee is not deprived of
his due process rights. The standard for evaluating
punishment is an objective one: detainees can make
their case by showing an expressed intent to punish,
or that the challenged conditions were unrelated to, or
were excessive in relation to, a legitimate nonpunitive
governmental purpose.
In 2015, the Court issued its opinion in Kingsley v.
Hendrickson, 135 S. Ct. 2466 (2015), defining the
standard for evaluating excessive force claims brought
by pretrial detainees. Kingsley is merely an extension
of Bell, as applied to the particular circumstances of
an excessive force claim. But it does not change the
standard articulated in Bell or alter its fundamental
precepts. Kingsley stands for the same proposition as
Bell: a pretrial detainee cannot be punished in
violation of his due process rights—but the standard
is expressed differently for an excessive force claim,
given the nature of the allegations in each. If
anything, Kingsley brought to light that a jail official’s
conduct must be viewed under a heightened standard
approaching recklessness. But the post-Kingsley
standards for conditions of confinement claims
emerging from the appellate circuits in the past five
years misstate its relevance and have caused

4
confusion for the courts and jail officials. Nowhere is
this confusion more evident than in the case below
from the Seventh Circuit, which applies its iteration
of the standard inconsistently within same opinion.
(1a-28a)
The case below also reveals the abiding need to
address this issue now, as the nation continues to
grapple with the COVID-19 pandemic. Many lawsuits
have been filed across the country challenging safety
protocols implemented in jails and detention centers
and the outcomes of these cases span a wide spectrum.
In some cases, courts have effectively become
“superwardens” of the jails, issuing mandatory
injunctions that direct wardens to implement policies
and protocols on the minutiae of jail operations. These
outcomes run directly contrary to Bell and its progeny,
which established the imperative of affording
significant deference to jail officials’ expertise in
managing complex jail operations and respecting the
functions of government expressly reserved to the
executive and legislative branches. For these reasons,
this Court must grant certiorari to clarify the
analytical framework to be applied to pretrial
detainees’ conditions of confinement cases as
distinguished from excessive force claims.
A. Factual Background
In January 2020, well before any governmental
acknowledgement of the looming global coronavirus
pandemic, Cook County Sheriff Thomas J. Dart and a
team of subject matter experts were already planning
for the arrival of the virus at the Cook County Jail,
one of the largest single-site jail complexes in the

5
country. (4a) As the district court and the appellate
panel recognized, the Sheriff took “numerous
proactive measures to prevent the spread of COVID19.” (6a) The in-house Environmental Health
Specialist at the Sheriff’s Office activated emergency
sanitation protocols and worked with the Cook County
Department of Public Health to develop enhanced
disinfection and sanitization practices in Jail housing
units, common areas, and eating spaces. (6a) The
Office would later hire two expert consultants—one of
whom was a former CDC Director—to advise on
sanitation and public health best practices. (7a)
During this time, the Office also worked with Dr.
Concetta Mennella, who operates Cermak Health
Services, the hospital and urgent care facility inside
the Jail, to devise medical protocols in case of an
outbreak. With the intake area of the Jail being the
most vulnerable point of entry, they implemented a
coronavirus screening and isolation procedure for all
new detainees. (6a; Appellant’s Br. 4) Each detainee
received a coronavirus screening at intake and was
placed in quarantine for seven (later fourteen) days
before entering the general population. The Office also
created quarantine and isolation tiers for those who
would be exposed to or infected with the virus,
according to standards set by the Centers for Disease
Control and Prevention (CDC). (5a; Appellant’s Br. 5)
In early March, the Office created the Critical
Incident Command Center (CICC) to monitor all
COVID-related incidents that could impact Jail
operations and drafted the first iteration of its
Coronavirus Operation Plan. The latter follows the
CDC’s Interim Guidance on Management of

6
Coronavirus Disease 2019 (COVID-19) in Correctional
and Detention Facilities (CDC Guidelines). (5a) The
CDC Guidelines recognize the functional and
operational limitations present in densely-populated
correctional facilities. The CDC explicitly states that
its Guidelines “may need to be adapted based on
individual facilities’ physical space, staffing,
population, operations, and other resources and
conditions.” (5a-6a)
In mid-March, the Office began the process of
opening three (later four) previously closed divisions
of the Jail to allow for more single-celled housing and
reduce density in the dormitory units. (6a) This was
an extraordinary undertaking: deep cleaning the
buildings, connecting utilities, staffing the divisions,
and arranging logistics for meal and medication
deliveries on a very expedited schedule. (Appellant’s
Br. 8)
The Office also coordinated with the courts,
prosecutors, and public defenders to secure the
release of more than 1,200 detainees—over 20% of the
Jail’s population—to electronic monitoring or other
modified conditions of bond. (7a)
Elsewhere
within
the
Sheriff’s
Office
organization—before the President of the United
States had even declared a national state of
emergency—the in-house Public Health Advisor
coordinated with state and local public health
departments to create updated protocols on housing
and testing requirements, use of personal protective
equipment
(PPE),
sanitation
protocols
and
minimizing the public health risk upon a detainee’s

7
release into the community. (Appellant’s Br. 8-9)
Because there was a global PPE supply shortage, the
Office also had daily contact with representatives
from the Federal Emergency Management Agency,
Senator Richard Durbin’s office, and the Illinois
Governor’s office to obtain PPE from the national
strategic stockpile. (6a) The CDC did not recommend
the universal use of face masks at this time and
cautioned that limited PPE supplies should be used
only by medical professionals, symptomatic
individuals, or jail staff and others who could bring
the virus in from the community. (Appellant’s Br. 10,
13) The Office also successfully lobbied to become one
of the first sites in the country to administer the newly
developed ID Now coronavirus rapid test. (7a)
All of these actions occurred before the first
reported case of coronavirus at the Jail on or about
March 23, 2020. A few days later, representatives
from the CDC and local public health department
toured the Jail and advised on its protocols and
compliance with the CDC Guidelines. (Appellant’s Br.
12)
B. District Court Proceedings
Temporary Restraining Order (TRO). Two
weeks later, a putative class of detainees sued the
Sheriff challenging the conditions of confinement at
the Jail, claiming the Sheriff’s Office had not taken
any meaningful steps to mitigate the spread of
coronavirus. They first sought categorical release
through a class-wide habeas proceeding. (7a) They
also asserted a claim under 42 U.S.C. § 1983 and
sought a mandatory temporary restraining order

8
(TRO) demanding that the Sheriff implement the
CDC Guidance at the Jail and many other specific
operational measures. In response, the Sheriff
demonstrated that all of the requested relief had
already been implemented at the Jail. He attached
twelve affidavits of Jail personnel documenting the
ongoing efforts taken to contain the spread of the
virus. (Appellant’s Br. 4-13) While the district court
relied heavily on the affidavits submitted by plaintiffs,
it largely ignored the Sheriff’s. (149a-154a)
After a telephonic hearing, on April 9, the district
court granted plaintiffs extraordinary relief in the
form of a TRO affirmatively ordering the Sheriff to:
establish “a policy requiring prompt coronavirus
testing” of certain detainees identified by the court;
provide facemasks to detainees who have been
“exposed to a symptomatic detainee (even if not
coronavirus-positive)”; enforce social distancing
during intake, including “suspending the use of
bullpens”; provide sufficient amounts of soap or hand
sanitizer and sanitization supplies, and establish a
policy requiring regular sanitization of surfaces,
including “monitoring and supervision to ensure that
it takes place.” (168a-170a) At that time, the court
rejected plaintiffs’ request to order social distancing in
the housing areas of the Jail based on the CDC’s
acknowledgment that space constraints often prohibit
the ability to enforce complete social distancing in
those areas. The court also credited the Sheriff’s
“ongoing effort to modify custodial arrangements” in
the housing areas to increase single-celled and
socially-distanced dorm housing, even though it was
not required by the TRO. (158a)

9
Preliminary Injunction. After the Sheriff
submitted his court-ordered report on implementation
of the TRO mandates, plaintiffs moved for a
preliminary injunction. They sought an order to
implement full six-foot social distancing throughout
the Jail, and largely abandoned their pursuit of the
issues in the TRO. (49a) The Sheriff argued that he
had greatly expanded social distancing in the housing
units. By opening shuttered divisions of the Jail and
reducing the Jail population by over 20%, he increased
the amount of single-celled housing by 545% and
reduced the capacity of the dorm housing to less than
50% in nearly all rooms. (Appellate Br. 17-18) But he
could not accommodate full social distancing for
detainees assigned to specialty medical housing areas
or those detainees in quarantine, isolation, or
convalescent tiers based on their COVID-19 status.
The district court held an evidentiary hearing at
which the Jail’s First Executive Director, Michael
Miller, testified. (50a-55a) Miller testified about pages
of occupancy charts showing where detainees were
housed throughout the Jail, broken down by division
and tier, listing maximum capacity and current
percentage occupancy, security designation, and
related detail about housing assignments. Miller
testified about how he used this data to inform
ongoing housing assignments. He moved detainees
from tier to tier as space became available to
maximize
single-celled
and
socially-distanced
housing, while also balancing traditional factors like
security
classifications
and
other
special
considerations. (45a-46a)

10
Miller also testified that representatives from the
CDC and the Chicago Department of Public Health
toured the Jail a week earlier. (45a) CDC Commander
Paige Armstrong commended the Office for “doing an
amazing job” implementing social distancing,
sanitization practices, and compliant use of PPE.
(Appellate Br. 18) Plaintiffs’ expert testified generally
about the medical course of the coronavirus and why
social distancing was one among many effective tools
for limiting the spread of infection, but offered no
specific testimony about the Sheriff’s conduct or the
Jail.
Nevertheless, on April 27, the district court issued
an order imposing a mandatory preliminary
injunction. The court commended the Sheriff’s
“significant, and impressive, effort to safeguard
detained persons in his custody from infection by
coronavirus” and expressed that “the Sheriff and his
staff have acted in good faith, with the goal of
protecting the people placed in his custody.” (93a)
Indeed, the court found that “the Sheriff has been
anything but deliberately indifferent to the risk of
harm to pretrial detainees from coronavirus.” (93a)
Despite these laudatory remarks, the court found
that the Sheriff’s response to the coronavirus was
objectively unreasonable and unconstitutional. (101a)
(“group housing and double celling subject detainees
to a heightened, and potentially unreasonable and
therefore constitutionally unacceptable, risk of
contracting and transmitting the coronavirus”). The
court previously ruled that CDC Guidelines did not
require social distancing in jails where it was not
feasible due to space limitations, but then changed

11
course. (96a n.8) It found that despite Miller’s detailed
testimony on housing assignments, “the Sheriff has
[not] yet hit the feasibility limit” on socially-distanced
housing. (101a) It then ordered the Sheriff to
implement socially-distanced housing in all tiers,
except where detainees were assigned to restricted
housing units for serious medical or COVID-related
conditions. (102a-103a)
The court also converted the terms of the TRO to a
preliminary
injunction.
Despite
repeatedly
recognizing the Sheriff’s compliance with the TRO,
and plaintiffs’ failure to challenge it, it nevertheless
concluded that “there is at least a possibility that
these important measures could slip to the wayside,
despite the Sheriff’s best intentions, as he works to
manage the complexities of the Jail during this public
health crisis.” (106a, 119a)
C. The Seventh Circuit’s Decision
On appeal, the Sheriff argued that the district
court failed to examine the totality of the Sheriff’s
actions taken in response to the coronavirus threat,
focusing too narrowly on social distancing, which was
but one aspect of a comprehensive set of protocols. The
Sheriff also argued that the district court improperly
shifted the burden to the Sheriff to prove why the TRO
mandates should not be converted to a preliminary
injunction and absolved plaintiffs of their burden of
proof. The Sheriff also argued that the district court
elevated its ideals above the Sheriff’s expertise and
judgment when deciding on the appropriate measures
to take in response to the outbreak.

12
The Seventh Circuit reversed as to the social
distancing mandate, but affirmed as to the converted
TRO mandates. (1a-28a). Without articulating an
actual legal framework, the appellate panel held that
the “objective reasonableness standard” applied, with
citation to Kingsley v. Hendrickson. (17a) As to the
social distancing mandate, the panel found that the
district court erred on three distinct grounds: (1) it
narrowly focused its analysis on social distancing,
exclusive of the other exhaustive measures
implemented; (2) it failed to give proper deference to
the Sheriff on housing matters, which involve jail
security concerns; and (3) it applied the wrong
preliminary injunction standard. (15a)
As to the terms converted from the TRO, the panel
noted that the district court “did not revisit its
analysis” in the preliminary injunction order.
Therefore, the panel looked to the district court’s
reasoning in the TRO order, issued three weeks
earlier. (24a) The panel did not analyze whether the
Sheriff’s
conduct
was
unconstitutional
or
unreasonable. Rather, its discussion focused only on
the relief granted by the court; that is, whether the
mandates imposed by the court were consistent with
CDC Guidelines. (25a-26a) Finally, the panel
concluded that while the district court again failed to
defer to the Sheriff’s interests in managing the
complexities of the Jail, as with its social distancing
analysis, it was “less troubled” here because the
converted TRO terms did not involve safety and
security concerns. Thus, it found no legal error. (26a)

13
REASONS FOR GRANTING THE PETITION
Forty years ago, this Court issued its opinion in
Bell v. Wolfish, 441 U.S. 520. In that case, the Court
articulated the standard for evaluating conditions of
confinement claims brought by pretrial detainees:
“[I]f a particular condition or restriction of
pretrial detention is reasonably related to a
legitimate governmental objective, it does not,
without more, amount to ‘punishment.’
Conversely, if a restriction or condition is not
reasonably related to a legitimate goal—if it is
arbitrary or purposeless—a court permissibly
may infer that the purpose of the governmental
action is punishment that may not
constitutionally be inflicted upon detainees qua
detainees.” Id. at 539.
In the years since, the appellate circuits have
strayed from this standard, creating an entrenched
split among the circuits. The most recent departure
followed from this Court’s opinion in Kingsley v.
Hendrickson, which extended Bell’s holding to
formally establish a standard for analyzing detainees’
excessive force claims. Yet several circuits have
misconstrued the holding in Kingsley, viewing it as a
new or modified standard for evaluating jail
conditions cases, abrogating Bell. Their clumsy efforts
to force jail conditions claims into the excessive force
framework of Kingsley has caused unnecessary
confusion and undermined the fundamental
principles of Bell. This Court must grant certiorari to
reaffirm the vitality of Bell and restore consistency in
these important analyses.

14
In Bell, a putative class of detainees filed suit
challenging the conditions of their confinement at the
federal Metropolitan Correctional Center, asserting a
variety of complaints. Among them was the contention
that their assignment to two-person cells violated
their constitutional rights to privacy under the due
process clause. Id. at 530.
The issue in the case required the Court to
establish the standard to be applied to claims
challenging “the constitutionality of conditions or
restrictions of pretrial detention,” which only
implicate due process rights. Id. at 535. In such cases,
“the proper inquiry is whether those conditions
amount to punishment of the detainee,” because
detainees “may not be punished prior to an
adjudication of guilt in accordance with due process of
law.” Id. There is no dispute that the government may
constitutionally detain these individuals after their
arraignments and bail hearings, and may subject
them to certain restrictions and conditions while in
detention.
However, not every condition imposed during
pretrial detention amounts to unconstitutional
“punishment.” Only those conditions and restrictions
that rise to the level of punishment violate the
constitution. Id. at 536-37. Some loss of freedom,
privilege, and comfort is expected. It is only when
those deprivations become punitive in nature do they
violate a detainee’s due process rights. Id. at 537.
Punishment may be shown by a jail official’s
expressed intent to punish. Id. at 538. Absent that, the
determination turns on “‘whether an alternative

15
purpose to which [the restriction] may rationally be
connected is assignable for it, and whether it appears
excessive in relation to the alternative purpose
assigned [to it].’” Id., quoting Kennedy v. MendozaMartinez, 372 U.S. 144, 168-69 (1963); see also id. at
539 n.20 (unduly harsh conditions cannot be imposed
to accomplish an objective where other less harsh
methods could be implemented).
Thus, “if a particular condition or restriction of
pretrial detention is reasonably related to a legitimate
governmental objective, it does not, without more,
amount to ‘punishment.’” Id. at 539. “Conversely, if a
restriction or condition is not reasonably related to a
legitimate goal—if it is arbitrary or purposeless—a
court may permissibly infer that the purpose of the
governmental action is punishment that may not
constitutionally be inflicted upon detainees qua
detainees.” Id. Importantly, “[c]ourts must be mindful
that these inquiries spring from constitutional
requirements and that judicial answers to them must
reflect that fact rather than a court’s idea of how best
to operate a detention facility.” Id.
When the Court issued its opinion in Kingsley v.
Hendrickson in 2015, it extended these principles to
excessive force claims brought by pretrial detainees.
Given the Court’s recognition that pretrial detainees
are protected under the due process clause, and not
the cruel and unusual punishment clause of the
Eighth Amendment, they deserve different treatment.
But until Kingsley, it had not articulated the standard
to be applied to review excessive force claims under
the Fourteenth Amendment. Several of the appellate
circuits began grafting the Eighth Amendment

16
analysis on to pretrial detainees’ claims based on a
passing reference in Bell that detainees were entitled
to “at least” as much protection as convicted prisoners.
See, e.g., Miranda v. County of Lake, 900 F.3d 335,
350 (7th Cir. 2018); Bell, 411 U.S. at 545. Thus,
several circuits required detainees to prove that the
officer had the subjective intent to “maliciously and
sadistically” use excessive force against the pretrial
detainee. Farmer v. Brennan, 511 U.S. 825, 835-36
(1994). But in Kingsley, this Court clarified that such
claims brought by detainees under the Fourteenth
Amendment must be viewed in accordance with the
principles in Bell; i.e., whether the use of force
objectively amounted to punishment. 135 S. Ct. at
2472.
The simple mechanics of an excessive force claim
led to a different articulation of the due process
standard from the one set forth in Bell. In Bell, the
question is whether the conditions imposed were
unrelated to any legitimate nonpunitive purpose or
excessive in relation to that purpose. In Kingsley, the
question is whether a reasonable officer in the same
situation armed with the same knowledge as the
accused officer would have applied the same degree of
force under the circumstances. Both standards
ultimately reflect the same inquiry—whether the
detainee has been subject to unconstitutional
punishment—but each is expressed differently based
on the governmental actions being analyzed. The test
set forth in Kingsley is: (1) whether the use of force
was deliberate, i.e., purposeful, knowing, or reckless,
rather than negligent; and (2) whether the amount of
force used is, constitutionally speaking, “excessive,” or
objectively unreasonable under the circumstances.

17
Kingsley, 135 S. Ct. at 2472-73. Kingsley explains how
the principles set forth in Bell are applied in a specific
context, but it does not change the standard set forth
in Bell for evaluating detainees’ conditions of
confinement claims.
Yet that is precisely how at least three circuit
courts of appeal—the Second, Seventh, and Ninth
Circuits—have applied Kingsley over the past five
years. Among them, they cannot agree on a single
formulation of a post-Kingsley standard, which is to be
expected given the difficulty of fitting a square peg
into a round hole. These courts have not only created
confusion among and within the circuits, but have
deviated fundamentally from the teachings of Bell by
minimizing the considerable deference given to jail
administrators in operating their facilities. Other
circuits have faithfully applied the Bell standard to
pretrial detainees’ conditions of confinement claims.
Still others have confined Kingsley to the excessive
force context, but continue to apply the Eighth
Amendment’s subjective deliberate indifference test
to detainees’ conditions of confinement claims. This
Court must grant certiorari to address the wide
disparity that has developed among the circuits,
particularly since Kingsley.

18
I. The Circuit Courts Of Appeal Are Deeply
Divided Over The Standard Applied To
Alleged Due Process Violations Brought By
Pretrial
Detainees
Challenging
The
Conditions Of Confinement.
The circuit courts of appeal have become deeply
divided over the analytical framework to be applied to
conditions of confinement claims brought by pretrial
detainees under 42 U.S.C. § 1983. While Bell v.
Wolfish articulated the proper standard forty years
ago, a majority of the circuits courts of appeal have
since diverged from Bell, creating a patchwork of
different standards, some of which undermine the
fundamental principles on which Bell stands. Since
this Court’s opinion in Kingsley v. Hendrickson in
2015, the divide has only grown.
Four circuits—the Third, Fourth, Eighth, and D.C.
Circuits—faithfully apply Bell’s objective standard,
analyzing whether the challenged conditions amount
to impermissible punishment because they are not
related to a legitimate nonpunitive governmental
purpose. See Hope v. Warden York Cty. Prison, 972
F.3d 310, 326 (3d Dist. 2020) (acknowledging Kingsley
but continuing to apply traditional Bell analysis to
detainee’s jail conditions claims); Dilworth v. Adams,
841 F.3d 246, 252 (4th Cir. 2016) (same); Stearns v.
Inmate Services Corp., 957 F.3d 902, 908-09 (8th Cir.
2020) (declining to address the impact of Kingsley and
continuing to apply traditional Bell analysis to
detainee’s jail conditions claim); O.M.G. v. Wolf, 2020
U.S. Dist. LEXIS 129300, *37-38 (D.D.C. 2020)
(acknowledging Kingsley but continuing to apply

19
traditional Bell analysis to detainee’s jail conditions
claims).
Four circuits—the First, Sixth, Tenth, and
Eleventh Circuits—apply the subjective deliberate
indifference standard first articulated in Farmer, 511
U.S. at 835. The standard, which is applicable to
Eighth Amendment claims brought by convicted
prisoners, analyzes whether the complained-of
conditions reflect a conscious disregard of a known
risk of serious harm, rising to the level of criminal
recklessness. See Miranda-Rivera v. Toledo-Davila,
813 F.3d 64, 74 (1st Cir. 2016) (recognizing that
Kingsley applies to pretrial detainee’s excessive force
claim, but applying Farmer standard to jail conditions
claim); Richmond v. Huq, 885 F.3d 928, 938 n.3 (6th
Cir. 2018) (recognizing that Kingsley “calls into
serious doubt” whether a detainee still must prove the
subjective prong, but nevertheless applying the
Farmer Eighth Amendment standard); Strain v.
Regalado, 977 F.3d 984, 990-91 (10th Cir. 2020)
(confining Kingsley to excessive force claims and
declining to extend it to jail conditions claims); Nam
Dang v. Sheriff, Seminole Cty. Fla., 871 F.3d 1272,
1279 n.2 (11th Cir. 2017) (same).
The Fifth Circuit has developed a unique hybrid
standard in which it applies Bell’s objective
punishment standard to detainees’ attacks on
“general conditions, practices, rules, or restrictions of
pretrial confinement,” but applies Farmer’s subjective
deliberate indifference standard where the claim
challenges “episodic acts or omissions.” See Hare v.
City of Corinth, 74 F.3d 633, 643 (5th Cir. 1996);
Alderson v. Concordia Parish Corr. Facility, 848 F.3d

20
415, 419 n.4 (5th Cir. 2017) (declining to revisit the
Hare standard in light of Kingsley).
The remaining three circuits—the Second,
Seventh, and Ninth Circuits—have construed
Kingsley as modifying or abrogating the Bell standard
for pretrial detainees’ jail conditions claims. And even
among these circuits, they cannot agree on a single
formulation of a post-Kingsley standard.
•

Darnell v. Piniero, 849 F.3d 17, 35 (2d Cir.
2016) (after Kingsley, a pretrial detainee must
“prove that the defendant-official acted
intentionally to impose the alleged condition, or
recklessly failed to act with reasonable care to
mitigate the risk that the condition posed to the
pretrial detainee even though the defendantofficial knew, or should have known, that the
condition posed an excessive risk to health or
safety. In other words, the ‘subjective prong’ (or
‘mens rea prong’) of a deliberate indifference
claim is defined objectively”);

•

Castro v. City of Los Angeles, 833 F.3d 1060,
1071 (9th Cir. 2016) (after Kingsley, a pretrial
detainee must prove: “(1) the defendant made
an intentional decision with respect to the
conditions under which the plaintiff was
confined; (2) those conditions put the plaintiff
at substantial risk of suffering serious harm; (3)
the defendant did not take reasonable available
measures to abate the risk, even though a
reasonable officer in the circumstances would
have appreciated the high degree of risk
involved—making the consequences of the

21
defendant’s conduct obvious; and (4) by not
taking such measures, the defendant caused
the plaintiff’s injuries”; detainees must prove
“something akin to reckless disregard”); and
•

Miranda v. County of Lake, 900 F.3d 335, 353
(7th Cir. 2018) (announcing that Kingsley
extends to claims of inadequate medical care,
but struggling to articulate a workable
standard); Hardeman v. Curran, 933 F.3d 816,
823 (7th Cir. 2019) (same, with respect to
conditions of confinement claims); McCann v.
Ogle, 909 F.3d 881, 886 (7th Cir. 2018) (states
the post-Kingsley standard as: (1) whether the
defendants acted purposefully, knowingly, or
perhaps even recklessly when they considered
the consequences of their handling of the
plaintiff’s case; and (2) whether the challenged
conduct was objectively reasonable, considering
the totality of facts and circumstances faced by
the defendant without regard to the
defendant’s subjective belief that the response
was reasonable, but failing to discuss Bell).

If Kingsley has changed anything, it has finally
articulated what has long been implied in the Bell
analysis. While the standard is described as objective,
it necessarily incorporates a state of mind component,
such that the jail official’s actions must rise to the
level of recklessness. This is consistent with the
fundamental
principles
of
entity
liability.
“‘[M]unicipal liability under § 1983 attaches where–
and only where–a deliberate choice to follow a course
of action is made from among various alternatives’ by
city policymakers.” City of Canton v. Harris, 489 U.S.

22
378, 389 (1989), quoting Pembaur v. Cincinnati, 475
U.S. 469, 483-84 (1986). And that decision must reflect
a “deliberate indifference” to a detainee’s rights for
there to be any liability. Id. at 392. It has since been
viewed as objective deliberate indifference, measured
against a standard of recklessness. Farmer, 511 U.S.
at 836-37.
But the efforts of the Second, Seventh, and Ninth
Circuits to apply the Kingsley framework to jail
conditions claims are misguided and have caused
confusion among jail officials and the courts. The
Kingsley framework—focusing on (1) whether an
individual officer’s use of force was intentional or
reckless rather than negligent, and (2) the objective
proportionality of the response—is incongruous with
a conditions of confinement claim. These circuits have
concluded that the “logic” of Kingsley extends to jail
conditions claims, but in fact, the opposite is true:
Kingsley is itself an extension of Bell, as applied to the
unique circumstances of an excessive force claim. The
ultimate question underlying Bell and Kingsley may
be the same as to prohibiting punishment, but the
path to answering that question is not: whether a
detainee has been subjected to punishment
fundamentally depends on the mechanics of the claim.
There are other ways in which the mechanics of an
excessive force claim differ from that of a jail
conditions case, warranting a different analysis. For
example, an Eighth Amendment jail conditions case is
subject to a deliberate indifference standard, which
examines whether the jail official made a conscious
decision to disregard an excessive risk of harm of
which it is subjectively aware. Farmer, 511 U.S. at

23
837. However, in an Eighth Amendment excessive
force analysis, the inquiry focuses on whether an
individual officer applied force “‘maliciously and
sadistically for the very purpose of causing harm,’” or
with “‘a knowing willingness that [harm] occur.’” Id.
at 835-36, quoting Hudson v. McMillian, 503 U.S. 1, 6
(1992). This heightened standard reflects the realities
of evaluating the amount of force used in the moment,
which requires consideration of the fact that decisions
are made “‘in haste, under pressure, and frequently
without the luxury of a second chance.’” Id.
So too must a Fourteenth Amendment excessive
force claim reflect a different reality of circumstance
than a Fourteenth Amendment jail conditions claim.
Most concerning is that applying a Kingsley standard
to a jail conditions case will necessarily collapse the
inquiry and effectively impose strict liability on the
officials. As to the first prong, focusing on
intentionality, a jail administrator’s decision to
implement one set of policies over alternative ones is
necessarily an intentional, knowing decision. That
prong will always be satisfied. As to the second prong,
the jail administrator is making that decision
knowing that there is a risk of harm, which is the
reason the challenged policies are being implemented.
In essence, the risk of harm itself is being used to
establish a culpable state of mind, which turns the
entire inquiry about “reasonableness” on its head,
particularly if the risk is not eliminated, as in the case
below. (See 89a-104a)
This Court should grant certiorari to resolve the
circuit split about whether Kingsley abrogated or
modified the Bell standard applied to pretrial

24
detainee’s conditions of confinement claims. The
Court should ensure uniformity among the circuits
and provide jail officials guidance in operating their
facilities.
II.

This Circuit Split Is Particularly Evident
In Cases Analyzing Challenges to COVID19 Protocols Under The Fourteenth
Amendment.

As but one example, the courts’ confusion on the
proper standard for Fourteenth Amendment
challenges to conditions of confinement is reflected in
the widely different treatment given to cases
challenging COVID-19 protocols in detention
facilities. Not only do the outcomes vary from
jurisdiction to jurisdiction—and in some cases, within
the same circuit—they also reveal a departure from
fundamental principles set forth in Bell, virtually
eliminating the considerable deference given to jail
administrators to manage the complexities of their
facilities. As a result, jail administrators are dealing
with unprecedented court interference with jail
operations while also managing an unprecedented
global pandemic behind the jail walls.
First Circuit: Intra-circuit split. See Gomes v.
U.S. Dep’t Homeland Sec., 2020 U.S. Dist. LEXIS
115070, *6-8 (D.N.H. July 1, 2020) (acknowledging the
continuing uncertainty since Kingsley and collecting
cases reflecting an intra-circuit split). Compare Baez
v. Moniz, 460 F. Supp. 3d 78 (D. Mass., May 18, 2020)
(concluding pretrial detainees had to show subjective
deliberate indifference) with Yanes v. Martin, 464 F.
Supp. 3d 467 (D.R.I., June 2, 2020) (concluding that

25
Kingsley did away with the need for civil detainees to
show the “subjective state of mind that is a hallmark
of ‘deliberate indifference’ or ‘reckless disregard’
formulations’”).
Second Circuit: Applying modified Kingsley
standard. Compare Fernandez-Rodriguez v. LiconVitale, 2020 U.S. Dist. LEXIS 116749, *45-47, 56
n.199 (S.D.N.Y July 2, 2020) (citing Darnell, and while
not deciding the proper standard, concludes plaintiffs
would fail under either standard) with Jones v. Wolf,
2020 U.S. Dist. LEXIS 58368, *8-18, 33-34 (W.D.N.Y.)
(applying Darnell and applying an objective deliberate
indifference standard)
Third Circuit: Applying Bell standard. Hope v.
Warden York Cty. Prison, 972 F.3d 310, 326 (3d Cir.
2020) (applying Bell standard to pretrial detainee’s
conditions claim: court must consider the totality of
circumstances and assess whether conditions are (1)
rationally related to their legitimate purpose or (2)
excessive in relation to that purpose)
Fourth Circuit: Intra-circuit split. Compare
Coreas v. Bounds, 451 F. Supp. 3d 407, 421-23 (D. Md.
April 3, 2020) (applies deliberate indifference to
conditions and inadequate medical care claims) with
Baxley v. Jividen, 2020 U.S. Dist. LEXIS 239699, *4749 (S.D.W. Va. Dec. 21, 2020) (discusses Kingsley and
suggesting it may be time to reevaluate the standard,
but ultimately applies deliberate indifference
standard to medical care claims) and Aslanturk v.
Hott, 459 F. Supp. 3d 681, 695-96 (E.D. Va. May 8,
2020) (applies Bell standard to jail conditions claim)

26
Fifth Circuit: Applying Bell standard. Hernandez
v. Mora, 2020 U.S. Dist. LEXIS 106184, *22-23 (N.D.
Tex. June 15, 2020); Barrera v. Wolf, 455 F. Supp. 3d
330, 338- (S.D. Tex. April 17, 2020)
Sixth Circuit. Applying objective standard.
Cameron v. Bouchard, 815 Fed. Appx. 978, 984-85
(6th Cir. 2020) (declining to decide whether Kingsley
or deliberate indifference standard applies, but claim
fails under either standard)
Seventh Circuit: Applying modified Kingsley
standard. Mays v. Dart, 947 F.3d 810 (7th Cir. 2020)
Ninth Circuit: Applying modified Kingsley
standard. Roman v. Wolf, 2020 U.S. App. LEXIS
30510, *15 (9th Cir. 2020)
D.C. Circuit: Intra-circuit split. Compare Banks
v. Booth, 2020 U.S. Dist. LEXIS 107762, *16-18
(D.D.C. June 18, 2020) (applying Kingsley standard in
absence of guidance by D.C. Circuit) with O.M.G. v.
Wolf, 2020 U.S. Dist. LEXIS 129300, *37-38 (D.D.C.
July 22, 2020) (applying Bell standard)
III.

The Seventh Circuit’s Approach Falls On
The Wrong Side Of The Split And This
Case Is An Ideal Vehicle To Address The
Question.

The Seventh Circuit’s decision in Mays v. Dart is a
study in contradiction that illustrates perfectly the
problem with grafting the Kingsley excessive force
framework onto a conditions of confinement claim. By
trying to view a jail conditions claim from the lens of
an excessive force claim, the panel asked the wrong

27
question in evaluating the constitutionality of the
Sheriff’s conduct. Its approach runs contrary to the
fundamental principles set out in Bell, which, if
applied, would have produced a different result as to
the converted TRO claims. First, the panel failed to
focus its inquiry on the primary question of whether
any detainees were subjected to impermissible
punishment as a result of the COVID-19 protocols
implemented at the Jail. Second, contrary to the
principles articulated in Bell, the panel failed to give
proper deference to the Sheriff’s judgment respecting
other complexities of jail operations—magnified
immeasurably when dealing with a global pandemic—
not just those affecting security.
Under Bell, the appellate panel should have
analyzed whether the detainees were subjected to any
unconstitutional punishment as a result of the
COVID-19 protocols implemented at the Jail. That is,
was the Sheriff’s comprehensive coronavirus response
“reasonably related to a legitimate governmental
objective” and proportionate relative to that objective,
or was it “arbitrary or purposeless,” permitting the
court to infer that their purpose was to inflict
punishment? Bell, 441 U.S. at 539. In applying this
standard, courts must be “mindful that these inquiries
spring from constitutional requirements and that
judicial answers to them must reflect that fact rather
than a court’s idea of how best to operate a detention
facility.” Id.
While jail security is an important objective in
operating a jail, it is far from the only consideration
that justifies the need for certain conditions without
raising the inference that they were intended as

28
punishment. Id. at 540. The Court has long
acknowledged the “problems that arise in the day-today operation of a corrections facility [that] are not
susceptible of easy solutions,” without the need to
exhaustively “detail the precise extent of th[ose]
legitimate governmental interests.” Id. at 540, 547.
Jail administrators are responsible for resolving
complex issues related to many different aspects of jail
operations and internal order, which “require
expertise, comprehensive planning, and the
commitment of resources, all of which are peculiarly
within the province of the legislative and executive
branches.” And this is particularly true in the context
of coronavirus response strategies: the Constitution
empowers those “politically accountable officials of the
States” to make health and safety decisions on behalf
of their constituents, and not “subject [them] to
second-guessing by an ‘unelected federal judiciary,’
which lacks the background, competence, and
expertise to assess public health and is not
accountable to the people.’” S. Bay United Pentecostal
Church v. Newsom, 140 S. Ct. 1613, 1613-14 (2020)
(Roberts, C.J., concurring).
Here, had the appellate panel applied Bell as
intended, it would have framed its analysis in terms
of whether the comprehensive measures implemented
in response to the threat of a coronavirus outbreak
subjected any detainees to unconstitutional
punishment. That is, were the COVID-19 protocols
related to a legitimate nonpunitive governmental
objective, or were they arbitrary and purposeless,
implying an intent to punish the detainees?

29
Under the proper framework, the panel could not
have avoided the conclusion that the extensive
protocols implemented represented a balancing of
different options—all of which were intended to
protect the detainees from the spread of a highlycontagious novel coronavirus, while operating within
a complex environment with limited resources—not to
impose punishment. The panel recognized the
Sheriff’s efforts in consulting with local, state, and
federal public health officials two months before the
first case of coronavirus entered the Jail, making
preparations long before an outbreak occurred. (7a)
He created quarantine and isolation housing for
detainees who may become infected or exposed,
enacted enhanced sanitization protocols, sought to
access the national strategic stockpile of PPE during
a global pandemic, and lobbied to have the Jail named
as one of the first sites in the country where the
coronavirus rapid test would be administered. (7a)
The panel recited the Sheriff’s “substantial efforts to
increase social distancing, such as opening shuttered
divisions of the Jail, creating new single-cell housing,
and decreasing the capacity of dormitories.” (18a) It
also acknowledged the “extensive other measures”
taken to prevent the spread of the virus throughout
the Jail. (18a)
The Sheriff’s comprehensive approach to
containing the coronavirus was anything but
“arbitrary or purposeless,” revealing not a hint of an
intent to punish detainees. Bell, 411 U.S. at 539.
Indeed, the district court itself lauded the Sheriff’s
“significant, and impressive, effort to safeguard
detained persons in his custody from infection by
coronavirus” and expressed that “the Sheriff and his

30
staff have acted in good faith, with the goal of
protecting the people placed in his custody.” (93a) The
court explicitly remarked that “the Sheriff has been
anything but deliberately indifferent to the risk of
harm to pretrial detainees from coronavirus.” (93a)
Taken together, these comments belie the very
suggestion that the Sheriff acted recklessly or
unconstitutionally in devising and implementing the
COVID-19 protocols at the Jail. See City of Canton,
489 U.S. at 389; Farmer, 511 U.S. at 836-37.
While the appellate panel faulted the district court
for not considering the entirety of the Sheriff’s
coronavirus response efforts before imposing the
social distancing requirement, “especially in a case
involving a systemic claim like here,” it curiously did
not apply that same logic when analyzing the
remaining terms of the injunction. (17a) The panel
correctly found that the scope of the district court’s
review focused too narrowly on social distancing
efforts alone, rather than considering that in the
context of the dozens of other measures implemented.
But when it came to the four converted TRO
mandates, the panel found the Sheriff’s actions were
constitutionally inadequate—even though they too
were but a small part of the same set of protocols. And
the claim remained a systemic one that required the
panel to analyze all of the measures taken by the
Sheriff in response to the risk of an outbreak. The
scope of the Sheriff’s comprehensive response did not
change from the time the TRO was entered to the time
the preliminary injunction issued. The panel’s view of
that factor also should not have changed. The Sheriff
may satisfy his constitutional obligations without

31
entirely eradicating the risk of harm. Farmer, 511
U.S. at 844.
The appellate panel also erred by failing to analyze
the constitutionality of the Sheriff’s conduct in
response to this systemic risk as Bell requires: that is,
was the decision to implement some COVID-19
protocols versus others so arbitrary and purposeless
that it rose to the level of unconstitutional
punishment? Instead, it focused its review on the
relief granted: were the terms imposed by the district
court consistent with the CDC Guidelines and,
essentially, did the court “split the win”?1
The converted TRO mandates affirmatively
ordered the Sheriff to: establish “a policy requiring
prompt coronavirus testing” of certain detainees
identified by the court, not required by the CDC

1

As the Sheriff argued on appeal (Appellate Br. 38-41), it was
error for the district court to convert the TRO terms when it was
no longer litigated at the preliminary injunction stage, and the
appellate court erred in relying on that analysis, written three
weeks earlier. See 24a (“When the district court issued the
preliminary injunction, it did not revisit its analysis on any of
these measures. Because the discussion pertaining to these
measures resides in the temporary restraining order, we turn
there for our analysis.”). But that does not preclude review by
this Court, where the question concerns whether the appellate
panel applied the proper legal standard and the record contains
the facts necessary to evaluate the application of the proper
standard. See Gonzales v. O Centro Espirita Beneficiente Uniao
do Vegetal, 546 U.S. 418, 429 (2006); Hope v. Warden York Cty.
Prison, 972 F.3d 310 (3d Cir. 2020) (“The District Court turned
due process on its head when it required the party against whom
it ordered injunctive relief to prove why such relief should not be
continued.”).

32
(164a); provide facemasks to detainees who have been
“exposed to a symptomatic detainee (even if not
coronavirus-positive), which was contrary to CDC
recommendations at the time (161a); enforce social
distancing during intake, including “suspending the
use of bullpens,” an issue raised by the court, not the
parties (157a); provide “sufficient amounts” of soap or
hand sanitizer and sanitation supplies and require
“monitoring and supervision to ensure that it takes
place.” (158a-160a)
As the Sheriff argued in response to the TRO
petition, and supported with twelve affidavits that the
district court scarcely considered, there were
legitimate nonpunitive reasons for not undertaking
these measures. The Sheriff’s decision on which
measures to implement, or not, involve complex
operational decisions balancing resources, safety,
priority, and the Sheriff’s authority to act. See
Newsom, 140 S. Ct. at 1613-14. All of those decisions
were made in consultation with local, state, and
federal public health officials and subject matter
experts.
First, the Sheriff had no authority to develop
policies for administering coronavirus tests. Those
were medical decisions to be made by Cermak staff,
which was in the midst of a global testing supply
shortage at the time the TRO was entered. (164a)
Second, there also was a global shortage of PPE.
Consequently, the CDC specifically advised against
giving facemasks to anyone other than medical staff,
symptomatic detainees, and correctional officers or
others who could bring the virus in from the
community, as the district court expressly recognized.

33
(161a) The Sheriff prioritized the limited number of
supplies in accordance with CDC guidelines. Frankly,
the district court’s order contradicted CDC guidelines
at the time and forced the Sheriff to reallocate these
limited resources. Third, the number of detainees
entering the Jail dropped significantly because of the
courts’ and prosecutors’ decisions to defer remand,
which allowed for sufficient distancing and reduced
the need for any “special enforcement” of social
distancing in these areas. (92a) Moreover, the Sheriff
had already created screening protocols at intake and
procedures to quarantine all new detainees for up to
14 days before entering the general population, which
offered additional protection against the spread of the
virus. Finally, the Sheriff exponentially increased the
amount of soap and cleaning supplies distributed. No
detailed logs were kept about daily distribution of
supplies at that time because, in the Sheriff’s
judgment, at those early stages just days after the
first case of coronavirus was detected, staff resources
were better spent on other frontline coronavirusrelated efforts.
Because the appellate panel did not apply the
proper Bell standard, it failed to properly analyze the
Sheriff’s conduct, or afford it the proper deference.
Instead, the panel deferred to the district court’s
judgment about the measures it thought best to
implement, in stark contrast to Bell’s teachings. The
panel also concluded that it was “less troubled” with
the district court’s lack of deference to the Sheriff’s
experience and authority in implementing other
COVID-19 protocols, and “did not find legal error”
with these aspects of the mandatory injunction,
because they did not strictly involve jail security

34
issues. (26a) But it was not the district court’s place to
make judgment calls about jail best practices. Nor
does the appellate panel have ability to trivialize such
interference.
The “wide range of ‘judgment calls’ that meet
constitutional and statutory requirements are
confided to officials outside of the Judicial Branch of
Government.” Bell, 411 U.S. at 562; Newsom, 140 S.
Ct. at 1613-14. This Court has long recognized and
respected that jail administrators should be “accorded
wide-ranging deference in the adoption and execution
of policies and practices that in their judgment are
needed to preserve internal order and discipline and
to maintain institutional security.” Id. at 548 n.30.
That applies to matters affecting jail security, but also
to the myriad other complex issues affecting jail
operations. Resolving those matters may justify
imposing certain conditions without an inference of
punishment arising. Id.
“Judicial deference is accorded not merely because
the [jail] administrator ordinarily will…have a better
grasp of his domain than the reviewing judge, but also
because the operation of our correctional facilities is
peculiarly the province of the Legislative and
Executive Branches of our Government, not the
Judicial.” Id. at 548. For those reasons, “courts are ill
equipped to deal with the increasingly urgent
problems of prison administration and reform.” Id. at
548 n.30. “In the absence of substantial evidence in
the record to indicate that the officials have
exaggerated their response to these considerations,
courts should ordinarily defer to their expert
judgment in such matters.” Id. at 547-48, quoting Pell

35
v. Procunier, 417 U.S. 817, 827 (1974) (emphasis
added).
As in Bell, the district court—and by extension, the
appellate panel—“simply disagreed with the
judgment” made by the Sheriff about the operational
considerations involved or the means required to
further those interests. Id. at 554. But such “unguided
substitution of judicial judgment for that of the expert
prison administrators on matters such as this is
inappropriate.” Id. While the district court’s preferred
protocols, blessed by the appellate court, “may be a
reasonable way of coping with the problems of
security, order, and sanitation,” it is “not…the only
constitutionally permissible approach to these
problems.” Id.
That is not to say that courts must take a “handsoff” approach to its evaluation of jail administration.
Id. at 562. But courts may not “trench[ ] too cavalierly
into areas that are properly the concern” of jail
officials and become “enmeshed in the minutiae of
prison operations.” Id. 554, 562. When analyzing the
constitutionality of a jail administrator’s conduct
relative to jail conditions, “the first question to be
answered is not whose plan is best, but in what branch
of the Government is lodged the authority to initially
devise the plan.” Id. Of course, constitutional rights
must be “scrupulously observed,” but “the inquiry of
federal courts into prison management must be
limited to the issue of whether a particular system
violates any prohibition of the Constitution.” Id.
Had the court applied the Bell standard when
analyzing the plaintiffs’ challenge to the COVID-19

36
protocols, the outcome here would have been different.
This error is consequence of a lack of clarity on the
appropriate standard to apply to pretrial detainees’
challenges to conditions of confinement since
Kingsley. This error is being repeated in courts across
the country, as similar lawsuits are being filed in jails
and detention centers nationwide. The Court should
grant certiorari to reaffirm the legal framework set
forth in Bell and provide proper guidance to courts
and jail administrators going forward.
CONCLUSION
For these reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
GRETCHEN HARRIS SPERRY
Counsel of Record
ROBERT T. SHANNON
JAMES M. LYDON
Hinshaw & Culbertson
151 N. Franklin Street
Chicago, IL 60606
(312) 704-3521
gsperry@hinshawlaw.com
Counsel for Petitioner
Sheriff Thomas J. Dart
January 15, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, DATED SEPTEMBER 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 20-1792
ANTHONY MAYS, INDIVIDUALLY AND ON
BEHALF OF A CLASS OF SIMILARLY
SITUATED PERSONS, et al.,
Plaintiffs-Appellees,
v.
THOMAS J. DART, SHERIFF OF
COOK COUNTY, ILLINOIS,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 20-cv-2134 — Matthew F. Kennelly, Judge.
August 18, 2020, Argued
September 8, 2020, Decided
Before Sykes, Chief Judge, and Brennan and St. Eve,
Circuit Judges.

2a
Appendix A
St. Eve, Circuit Judge. Plaintiffs—a class of detainees
at the Cook County Jail—brought this action against Cook
County Sheriff Thomas Dart after the Jail reported an
outbreak of COVID-19, the disease caused by the novel
coronavirus that has sparked a global pandemic. Plaintiffs
contend that the Sheriff has violated their Fourteenth
Amendment Due Process rights by failing to provide them
with reasonably safe living conditions as the pandemic
rages. Plaintiffs seek various forms of relief, including
an injunction requiring the Sheriff to implement certain
procedures related to social distancing, sanitation,
diagnostic testing, and personal protective equipment
(“PPE”) to protect them from the virus for the duration
of the pandemic.
A fter a hearing, the district court g ranted a
temporary restraining order imposing several forms of
relief, including but not limited to, mandates requiring the
Sheriff to provide hand sanitizer and soap to all detainees
and face masks to detainees in quarantine. The district
court declined to order relief in several instances, though:
most notably for our decision today, the district court
rejected Plaintiffs’ request to prohibit double celling and
group housing arrangements to permit adequate social
distancing.
Plaintiffs subsequently moved for entr y of a
preliminary injunction, requesting an extension of the
relief the district court previously mandated in the
temporary restraining order and, among other things,
renewing their request for socially distanced housing.
After another hearing, the district court switched course

3a
Appendix A
from its prior ruling and granted the renewed social
distancing request, albeit with certain exceptions. The
district court also granted the request for an extension
of the relief included in the temporary restraining order.
The Sheriff appealed.
We conclude that, in the course of its analysis
regarding double celling and group housing, the district
court committed three distinct legal errors: the district
court failed to consider the Sheriff’s conduct in its
totality, failed to afford proper deference to the Sheriff’s
judgment in adopting policies necessary to ensure safety
and security, and cited an incorrect legal standard
when evaluating the likelihood that Plaintiffs’ claims
will succeed on their merits. Given these legal errors
in evaluating the likelihood of success on the merits of
Plaintiffs’ claims, we reverse the district court with
respect to the portion of the preliminary injunction
mandating socially distanced housing. Regarding the
remaining relief, however, the district court made detailed
factual findings, properly considered the Sheriff’s conduct
in its totality, and closely tailored the relief it ordered to
the guidelines promulgated by the Centers for Disease
Control and Prevention (“CDC”). We therefore affirm all
other aspects of the preliminary injunction.
I. Background
A. Factual Background
At present, COVID-19 requires no introduction:
the novel coronavirus causing this disease has spread

4a
Appendix A
around the world, resulting in an unprecedented global
pandemic that has disrupted every aspect of public life.
The virus, SARS-CoV-2, causes symptoms ranging from
fever to shortness of breath to loss of smell and can lead
to serious health effects—including damage to internal
organs and, in many cases, death. People over the age of
sixty-five and with certain preexisting health conditions
face a heightened risk of severe illness resulting from
COVID-19. The virus transmits rapidly from person to
person, primarily through respiratory droplets emitted
by coughing or sneezing that can travel multiple feet and
remain in the air for several hours, and also through
lingering particles on surfaces. People may transmit the
virus despite a lack of symptoms, making it difficult to
take necessary precautions.
Society has, though, taken many precautions to
attempt to curb the spread of COVID-19. Many states,
including Illinois, presently require wearing face
coverings in public spaces in order to slow the spread of
COVID-19. States have ramped up testing capacity and
contact tracing to identify those who have interacted with
persons who later tested positive for the virus. Illinois and
most other states implemented stay-at-home orders that
forced people to socially distance, limiting interpersonal
contacts and group activities: schools transitioned to
remote learning, restaurants and bars closed, and officials
largely cancelled public events.
The Cook County Jail is an enormous facility with
the population of a small town. The inherent nature of
the Jail presents unique challenges for combatting the

5a
Appendix A
spread of COVID-19: it is designed to accommodate large
and densely-packed populations. Many detainees reside in
“dormitory” units, meaning hundreds of detainees sleep
in a single room on closely-spaced bunk beds, and there
are many common spaces where detainees are in close
proximity to one another. On April 8, 2020, The New York
Times reported that, at that time, the Jail was the largest
known-source of coronavirus infections in the United
States. Timothy Williams and Danielle Ivory, Chicago’s
Jail Is Top U.S. Hot Spot as Virus Spreads Behind
Bars (April 8, 2020) N.Y. Times, https://www.ny-times.
com/2020/04/08/us/coronavirus-cook-county-jail-chi-cago.
html (last visited August 27, 2020). When Plaintiffs filed
their motion for a preliminary injunction, on April 14, 541
detainees and Jail staff had tested positive for COVID-19.
By April 23, only a few days before the district court
issued the preliminary injunction that is the subject of this
appeal, six detained persons had died from complications.
On March 23, the Center for Disease Control issued
Interim Guidance on Management of Coronavirus
Disease 2019 (COVID-19) in Correctional and Detention
Facilities (“CDC Guidelines”). The document “is intended
to provide guiding principles for healthcare and nonhealthcare administrations of correctional and detention
facilities” to “help reduce the risk of transmission and
severe disease from COVID-19” in light of the unique
challenges correctional and detention facilities present.
The Guidelines recommend various measures, including
making available sufficient hygiene and cleaning supplies,
frequently cleaning and disinfecting high-touch surfaces
and objects, and implementing social distancing strategies

6a
Appendix A
where feasible, among many others. The Guidelines
note, in bold font, that the “guidance may need to be
adapted based on individual facilities’ physical space,
staffing, population, operations, and other resources and
conditions.” Additionally, in the section recommending
the implementation of social distancing in jails, the CDC’s
guidance notes “[s]trategies will need to be tailored to
the individual space in the facility and the needs of the
population and staff.”
The Cook County Sheriff, who is responsible for
operating the Jail, took numerous proactive measures
to prevent the spread of COVID-19. As early as January
24, Roland Lankah, the Sheriff’s in-house Environmental
Health Specialist and epidemiologist, began coordinating
with the Cook County Health Infection Control Department
to develop a plan for an outbreak. That plan involved
increasing disinfection and sanitization, devising protocols
to screen detainees for symptoms, and moving infected
detainees to separate housing. Upon Governor Pritzker’s
declaration of Illinois as a disaster area on March 9, the
Sheriff set up a space for new detainees to quarantine
for seven to fourteen days before entering the general
population. By mid-March, First Assistant Executive
Director Michael Miller was working to open three closed
divisions of the Jail to create more single-cell units and
reduce density. The Sheriff also coordinated with Senator
Durbin’s office, the Federal Emergency Management
Agency, and Governor Pritzker’s office to receive priority
access to the national stockpile of PPE in Illinois. The
Sheriff engaged various consultants, including a former
CDC Director, to improve sanitation policies, policies

7a
Appendix A
relating to medical screening, and use of PPE. In
coordination with other stakeholders in the Cook County
criminal justice system, the Sheriff undertook efforts to
reduce the Jail population through securing release or
electronic monitoring for over 1,200 detainees. And, on
April 1, the Sheriff’s Office contacted local authorities
to obtain approval to administer Abbott Laboratories’
rapid test at the Jail. Cermak Health Services, a division
of the Cook County Health and Hospital Systems, began
administering these tests soon thereafter.
B. Procedural Background
On April 3, Anthony Mays and Kenneth Foster, two
detainees at the Cook County Jail, sued Cook County
Sheriff Thomas Dart on behalf of “all people who are
currently or who will in the future be housed in the Cook
County Jail for the duration of the COVID-19 pandemic.”
The class includes two subclasses: Subclass A, which
consists of all people who are at an elevated risk of
complications from COVID-19 due to age or an underlying
medical condition, and Subclass B, which consists of all
people housed on a tier where someone has tested positive
for the virus. They assert violations of their rights under
the Fourteenth Amendment to reasonably safe living
conditions, bringing claims under 42 U.S.C. § 1983 and
for writs of habeas corpus under 28 U.S.C. § 2241.
1.

Temporary Restraining Order

Plaintiffs moved for a temporary restraining order,
requesting that the district court order the Sheriff to

8a
Appendix A
enact multiple measures designed to prevent the spread
of COVID-19. On April 9, after conducting a hearing via
telephone and reviewing numerous affidavits Plaintiffs
submitted, the district court issued a temporary
restraining order, though one considerably narrower than
the order Plaintiffs requested. This temporary restraining
order compelled the Sheriff to do the following:
• To establish “a policy requiring prompt coronavirus
testing of detainees who exhibit sy mptoms
consistent with coronavirus disease as well as,
at medically appropriate times and to the extent
feasible based on the acquisition of sufficient testing
materials, detainees who have been exposed to
others who have exhibited those symptoms or have
tested positive for coronavirus.”
• To enforce “social distancing during the new
detainee intake process, including suspending the
use of bullpens to hold new detainees awaiting
intake.”
• To provide “soap and/or hand sanitizer to all
detainees in quantities sufficient to permit them
to frequently clean their hands” and “adequate
sanitation supplies to enable all staff and detainees
to regularly sanitize surfaces and objects on which
the virus could be present, including in all areas
occupied or frequented by more than one person
(such as two-person cells, as well as bathrooms and
showers).”

9a
Appendix A
• To establish “a policy requiring sanitization between
all uses of frequently touched surfaces and objects
as well as monitoring and supervision to ensure that
such sanitization takes place regularly.”
• To “provide facemasks to all detainees who are
quarantined—i.e., those who have been exposed
to a detainee who is symptomatic (even if not
coronavirus-positive).”
In imposing this relief, the district court made detailed
factual findings about the policies the Sheriff had enacted
and his successes and shortcomings in executing those
policies. Throughout its decision, the district court relied
heavily on the CDC Guidelines. Where the district court
elected to impose the requested relief, the court noted
that the evidence showed the Sheriff’s collective actions
fell short of those recommended in the CDC Guidelines.
In several instances, though, the district court
declined to implement additional relief where the evidence
revealed that the Sheriff already had a policy in place—
such as one requiring a fourteen-day quarantine of all new
detainees—or existing measures were sufficient—such as
those to enforce the use of PPE by Jail staff who come into
contact with detainees. The court also overruled Plaintiffs’
requests for mandatory social distancing throughout the
Jail and a directive to identify detainees who are at high
risk for complications from COVID-19. In these instances,
the court was unpersuaded that Plaintiffs were likely to
succeed on the merits of their claim that the Sheriff’s
conduct posed a constitutional violation.

10a
Appendix A
Regarding social distancing in particular, the district
court acknowledged the Sheriff’s “ongoing effort[s] to
modify custodial arrangements” at the Jail to “permit
greater separation of detainees,” but noted that “space
constraints” at the Jail preclude “complete social
distancing.” The court cited the CDC Guidelines, which
“expressly recognize that complete social distancing
may not be possible in the sleeping areas of a jail.” The
court also acknowledged that “[s]pace constraints at the
Jail do not allow for the more preferable degree of social
distancing that exists in the community at large.” The
court thus concluded that “plaintiffs have [failed] to show
a reasonable likelihood of success on their contention
that the Sheriff is acting in an objectively unreasonable
manner by failing to mandate full social distancing”
and that this was “particularly so because the Sheriff’s
submission reflects an ongoing effort to modify custodial
arrangements at the Jail in a way that will permit greater
separation of detainees.»
2.

Preliminary Injunction

On April 14, Plaintiffs moved for entry of a preliminary
injunction. Relevant to our decision today, Plaintiffs sought
to extend the relief the court imposed in the temporary
restraining order and again requested a mandate
for social distancing throughout the Jail. The Sheriff
opposed the motion, and, regarding the request for social
distancing, argued that his efforts were consistent with
the CDC Guidelines, that he had already taken substantial
steps to implement social distancing, and that further
steps were impossible. The Sheriff submitted a progress

11a
Appendix A
report on efforts to contain the coronavirus. Regarding
social distancing, the progress report described efforts
to open previously closed divisions, transition 175 tiers
to single-cell housing, and reduce dormitory capacity to
below fifty percent, except for detainees in certain medical
or restricted housing. The Sheriff also had worked with
criminal justice stakeholders to secure the release of more
than 1,200 detainees with appropriate bond conditions,
increased single-cell housing at the Jail by approximately
545%, and decreased double-celled housing at the Jail by
over 90%.
The district court conducted a preliminary injunction
hearing via videoconference and permitted each side to call
one witness in addition to submitting affidavits. The court
ultimately granted Plaintiffs’ motion in part. Regarding
Plaintiffs’ § 1983 claim, the court conditionally certified
the proposed class to the extent Plaintiffs requested
a conversion of the temporary restraining order to a
preliminary injunction and a mandate requiring increased
social distancing. The court then proceeded to the question
of whether Plaintiffs had demonstrated that they had a
“better than negligible chance” of succeeding on their
contention that the Sheriff’s conduct in addressing the
risks posed by exposure to the coronavirus is objectively
unreasonable. The court acknowledged the “significant,
and impressive, effort” the Sheriff had undertaken, and
noted that, if this were an Eighth Amendment claim, this
finding regarding the Sheriff’s efforts would likely end
the matter.

12a
Appendix A
The court focused on Plaintiffs’ renewed request for
a policy precluding double celling and group sleeping
arrangements to facilitate social distancing. The court
first explained that the CDC Guidelines, which set a
feasibility limitation on social distancing practices, are
relevant but not dispositive. The court then determined
that “group housing and double celling subject detainees to
a heightened, and potentially unreasonable and therefore
constitutionally unacceptable, risk of contracting and
transmitting the coronavirus.” Thus, after making a
passing reference to the Sheriff’s interest in discipline
and security in the Jail and dismissing the Sheriff’s
contention that he faced feasibility limitations on further
social distancing, the court concluded that Plaintiffs were
reasonably likely to succeed on their contention that group
housing and double celling is objectively unreasonable,
except in certain situations. In arriving at this conclusion,
the court did not discuss any other aspect of the Sheriff’s
response to COVID-19; instead, the court limited its
discussion solely to the importance of social distancing.
The court also rejected the Sheriff’s argument that his
compliance with the temporary restraining order rendered
its extension into a preliminary injunction unnecessary
because the court could not conclude that the constitutional
violations would not recur absent such an extension. The
court did not revisit any of its findings related to the
measures it ordered in the temporary restraining order.
Regarding the remaining preliminary injunction
factors, the district court determined that Plaintiffs had
shown that, without additional measures, they would
likely suffer irreparable harm—including severe illness

13a
Appendix A
and death—and that damages could not fully remedy the
risk they faced. Lastly, the district court determined the
balance of harms weighed in favor of Plaintiffs. The court
therefore issued a preliminary injunction extending all of
the relief included in the temporary restraining order, with
the additional requirement of a policy precluding group
housing and double celling except in certain situations,
such as when a medical or mental health professional
has determined a detainee poses a risk of suicide or selfharm if placed in a single cell or when a detainee requires
medical treatment not available in socially distanced
housing.
The Sher iff appealed, challeng ing the entire
preliminary injunction but directing the bulk of his
arguments to the prohibition against double celling and
group housing.
II. Discussion
“To obtain a preliminary injunction, a plaintiff must
show that: (1) without this relief, it will suffer ‹irreparable
harm’; (2) ‹traditional legal remedies would be inadequate’;
and (3) it has some likelihood of prevailing on the merits
of its claims.” Speech First, Inc. v. Killeen, 968 F.3d 628,
637 (7th Cir. 2020) (quoting Courthouse News Serv. v.
Brown, 908 F.3d 1063, 1068 (7th Cir. 2018)). If a plaintiff
makes such a showing, the court proceeds to a balancing
analysis, where the court must weigh the harm the denial
of the preliminary injunction would cause the plaintiff
against the harm to the defendant if the court were to
grant it. Courthouse News Serv., 908 F.3d at 1068. This

14a
Appendix A
balancing process involves a “sliding scale” approach: the
more likely the plaintiff is to win on the merits, the less
the balance of harms needs to weigh in his favor, and vice
versa. Ty, Inc. v. Jones Grp., Inc., 237 F.3d 891, 895 (7th
Cir. 2001). Mandatory preliminary injunctions—those
“requiring an affirmative act by the defendant”—are
“ordinarily cautiously viewed and sparingly issued.”
Graham v. Medical Mut. of Ohio, 130 F.3d 293, 295 (7th
Cir. 1997); see also Pashby v. Delia, 709 F.3d 307, 319 (4th
Cir. 2013) (review of a preliminary injunction is “even more
searching” when the injunction is “mandatory rather than
prohibitory in nature.”)
While we review the district court’s balancing of
the harms for an abuse of discretion, we review its legal
conclusions de novo and its findings of fact for clear error.
C.Y. Wholesale, Inc. v. Holcomb, 965 F.3d 541, 545 (7th Cir.
2020). “[A] factual or legal error may alone be sufficient to
establish that the court ‘abused its discretion’ in making
its final determination.” Lawson Prod., Inc. v. Avnet, Inc.,
782 F.2d 1429, 1437 (7th Cir. 1986). “Absent such errors,”
however, “we afford a district court’s decision ‘great
deference.’” Speech First, Inc., 968 F.3d at 638 (quoting
Valencia v. City of Springfield, 883 F.3d 959, 966 (7th
Cir. 2018)).
A. Socially Distanced Housing
We first address the portion of the preliminary
injunction aimed at socially distanced housing because
that is the thrust of the Sheriff’s appeal. The parties do
not dispute the district court’s conclusions regarding the

15a
Appendix A
first two elements of the preliminary injunction standard:
that Plaintiffs would suffer irreparable harm and that
traditional legal remedies would be inadequate. Rather,
the debate focuses entirely on the likelihood of success
on the merits of their claim that the Sheriff’s actions (or
inaction, as Plaintiffs contend) in response to COVID-19
are objectively unreasonable. We therefore limit our
discussion to this threshold requirement.
We conclude that the district court committed three
distinct legal errors: the court failed to consider the
totality of the circumstances, the court failed to afford
proper deference to the Sheriff’s judgment in adopting
policies necessary to ensure safety and security in the
Jail, and the court recited an incorrect legal standard
when evaluating the likelihood that Plaintiffs’ contentions
will succeed on their merits. We address each of these
errors in turn.
1.

Totality of the Conduct

We start with the proper scope of the analysis under
the more recent objective reasonableness inquiry for
pretrial conditions of confinement claims. In Kingsley v.
Hendrickson, 576 U.S. 389, 135 S. Ct. 2466, 192 L. Ed.
2d 416 (2015), the Supreme Court concluded that, when
bringing an excessive force claim, a “pretrial detainee
must show only that the force purposely or knowingly
used against him was objectively unreasonable,” rather
than demonstrate deliberate indifference. Id. at 396-97.
Recognizing “that the Supreme Court has been signaling
that courts must pay careful attention to the different

16a
Appendix A
status of pretrial detainees,” we held in Miranda v.
Cty. of Lake, 900 F.3d 335 (7th Cir. 2018), that a pretrial
detainee’s claims of inadequate medical care also “are
subject only to the objective unreasonableness inquiry
identified in Kingsley.” Id. at 352. We saw “nothing in the
logic the Supreme Court used in Kingsley” to support a
“dissection of the different types of claims that arise under
the Fourteenth Amendment’s Due Process Clause.” Id. We
likewise subsequently expanded this holding to encompass
conditions of confinement claims under the Fourteenth
Amendment Due Process Clause. Hardeman v. Curran,
933 F.3d 816, 823 (7th Cir. 2019) (citing Kingsley, 576 U.S.
at 396-97). Accordingly, we must analyze Plaintiffs’ claim
under the objective reasonableness inquiry articulated in
Kingsley.1 Id.
The Supreme Court described the application of the
objective reasonableness standard in Kingsley: “A court
(judge or jury) cannot apply this standard mechanically.
Rather, objective reasonableness turns on the facts and
circumstances of each particular case.” 576 U.S. at 397.
We reiterated this principle in McCann v. Ogle Cty.,
Illinois, 909 F.3d 881 (7th Cir. 2018), explaining that,
when evaluating whether challenged conduct is objectively
1. Both the Sixth Circuit and the Eleventh Circuit have
recently addressed conditions of confinement claims involving the
coronavirus in prison settings. See Wilson v. Williams, 961 F.3d 829
(6th Cir. 2020), in Swain v. Junior, 961 F.3d 1276 (11th Cir. 2020).
These Circuits, however, apply an Eighth Amendment deliberate
indifference standard to pretrial detainee conditions of confinement
claims rather than the objectively unreasonable claim that we apply,
and thus focus on a subjective element that is not at issue here.

17a
Appendix A
unreasonable, courts must “focus on the totality of facts
and circumstances.” Id. at 886.
The district court erred by narrowly focusing its
objective reasonableness analysis almost exclusively on
social distancing instead of considering the totality of
facts and circumstances, including all of the Sheriff’s
conduct in responding to and managing COVID-19.
Citing McCann, the district court wrote, “To succeed on
their claim, the plaintiffs must show that the Sheriff’s
conduct in addressing the risks posed by exposure to
coronavirus is objectively unreasonable in one or more
respects.” (emphasis added). The district court then went
on to emphasize social distancing and the Sheriff’s efforts
to implement social distancing to the exclusion of the
Sheriff’s other actions. This analysis incorrectly ignored
the totality of the circumstances. It may very well be the
case that a particular aspect of an action is so lacking that
the failing on this one factor will lead a court to correctly
conclude the entire course of challenged conduct was
objectively unreasonable. It may also be that some actions
or inactions are more consequential than others. But that
does not mean that the court should evaluate each aspect
of the disputed actions in a vacuum, especially in a case
involving a systemic claim like here. Rather, the court
must consider the total of the circumstances surrounding
the challenged action.
In addition, the district court hinged its decision to
impose a social distancing directive on the basis of one,
and only one, key factual finding: “At the current stage of
the pandemic, group housing and double celling subject

18a
Appendix A
detainees to a heightened ... risk of contracting and
transmitting the coronavirus.” We do not suggest that this
finding was erroneous: the district court had before it a
voluminous evidentiary record about the importance of
social distancing to reducing transmission of COVID-19.
Instead, we take issue with what was missing: absent
from the district court’s reasoning was any mention
of the totality of the measures the Sheriff already had
taken to combat the spread of COVID-19, including those
regarding social distancing. By the time the district
court issued the preliminary injunction, the Sheriff had
already implemented several such measures. Notably,
and as the district court initially acknowledged in its
temporary restraining order, these included substantial
efforts to increase social distancing, such as opening
shuttered divisions of the Jail, creating new single-cell
housing, and decreasing the capacity of dormitories. The
Sheriff had also undertaken extensive other measures
to prevent and manage the spread of COVID-19 at
the Jail. By failing to evaluate the request for a policy
precluding double celling and group housing in light of
the other aspects of the Sheriff’s COVID response, the
district court did not properly consider the totality of the
facts and circumstances when evaluating the objective
unreasonableness of the Sheriff’s actions.
2.

Deference to Correctional Administrators

We turn to a second error: the failure to defer to
correctional administrators in a matter implicating safety
and security concerns. “When evaluating reasonableness,
... courts must afford prison administrators ‘wide-ranging

19a
Appendix A
deference in the adoption and execution of policies and
practices that in their judgment are needed to preserve
internal order and discipline and to maintain institutional
security.’” Henry v. Hulett, F.3d    , 2020 U.S. App. LEXIS
25390, 2020 WL 469188, (7th Cir. 2020) (en banc) (quoting
Bell v. Wolfish, 441 U.S. 520, 547, 99 S. Ct. 1861, 60 L.
Ed. 2d 447 (1979)). Likewise, a court must “account for
the legitimate interests that stem from the government’s
need to manage the facility in which the individual is
detained.” Kingsley, 576 U.S. at 397. Thus, “in the absence
of substantial evidence in the record to indicate that
the officials have exaggerated their response to these
considerations, courts should ordinarily defer to their
expert judgment in such matters.” Bell, 441 U.S. at 548
(quoting Pell v. Procunier, 417 U.S. 817, 827, 94 S. Ct. 2800,
41 L. Ed. 2d 495 (1974)). Correctional administrators must
have “substantial discretion to devise reasonable solutions
to the problems they face,” particularly when safety and
security interests are at stake. Florence v. Bd. of Chosen
Freeholders of Cty. of Burlington, 566 U.S. 318, 326, 132
S. Ct. 1510, 182 L. Ed. 2d 566 (2012). Thus, “as part of the
objective reasonableness analysis ... deference to policies
and practices needed to maintain order and institutional
security is appropriate.” Kingsley, 576 U.S. at 399-400.
When evaluating Plaintiffs’ request for a policy
precluding group housing and double celling, the district
court made a passing reference to its obligation to
“account for and give deference to the Sheriff’s interest
in managing the Jail facilities and to practices that are
needed to preserve order and discipline and maintain
security.” The district court, however, did not discuss in a

20a
Appendix A
meaningful way how, if at all, the considerable deference it
owed to the judgment of prison administrators impacted
its analysis. Undoubtedly, safety and security concerns
play a significant role in a correctional administrator’s
housing decisions: jails and prisons require some degree
of flexibility in choosing cell assignments, as they need
to ensure, for example, that detainees are assigned to
the living quarters corresponding with their security
classifications and factoring in particular vulnerabilities
that increase security risks. This is especially true at
the Jail where the population fluctuates daily given
the number of bookings and releases that take place.
Correctional officers similarly must have the freedom to
quickly reassign inmates when fights or other emergency
situations occur that threaten the safety of staff and
inmates. This is perhaps no more important than at a
facility like the Cook County Jail, which houses a wide
range of detainees accused of committing up to the most
serious of violent offenses. Given the deference courts
owe to correctional administrators on matters implicating
safety concerns and the substantial role that security
interests play in housing assignments, the failure to
consider these interests was a legal error.
3.

Likelihood of Success on the Merits

Lastly, we address a third issue: the proper standard
for evaluating the likelihood of success on the merits when
considering a motion for a preliminary injunction. The
district court began its analysis of Plaintiffs’ request for a
policy requiring socially distanced housing by noting that,
to demonstrate a likelihood of prevailing, Plaintiffs must

21a
Appendix A
show “only a better than negligible chance of success.” The
district court explained this is a “low threshold.”
As we just explained in Illinois Republican Party
v. Pritzker, F.3d    , 2020 U.S. App. LEXIS 28118, 2020
WL 5246656, at *2 (7th Cir. Sept. 3, 2020), “the ‹better
than negligible’ standard was retired by the Supreme
Court,” and is not the proper standard to apply when
evaluating the likelihood of success on the merits in a
preliminary injunction motion. The standard originated
in Omega Satellite Prod. Co. v. City of Indianapolis,
694 F.2d 119 (7th Cir. 1982). But like many instances of
selectively quoted phrases, we did not use this phrase as
an unadorned statement of the applicable standard. We
said in Omega:
If the harm to the plaintiff from denial of the
preliminary injunction would be very great and
the harm to the defendant from granting it very
small, then the injunction should be granted
even if the defendant has a better chance of
prevailing on the merits than the plaintiff,
provided the plaintiff’s chances are better than
negligible; and vice versa.
Id. at 123. As readily apparent, in context, we were
explaining no more than what has become known as our
sliding scale approach. Since Omega, though, we have at
times—confusingly—cited the “better than negligible”
phrase as if it were the proper standard for evaluating
the likelihood of success on the merits at the preliminary
injunction stage. See Ill. Republican Party, 2020 U.S. App.
LEXIS 28118, 2020 WL 5246656 at *2 (collecting cases).

22a
Appendix A
The Supreme Court has invoked a higher standard.
In Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 129
S. Ct. 365, 172 L. Ed. 2d 249 (2008), the Court stated
that “[a] plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits.” Id.
at 20 (emphasis added). Similarly, when discussing the
requisite showing to establish irreparable injury, the
Court explained that its standard “requires plaintiffs
seeking preliminary relief to demonstrate that irreparable
injury is likely in the absence of an injunction.” Id. at
22 (emphasis in original) (rejecting the Ninth Circuit’s
“possibility” standard as “too lenient”). The Court
provided further guidance in Nken v. Holder, 556 U.S.
418, 129 S. Ct. 1749, 173 L. Ed. 2d 550 (2009), which set
forth the standard governing motions for a stay pending
appeal. Though a different context, “[t]here is substantial
overlap between [the traditional stay factors] and the
factors governing preliminary injunctions.” Id. at 434
(citing Winter, 555 U.S. at 24). This is “not because the
two are one and the same, but because similar concerns
arise whenever a court order may allow or disallow
anticipated action before the legality of that action has
been conclusively determined.” Id. The Court reiterated
that under the “traditional” standard for a stay, the first
factor asks “whether the stay applicant has made a strong
showing that he is likely to succeed on the merits.” Id. at
425-26 (quoting Hilton v. Braunskill, 481 U.S. 770, 776,
107 S. Ct. 2113, 95 L. Ed. 2d 724 (1987)). For that showing,
the Court made clear, “[i]t is not enough that the chance of
success on the merits be ‘better than negligible,’” quoting
with disapproval this court’s decision in Sofinet v. INS,
188 F.3d 703, 707 (7th Cir. 1999). Id. at 434.

23a
Appendix A
We thus reiterate that a plaintiff must demonstrate
that “its claim has some likelihood of success on the
merits,” see, e.g., Eli Lilly and Co. v. Arla Foods, Inc., 893
F.3d 375, 381 (7th Cir. 2018), not merely a “better than
negligible” chance. What amounts to “some” depends on
the facts of the case at hand because of our sliding scale
approach. See Ty, Inc., 237 F.3d at 895.
Here, in reliance on our prior precedent, the district
court recited the incorrect “better than negligible”
standard several times. In various instances, though, the
district court’s analysis indicates that it, in fact, applied a
higher standard. In particular, the district court at times
used language that Plaintiffs were “reasonably likely to
succeed on their contention,” and the court ultimately
concluded that Plaintiffs had “far surpassed” the “better
than negligible” standard. Thus, were the recitation of
the incorrect standard the district court’s only error,
we could not say that the district court abused its
discretion in imposing the social distancing requirement.
But, when coupling this with the district court’s other
errors, we cannot be certain that Plaintiffs’ showing
of the likelihood of success on the merits of their claim
would have surmounted the appropriate standard. We
therefore reverse the portion of the preliminary injunction
precluding double celling and group housing at the Jail.
We emphasize that we do not address the merits of
whether Plaintiffs have demonstrated that they have
suffered a constitutional violation. Indeed, our discussion
solely addresses the legal errors the district court
committed in the course of its preliminary injunction

24a
Appendix A
analysis. We reverse this portion of the preliminary
injunction on the basis of these legal errors alone.
B. Remaining Relief
In the temporary restraining order, the district court
granted several measures of relief to Plaintiffs, including
requirements that the Sheriff implement procedures and
policies related to sanitation, testing, and provision of face
masks to detainees in quarantine. When the district court
issued the preliminary injunction, it did not revisit its
analysis on any of these measures. Because the discussion
pertaining to these measures resides in the temporary
restraining order, we turn there for our analysis.
We affirm the aspects of the preliminary injunction
that the district court converted from the temporary
restraining order. In that order, the district court made
detailed factual findings about the risks of COVID-19,
the Sheriff’s existing policies, and the execution of these
policies, relying on hearing testimony and affidavits
from Plaintiffs’ experts, detainees, and correctional
administrators. Importantly, the district court assessed
the requested relief considering the totality of the Sheriff’s
conduct, rather than reviewing it in isolation. For example,
the district court declined Plaintiffs’ request to mandate
testing of new detainees since the Sheriff already had
in place a policy requiring detainees to quarantine for
fourteen days upon their arrival to the Jail.
The district court also carefully considered the
Sheriff’s conduct in light of the CDC Guidelines and

25a
Appendix A
hewed closely to the Guidelines in its explanation of each
measure of relief it ordered. The CDC Guidelines—like
other administrative guidance—do not themselves set
a constitutional standard. See Bell, 441 U.S. at 543 n.27
(noting that recommendations of a Department of Justice
task force “regarding conditions of confinement for pretrial
detainees are not determinative of the requirements of the
Constitution”); cf. J.K.J. v. Polk Cty., 960 F.3d 367, 384
(7th Cir. 2020) (en banc) (concluding that the guidelines
set by the Prison Rape Elimination Act do not set a
constitutional parameter under the more demanding
Monell deliberate indifference standard). Indeed, “while
the recommendations of these various groups may be
instructive in certain cases, they simply do not establish
the constitutional minima; rather, they establish goals
recommended by the organization in question.” Bell, 441
U.S. at 543 n.27. But even if not dispositive, implementation
(and proper execution) of guidelines that express an expert
agency’s views on best practices are certainly relevant to
an objective reasonableness determination. United States
v. Brown, 871 F.3d 532, 537 (7th Cir. 2017) (noting that
evidence of policy or procedure may be relevant to an
objective reasonableness inquiry, even though it does not
set the constitutional standard). This is particularly true
here, where the CDC Guidelines provide the authoritative
source of guidance on prevention and safety mechanisms
for a novel coronavirus in a historic global pandemic where
the public health standards are emerging and changing.
The CDC Guidelines differ in material ways from
the police department regulations at issue in our decision
in Thompson v. City of Chicago, 472 F.3d 444 (7th Cir.

26a
Appendix A
2006). In Thompson, we determined that a policy on
the use of force established by the police department
did not dictate the constitutional standard for the use of
force. Id. at 454; see Brown, 871 F.3d at 537 (clarifying
the holding of Thompson). But the CDC Guidelines,
arising from an expert, independent agency, are entitled
to greater weight than a police department’s internallycrafted regulations. See Brown, 871 F.3d at 537 (“[I]f
compliance with departmental policy were the applicable
legal standard, the police department itself would become
the arbiter of Fourth Amendment reasonableness—a
prospect that would have horrified those responsible for
the Amendment’s ratification.”). The district court thus
properly relied on these Guidelines in the course of its
preliminary injunction analysis.
We note that, as it did with its discussion of Plaintiffs’
request for an order precluding double celling and group
housing arrangements, the district court made only a
passing reference to the Sheriff’s interest in managing Jail
facilities and its obligation to defer to policies and practices
necessary to preserve order and security. Likewise, the
court did not meaningfully discuss this deference in its
analysis. We are less troubled, though, given the nature of
the relief ordered. Whereas safety and security concerns
are fundamental to housing assignments, this is not true
to the same degree for measures pertaining to sanitation,
testing, and providing facemasks. We therefore do not
find legal error.
Lastly, we address a motion by the Sheriff to
supplement the record with a CDC report—entitled

27a
Appendix A
“Outbreak of COVID-19 and Interventions in One of
the Largest Jails in the United States—Cook County,
IL, 2020”—and, alternatively, the Sheriff’s request that
this Court take judicial notice of it. We deny the motion
to supplement the record as the district court has yet to
consider this document in the first instance. See Tonyan v.
Dunham’s Athleisure Corp., 966 F.3d 681, 684 n.1 (7th Cir.
2020). We similarly decline to take judicial notice. “The
Federal Rules of Evidence permit a court to take judicial
notice of a fact that is ‘not subject to reasonable dispute’
because it is ‘generally known’ or ‘can be accurately and
readily determined from sources whose accuracy cannot
reasonably be questioned.’” United States v. De La
Torre, 940 F.3d 938, 952 (7th Cir. 2019) (quoting Fed. R.
Evid. 201(b)). The contents of this report—the Sheriff’s
COVID-19 interventions and their purported impact—
are not “‘generally known,’ at least to us.” Id. Further,
we cannot determine if the sources can reasonably be
questioned because the parties dispute who authored the
report and the district court has not had the opportunity
to make any factual findings on the author. Nor are the
contents “incontrovertible,” as its authors “were not
subject to Daubert challenges, cross-examined, or tested
with competing expert testimony.” Id. The contents of the
report are thus “arguably subject to reasonable dispute,”
and therefore are not a proper subject of judicial notice.
III. Conclusion
We commend Judge Kennelly for his handling of the
motion, particularly in light of the many novel issues posed
by the onset of COVID-19 and the case’s emergent nature.

28a
Appendix A
We nevertheless REVERSE in part and VACATE the
portion of the preliminary injunction precluding double
celling and group housing because of the legal errors
that arose as the district court applied the objective
reasonableness standard recently announced in Kingsley.
We AFFIRM the remainder of the preliminary injunction
ruling.

29a
Appendix B
APPENDIX B — MEMORANDUM
OPINION AND
ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF ILLINOIS, EASTERN DIVISION,
FILED APRIL 27, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF ILLINOIS, EASTERN DIVISION
April 27, 2020, Decided;
April 27, 2020, Filed
Case No. 20 C 2134
ANTHONY MAYS, INDIVIDUALLY AND ON
BEHALF OF A CLASS OF SIMILARLY SITUATED
PERSONS; AND JUDIA JACKSON, AS NEXT
FRIEND OF KENNETH FOSTER, INDIVIDUALLY
AND ON BEHALF OF A CLASS OF SIMILARLY
SITUATED PERSONS,
Plaintiffs-Petitioners,
vs.
THOMAS DART,
Defendant-Respondent.

30a
Appendix B
MEMORANDUM OPINION AND ORDER
MATTHEW F. KENNELLY, District Judge:1
Anthony Mays and Kenneth Foster, both of whom
are detained at Cook County Jail while awaiting trial on
criminal charges, have sued Cook County Sheriff Thomas
Dart, who operates the Jail, on behalf of a class of similarly
situated persons. Mays and Foster allege the Sheriff has
violated the constitutional rights of persons detained at
the jail by failing to provide them with reasonably safe
living conditions in the face of the current coronavirus
pandemic. They assert claims under 42 U.S.C. § 1983 and
for writs of habeas corpus under 28 U.S.C. § 2241.
On April 9, 2020, the Court granted the plaintiffs’
motion for a temporary restraining order in part. The
Court directed the Sheriff to: (1) establish and implement,
w ithin two days’ time, a policy requiring prompt
coronavirus testing of detained persons with symptoms
consistent with coronavirus disease; (2) within two days’
time, eliminate the use of “bullpens” to hold groups of new
detainees during the intake process; (3) begin to provide
inmates and staff, within one day, soap and/or hand
sanitizer sufficient to enable them to frequently clean their
hands, and sanitation supplies sufficient to enable them
to regularly sanitize surfaces in areas used in common;
(4) establish and carry out, within two days’ time, a policy
requiring sanitation of all such surfaces between each use;
1. Judge Kennelly is addressing this matter as emergency judge
pursuant to paragraph 5 of Second Amended General Order 20-0012.

31a
Appendix B
and (5) within three days’ time, distribute facemasks to all
detained persons quarantined due to their exposure to a
person exhibiting symptoms consistent with coronavirus
disease. The Court overruled the plaintiffs’ request for
additional temporary relief, including a mandate for
implementation of “social distancing” throughout the Jail
and to provide facemasks to every detained person. The
Court also concluded that the plaintiffs seeking habeas
corpus relief had failed to exhaust available state court
remedies.
The plaintiffs have now moved for entry of a
preliminary injunction and other relief. They again seek
writs of habeas corpus, based on newly discovered facts
that they contend provide a basis to excuse their failure to
exhaust state court remedies. They also seek conversion
of the temporary restraining order to a preliminary
injunction, and they again request an order requiring
implementation of social distancing throughout the Jail, as
well as transfer of detained persons from the Jail to other
locations within the Sheriff’s control, including electronic
home monitoring. The plaintiffs also request the convening
of a three-judge court under the Prison Litigation Reform
Act to consider entering a “prisoner release order” within
the meaning of that statute.
For the reasons stated below, the Court converts the
terms of the temporary restraining order to a preliminary
injunction and enters further preliminary injunctive relief
regarding social distancing but denies the plaintiffs’ other
requests for relief.

32a
Appendix B
Factual Background
The following discussion of relevant facts concerning
coronavirus, the Cook County Jail facilities, and the
parties’ claims and defenses is taken from undisputed
facts, the affidavits and documentary evidence submitted
by the parties, and the testimony and exhibits offered at
the evidentiary hearing held on April 23, 2020.
A. The coronavirus pandemic
The rapid global spread of the novel coronavirus
has led to a pandemic of extraordinary scale. The
Court’s decision on the plaintiffs’ motion for a temporary
restraining order includes a discussion of the gravity of
the public health threat associated with this virus. Mays
v. Dart, No. 20 C 2134, 2020 U.S. Dist. LEXIS 62326, 2020
WL 1812381, at *2 (N.D. Ill. Apr. 9, 2020).
Symptoms of the disease caused by the novel
coronavirus—what has come to be known as COVID-19,
which the Court will refer to as coronavirus disease—
include fever, cough, and shortness of breath, and the
health effects can be very severe, including serious
damage to the lungs and other internal organs, and death.
People who are sixty-five years of age or older and those
with certain pre-existing health conditions, including
chronic lung disease, moderate to severe asthma, serious
heart conditions, diabetes, chronic kidney disease, liver
disease, a body mass index of forty or higher, and other
conditions have a heightened vulnerability to severe illness
if they contract the coronavirus.

33a
Appendix B
The rapid transmission of coronavirus has been
attributed to several characteristics. Respiratory droplets
containing the virus emitted by an infected person, though
coughing or sneezing for example, can travel several feet
and may persist in the air for several hours. In addition,
because the virus can persist on some surfaces for up to
three days, transmission can occur even without physical
proximity to an infected person. Moreover, those who
contract the virus may be asymptomatic for days or
even for the entire duration of the infection but can still
transmit the virus to others, making it more challenging
to readily identify infected individuals and respond with
necessary precautions.
There is currently no known effective treatment for
coronavirus disease and no vaccine to prevent people
from contracting it. Medical professionals and public
health experts agree—and the evidence in this case
demonstrates beyond peradventure—that the only way
to curb the spread of the virus is through a multi-faceted
strategy that includes testing to identify those who have
been infected; isolation of those who test positive or develop
symptoms consistent with the disease; quarantining
those who may have come into contact with the virus;
frequent sanitation of surfaces; frequent handwashing;
and use of personal protective equipment (PPE) such
as facemasks. And a key tactic recommended by public
health experts to curb the spread of coronavirus disease
has been to keep people apart from each other—what has
come to be known as “social distancing.” The Centers for
Disease Control’s Interim Guidance on Management of
Coronavirus Disease 2019 (COVID-19) in Correctional

34a
Appendix B
and Detention Facilities (“CDC Guidelines”), 2 defines
social distancing as “the practice of increasing the space
between individuals and decreasing the frequency of
contact to reduce the risk of spreading a disease (ideally
to maintain at least 6 feet between all individuals, even
those who are asymptomatic).” 2020 U.S. Dist. LEXIS
62326, [WL] at 4.
Social distancing has effectively been mandated by
most state governments as a critical strategy in combatting
the pandemic. Here in Illinois, the state has been under a
statewide stay-at-home order first imposed by Governor
J.B. Pritzker effective March 20, 2020, the goal of which
is to limit person-to-person contacts to curb transmission
of the virus. Activities not deemed “essential” have been
shut down. People have been strongly urged, and in
many situations directed (by governments, employers,
commercial establishments, and so on) to maintain space
between themselves and others. In addition, the wearing
of PPE, primarily facemasks, has been strongly advised
and now required in some situations, particularly when
people may come into contact with others.
The effect of the stay-at-home orders imposed in
Illinois and most other states, along with advice by
national officials to limit contacts and group activities,
has been dramatic: schools have been closed; commercial
establishments and workplaces have ceased operations,
resulting in massive job losses; public events have largely
2. The Guidelines were issued on March 23, 2020 and are
available at https://www.cdc.gov/coronavirus/2019-ncov/downloads/
guidance-correctional-detention.pdf.

35a
Appendix B
been cancelled; and access to public spaces has been
limited or barred entirely. Entire sectors of the national
economy have slowed to a snail’s pace. Society has paid a
very high price to curb the spread of this highly contagious
virus.
B. Operation of the Cook County Jail
The Sheriff runs the Cook County Jail. As the Court
stated in its written decision on the plaintiffs’ motion for
a temporary restraining order (TRO), the Jail is “a very
large physical facility—actually a campus of separate
physical facilities—whose population, if one considers
including both detainees and staff, is the size of a small
(but not all that small) town.” Mays, 2020 U.S. Dist.
LEXIS 62326, 2020 WL 1812381, at *1. Managing the
Jail is extraordinarily challenging because of the size of
its population and physical facilities, the diverse needs
of the detainees, the Sheriff’s public safety obligations,
and his obligations to the criminal justice system. The
Sheriff’s public safety obligations require him to consider
the appropriate custodial conditions for each detained
person. As the Court has noted, the Jail’s population
“runs the gamut from persons with lengthy criminal
records who are accused of committing violent crimes to
non-violent offenders in custody for the first time who,
perhaps, remain in custody only because they and their
families were unable to post bond money.” Id. And the
Sheriff’s obligations to the people in his custody, most
of whom are detained awaiting trial on crimes for which
they are therefore entitled to a presumption of innocence,
require him to provide care sufficient to account for each

36a
Appendix B
individual’s physical and mental health conditions. This
is no small task, particularly given that populations in
custody are statistically more likely to have adverse health
conditions, both physical and mental.
Adding an infectious disease outbreak to these
conditions further complicates the difficult challenge of
managing the Jail. The very nature of the Jail’s setup
and day-today operations facilitates rapid transmission
of communicable diseases like the one caused by the
coronavirus. First, the Jail’s physical facilities are
designed to accommodate large populations, all densely
housed, and many in congregate settings. In particular,
the Jail has many so-called “dormitory” units, which in
normal times may house as many as hundreds of detained
persons in a single room with closely-spaced bunk beds.
Second, the Jail is a closed environment with many
spaces used in common. Persons detained there—even
those housed in single-occupancy cells—do not have
individual bathing facilities; toilets are typically used in
common; they eat in groups under normal circumstances;
and they come into contact with each other and with
correctional officers in other common areas. And even
when confined, detainees are in close proximity, in
adjoining cells and in tiers that use a common ventilation
system.
Third, the routine operations of the Jail require
high levels of movement of people. Detained persons
must be escorted from their cells to common areas like
shower and bathroom facilities. In normal times they are
escorted to court hearings and recreational areas (all or

37a
Appendix B
nearly all of which have come to a stop). Finally, large
numbers of staff personnel, as well as vendors, move in
and out of the Jail and its various areas on a daily basis.
In doing so, these individuals have contact with other
members of the community at large, who themselves may
have contracted coronavirus. Thus staff members and
contractors potentially can carry the virus both into and
out of the Jail.
Limiting exposure to the coronavirus in the Jail is
therefore a significant challenge. Infection rate data
reflects that it has been challenging to effectively curb
transmission of the highly infectious coronavirus in the
setting of the Jail. As of April 6, 2020, the infection rate
within the Jail was an order of magnitude higher than the
rate of infection in Cook County. Mays, 2020 U.S. Dist.
LEXIS 62326, 2020 WL 1812381, at *8. And on April 8,
2019, the New York Times reported that, at that time,
the Jail was the largest-known source of coronavirus
infections in the United States. See Timothy Williams
and Danielle Ivory, Chicago’s Jail Is Top U.S. Hot Spot as
Virus Spreads Behind Bars (April 8, 2020), N.Y. Times,
https://www.nytimes.com/2020/04/08/us/coronaviruscook-county-jail-chicago.html (last updated April 23,
2020).
Procedural History
A. Plaintiffs’ suit and motion for a temporary
restraining order
The plaintiffs, Anthony Mays and Kenneth Foster, are
detained at the Cook County Jail and have been housed on

38a
Appendix B
tiers in which at least one person had been infected with
the coronavirus. On April 3, 2020, they sued the Sheriff
on behalf of themselves and others similarly situated, with
allegations stemming from the risks the coronavirus poses
to their health. The plaintiffs seek to represent a class and
two putative subclasses. The class consists of “all people
who are currently or who will in the future be housed in
the Cook County Jail for the duration of the COVID-19
pandemic.” Compl. (dkt. no. 1) ¶ 60. “Subclass A consists
of all people who, because of age or previous medical
conditions, are at particularly grave risk of harm from
COVID-19.” Id. ¶ 61. “Subclass B consists of all people
who are currently housed on a tier where someone already
tested positive for the coronavirus.” Id. ¶ 62. Mays and
Foster both have medical conditions that heighten their
risk of serious health consequences from an infection by
the coronavirus.
In their complaint, the plaintiffs alleged that because
the Sheriff was not implementing measures to control
the spread of the coronavirus at the Jail, especially those
recommended in the CDC Guidelines, the conditions
in the Jail facilitated rapid transmission, putting the
health of detained persons at great risk. In support of
this contention, the plaintiffs attached several affidavits
to their complaint from individuals who had spoken to
persons detained at the jail. These affidavits reported the
following conditions at the Jail in late March and early
April:
• detained persons were not receiving soap, hand
sanitizer, or facemasks;

39a
Appendix B
• facemasks that they made for themselves out of
cloth were being confiscated;
• detainees were being housed in bunks or beds that
were between two and four feet apart from each
other;
• many detained persons were living in dormitorystyle housing, where dozens of individuals shared
a single room;
• detained persons were being held at intake in socalled bullpens, where numerous detainees were
held together for extended periods in a crowded
cell; and
• the Jail’s staff was not regularly sanitizing common
surfaces or providing detainees with cleaning
supplies to do this themselves.
The day they filed suit, the plaintiffs moved for the
issuance of writs of habeas corpus for the members of
subclass A and for a TRO or preliminary injunction on
behalf of the class as a whole, requiring the Sheriff to take
action to control the rapid spread of the coronavirus at the
Jail. The plaintiffs also moved to certify their proposed
class and subclasses.
After an extended hearing on the motion for a
temporary restraining order, the Court issued a written
decision on April 9, 2020 denying the request for writs of
habeas corpus and partially, but not entirely, granting the

40a
Appendix B
motion for a TRO. Mays, 2020 U.S. Dist. LEXIS 62326,
2020 WL 1812381, at *6, 14-16. In ruling on this motion,
the Court considered the affidavits from medical experts,
individuals who had spoken to detainees, and those from
Jail officials and employees. The Sheriff had raised a
hearsay objection to the Court’s consideration of the
affidavits from individuals who had spoken to detainees,
but hearsay may be considered in ruling on a motion for
a TRO or for a preliminary injunction. See SEC v. Cherif,
933 F.2d 403, 412 n.8 (7th Cir. 1991). 3 The TRO directed
the Sheriff to take the following actions: (1) establish
and implement a policy requiring prompt testing of
symptomatic detainees, and—if medically appropriate and
feasible based on the availability of testing materials—
detainees who may have been exposed to the virus; (2)
implement social distancing during intake and suspend
the use of bullpens to hold detained persons awaiting
intake; (3) provide all detained persons with adequate soap
or sanitizer for hand hygiene; (4) provide staff personnel
and detained persons with adequate cleaning supplies
to regularly sanitize surfaces and objects, including in
high-traffic areas such as shower facilities; (5) establish a
policy requiring frequent sanitation of these areas; and (6)
provide facemasks to all detained persons in quarantine.
Mays, 2020 U.S. Dist. LEXIS 62326, 2020 WL 1812381,
at *14-15.
3. “Given its temporary nature, ‘a preliminary injunction is
customarily granted on the basis of procedures that are less formal
and evidence that is less complete than in a trial on the merits.’” FTC
v. Lifewatch Inc., 176 F. Supp. 3d 757, 761 (N.D. Ill. 2016) (quoting
Univ. of Tex. v. Camenisch, 451 U.S. 390, 395, 101 S. Ct. 1830, 68 L.
Ed. 2d 175 (1981)). The same, of course, is true of a TRO.

41a
Appendix B
The Court denied several of the plaintiffs’ requests for
relief. They sought an order mandating social distancing
throughout the facility, not just at intake, arguing that this
was one of the critical outbreak control measures outlined
in the CDC Guidelines. 2020 U.S. Dist. LEXIS 62326, [WL]
at *10. The Court declined to mandate social distancing
beyond intake, reasoning that there are space constraints
at the Jail and the Guidelines expressly recognized that
social distancing may not be feasible in a correctional
facility. Id. The Court also declined the plaintiffs’ request
for direct screening of medically vulnerable detainees
before they show symptoms of infection, also because the
CDC Guidelines did not mandate this. Id. In addition, the
Court denied the plaintiffs’ request to require the Sheriff
issue facemasks to every detained person, as the CDC
Guidelines recommended this only for those who had come
into contact with a symptomatic individual. 2020 U.S.
Dist. LEXIS 62326, [WL] at *12, 15. Finally, the Court
declined the plaintiffs’ request to transfer the members
of subclass B to a safe facility or other forms of custody,
because the plaintiffs had failed to show that the other
protective measures that the Court had ordered would be
inadequate to protect detained persons from the health
risks associated with the coronavirus outbreak. 2020 U.S.
Dist. LEXIS 62326, [WL] at *15. The Court also declined
subclass A’s request for emergency writs of habeas corpus,
concluding that they had failed to exhaust available state
court remedies. 2020 U.S. Dist. LEXIS 62326, [WL] at *6.

42a
Appendix B
B. The Sheriff’s response and current conditions at
the Jail
1.

April 13 status report

On April 13, pursuant to the Court’s direction, the
Sheriff filed a status report regarding compliance with
the TRO. First, with respect to the directive to test
symptomatic detainees, the Sheriff reported that Cermak
Health Services, an arm of Cook County that provides
healthcare to persons detained at the Jail, maintains the
supplies for medical testing and actually administers such
tests.4 According to the Sheriff, Cermak had determined
that it would not be medically appropriate to test all
detained persons in quarantine. The Sheriff therefore
instructed his personnel to isolate and refer symptomatic
detainees to Cermak for further evaluation and testing.
As to the order to maintain social distancing during the
Jail’s intake process, the Sheriff implemented a modified
procedure that maintains six feet of distance between all
detained persons awaiting intake and provides them with
facemasks. Use of the bullpens was discontinued.
Regarding the order to distribute facemasks, the
Sheriff stated that he had acquired and on hand sufficient
surgical masks to distribute to all quarantined detainees
and employees and that he was continuing his efforts to
obtain additional masks. Additionally, the Sheriff was
4. From a chain-of-command standpoint, Cermak is under the
control of Cook County, not the Sheriff.

43a
Appendix B
in the process of procuring cloth masks that would be
available to any detained person who requested one.
The Sheriff further reported that on April 9, he
delivered approximately 28 gallons of hand sanitizer
and 980 bars of soap for distribution in the Jail. He also
ordered distribution of soap and sanitizer twice per week
going forward. The Sheriff noted concern that some
detained persons may use the soap or hand sanitizer
as a weapon and that some might try to consume hand
sanitizer. These considerations required the Sheriff to
determine on a detainee-by-detainee basis whether to
distribute hand sanitizer or soap.
With respect to the sanitation-related directives in
the TRO, the Sheriff reported that he had distributed
cleaning supplies to staff and detained persons on April
10. He also issued a sanitation policy to ensure that
frequently touched areas such as doorknobs and phones
are sanitized between uses. He issued another a policy
requiring each living unit officer to ensure that surfaces
are routinely cleaned and sanitized during the officer’s
shift. Additionally, the Sheriff stated that he was planning
to hire an independent contractor to professionally clean
the Jail.
2.

April 17 updates from the Sheriff

On April 17, three days after the Sheriff submitted
his status report, officials from the Chicago Department
of Public Health (CDPH), including one designated as
a CDC epidemic intelligence service officer, inspected

44a
Appendix B
the Jail. These officials had toured the Jail roughly a
month prior, on March 20, and issued recommendations
for controlling COVID-19 at the Jail. A report from this
inspection, dated March 27, was introduced in connection
with the preliminary injunction hearing held on April 23.
The March 27 recommendations from the CDPH included
screening and classifying inmates based on their level of
risk associated with coronavirus disease and “considering
mass release of inmates to decompress the jail for urgent
public health reasons.” Levin Dec. (dkt. no. 70) at 10.
A report from the more recent April 17 had not yet
been received by the Sheriff as of the April 23 hearing.
The Sheriff therefore submitted statements and testimony
from two Jail officials who participated in the April site
visit: Rebecca Levin, a senior public health advisor to
the Sheriff, and Michael Miller, the Executive Director
of the Cook County Department of Corrections. Levin
stated that during the April 17 inspection, the officials
commended the Jail’s efforts to reduce density in housing
units. Miller testified that the officials visited two of
the dormitory units—Dorm 4, the largest dormitory
unit, and Dorm 2—and commented positively about the
organization and cleanliness of these spaces.
In a declaration dated April 17, Miller also provided
an update to the Sheriff’s April 14 status report on
efforts to control the coronavirus outbreak at the Jail.
He reported that each person detained in a quarantine
tier was receiving a new surgical-type facemask each day.
Miller anticipated that at its current rate of consumption
of masks, the Sheriff would exhaust his supplies on June
7, 2020. He added that, “as supplies permit,” the Sheriff

45a
Appendix B
planned to distribute masks to detainees who are not on
quarantine tiers. Miller Dec., Def.’s Resp. to Renewed
Mot. for Prelim. Inj., Ex. E (dkt. no. 62-5) ¶ 24.
Although the TRO did not require the Sheriff to
implement social distancing beyond modifying his intake
procedures, Miller reported in his April 17 affidavit that
the Sheriff had engaged in a significant effort to increase
social distancing at the Jail. Specifically, he reported the
following measures: opening previously closed divisions
to better distribute detainees across available space;
converting housing on 175 tiers to single-occupancy cells
only; limiting dormitory units to fifty percent of capacity,
with the exception of detainees in medical or “restricted
housing,” Id. ¶ 12; and limiting the number of detained
persons released into dayroom common areas to half the
number assigned to that area. He reported that beds in
dormitory units have been spaced so that they are at least
six feet apart, and if beds are bolted to the floor, then
detained persons are distributed so that there is six feet
of distance between occupied beds.
Attached to Miller’s declaration was a spreadsheet
with the occupancy rates as of April 17 on each tier of
the Jail, including units in Cermak and Division 8, the
Residential Treatment Unit (RTU). Miller later explained
that the RTU provides twenty-four-hour access to medical
care and houses people who have medical needs (though
the level of need was not described). This spreadsheet
showed, apparently contrary to the statement in Miller’s
declaration, that some dormitory units were still occupied
above fifty percent capacity. For example, Tier D of Dorm
1 in Division 2, which was not then under quarantine, was

46a
Appendix B
occupied at eighty-one percent capacity. In addition, many
dormitory units in the RTU, Division 8, were occupied at
nearly full capacity. For example, Tier 2F was occupied at
ninety-seven percent capacity, and Tier 2G was occupied
at one hundred percent capacity. (Also, Tiers 2Q and 2R in
Division 6 were occupied at sixty percent and sixty-three
percent capacity, respectively. They are not labeled as
dormitory units in the spreadsheet, but they each have a
forty-person capacity.)
The Sheriff submitted additional evidence reflecting
that his ability to implement social distancing had
increased by virtue of, among other things, a significant
expansion of the electronic home monitoring program.
He offered a chart showing a steady decline in the Jail’s
daily population over the previous month, including a
reduction of roughly 230 detainees between April 9, when
the Court issued the TRO, and April 17. Another chart
showed a steady increase in the jail’s electronic home
monitoring population over the previous month, with an
increase of approximately 300 detainees on electronic
home monitoring between April 9 and April 17. The
Sheriff also offered evidence, however, that utilization of
this program had been extended to its outside limits, or
nearly so, in light of the apparent exhaustion of program
vendor’s supply of monitoring equipment.
3.

Plaintiffs’ reports regarding conditions at the
Jail

In anticipation of the preliminary injunction hearing,
the plaintiffs submitted a number of affidavits identifying
problems or deficiencies in the Sheriff’s compliance

47a
Appendix B
with the directives in the TRO. These affidavits were
from individuals who had spoken to detained persons
between April 14 and April 18, and they described these
persons’ current experiences at the Jail. According to
these affidavits, symptomatic individuals are not being
tested. Additionally, although facemasks are now being
distributed, detainees reported, it is not happening
regularly.
The detained persons discussed in the affidavits
also reported inadequacies in cleaning and sanitation
practices at the Jail. Several stated that detained persons
lack cleaning supplies for their individual cells and that
some common spaces lack cleaning supplies as well. And
even where cleaning solution is available, they reported,
cloths or wipes have not been provided to enable use of
the solution. A number of detainees also reported that
commonly used objects, such as telephones, are not being
sanitized between uses. In addition, they stated, the Jail’s
staff has not been cleaning cells, and some common areas
are cleaned only every other day, meaning they stand
uncleaned despite multiple uses and repeated touching
by numerous detained persons and potentially staff
personnel.
The detainees also reported an inability or great
difficulty in practicing social distancing. In common
areas where detained persons eat, several stated, it
has been impossible to practice social distancing due to
the arrangement of picnic-style benches. Tape or paint
markings have been placed on the floor in some dayrooms
to designate appropriate space for social distancing, but,

48a
Appendix B
they reported, some correctional officers have mocked
the practice of social distancing, and many have failed
to enforce it. By way of example, detained persons have
been using, at the same time, telephones that are spaced
only two feet apart.
C. The renewed preliminary injunction motion
In their renewed motion for a preliminary injunction,
filed on April 14, 2020, the plaintiffs contend that the
Sheriff’s efforts in response to the TRO “have not worked
and cannot work to abate the spread of the disease” caused
by the coronavirus. Pls.’ Renewed Mot. for Prelim. Inj.
(dkt. no. 55) at 4. The plaintiffs focus primarily on two
inadequacies of the Sheriff’s efforts to date: failure to
identify and transfer medically vulnerable detainees out
of the Jail, and insufficient social distancing, which, the
plaintiffs contend, “is the only way to prevent intolerable
risk to [their] health and lives.” Id. at 2.
The plaintiffs request the following in their renewed
motion for a preliminary injunction. First, they ask for a
preliminary injunction ordering the Sheriff to mandate
social distancing throughout the Jail. In support of this
request, the plaintiffs have submitted the declaration
of Dr. Gregg Gonsalves, an epidemiologist at the Yale
School of Medicine and School of Public Health, who
opined that social distancing is “the only way to prevent
further, essentially uncontrolled, spread of the virus” in
the Jail. Id., Ex. G (dkt. no. 55-7) ¶ 29. In the alternative,
the plaintiffs argue that if the Court concludes that
additional social distancing is not possible, an order should

49a
Appendix B
be entered requiring the Sheriff to transfer detained
persons to another safe facility, or the Court should
request convening a three-judge panel with the authority
to order the release of detainees, as required under the
Prison Litigation Reform Act . See 18 U.S.C. § 3626(a)(3)
(B). In addition, subclass A has renewed its request for
issuance of emergency writs of habeas corpus. 5
In response, the Sheriff argues that he has sufficiently
addressed the risks to the health of persons in his custody,
in accordance with constitutional requirements, through
the protective measures he has already implemented; his
efforts were consistent with the recommendations in the
CDC Guidelines; and he has taken substantial steps to
implement social distancing. The Sheriff also appears to
contend that further implementation of social distancing
was not realistically possible in the Jail at this time. In
response to the plaintiff’s contention that the Sheriff has
not adequately abated the risk of infection to medically
vulnerable detainees, he argues that he cannot screen such
individuals, because he does not have access to detained
persons’ health information. Furthermore, the Sheriff
has explained, he already refers all medical complaints
and issues to Cermak, and nothing more on his part is
required to satisfy the requirements of the Fourteenth
Amendment.
In their reply brief, the plaintiffs acknowledge that
the Sheriff has taken “dramatic steps” to increase social
5. The plaintiffs also sought expedited discovery, but that
largely became a moot point in light of later developments, so the
Court does not discuss the request here.

50a
Appendix B
distancing in the Jail. Pls.’ Reply in Supp. of Renewed
Mot. for Prelim. Inj. (dkt. no. 64) at 6. They contend,
however, that these efforts have been insufficient to
remedy the constitutional violation. They reaffirm their
request to immediately convene a three-judge court to
determine whether to release detained persons. They
also reaffirm their request for a preliminary injunction
mandating social distancing throughout the Jail as well as
transfer of detained persons to “some other safe location,”
id. at 2, and they ask the Court to issue such an order
contemporaneously with a request to convene a threejudge panel. Additionally, the plaintiffs ask the Court to
convert the TRO to a preliminary injunction.
1.

Hearing on motion for preliminary injunction

The Court held an evidentiary hearing on the
preliminary injunction motion by videoconference on
April 23, 2020. In light of the unusually compressed
time schedule necessitated by the development of the
coronavirus pandemic and increases in confirmed
coronavirus infections at the Jail, the Court determined
that it would consider the parties’ affidavits (giving due
consideration to issues regarding weight) and would permit
each side to call one live witness. Executive Director
Miller testified as the Sheriff’s witness; he offered, among
other things, updates to his April 17 affidavit regarding
the Sheriff’s efforts to manage the coronavirus outbreak.
With respect to screening medically vulnerable
detainees, Miller testified that the Jail was doing what it
could based on the limited medical information that it has

51a
Appendix B
available. Miller explained that Cermak conducts a medical
evaluation of every detained person at intake, and based
on this, it transmits information called “alerts” to the
Jail to inform housing decisions based on medical needs.
These alerts do not contain any diagnostic information;
rather, they simply specify the accommodations necessary
to address a medical need. For example, an alert from
Cermak may inform the Jail that a detained person
should be housed on a bottom bunk, but it will not state
the medical reason for this determination. Miller testified
that Cermak has not “yet” created an alert for those who
have heightened risk of severe health consequences from
a coronavirus infection. Without such an alert, Miller
explained that the Jail is conducting coronavirus screening
based on any medical information about a detained person
that it already has, including existing alerts.
Miller also reported that the Jail had made additional
efforts to implement social distancing. To encourage
persons housed in dormitory units to stay at their beds
rather than congregating in common spaces, the Jail
has been providing them with free books, writing pads,
and puzzle books. In addition, Miller stated, detainees
throughout the Jail are now released to use shared
shower facilities one at a time. In common areas, sixfoot intervals have been demarcated with spray paint
markings. Correctional officers, Miller said, have been
trained to enforce social distancing by first communicating
to detained persons the importance of maintaining the
distance, and if that fails, using disincentives such as
loss of microwave privileges. Miller acknowledged that
despite this, detainees have not always been practicing

52a
Appendix B
social distancing and that they continue to congregate in
common spaces such as eating areas.
Miller reported that the Jail’s staff has worked
diligently to increase the Jail’s ability to reduce the
density of the population in its housing units. Over the
past month, he stated, the Jail has opened up several
hundred additional housing units. Between April 17 and
April 23, the Jail doubled the number of detainees housed
in single-occupancy cells, and this effort included moving
260 detainees out of double-occupancy cells. Miller stated
that there are currently no detainees housed in doubleoccupancy cells without a medical or security reason.
Most of those who are still in double-occupancy cells, he
said, are either housed by Cermak or are designated by
Cermak as requiring placement in a double-occupancy cell
due to a health condition or possible suicide risk. Miller
did not explain why a health condition might require
placement in a double-occupancy cell. Some of those in
double-occupancy cells have been placed there, he said,
due to disorderly conduct—though, again, he did not
explain how double-celling serves a security purpose in
such situations. Miller acknowledged on cross examination
that social distancing is impossible for persons housed in
double-occupancy cells.
Miller also reported that roughly 1,000 detainees
are still being housed in dormitory units. He stated that
approximately seventy percent of that population must
remain in those units due to a medical need, though he
did not explain this. As for the remainder, Miller cited
one possible non-medical reason that some detainees must

53a
Appendix B
remain in dorm units: they are housed there in accordance
with requirements of the Prison Rape Elimination Act.
He explained that it would be “very challenging to try to
separate those individuals and keep them protected as we
need to under the PREA Act so that those individuals are
not vulnerable in other areas while they’re incarcerated.”
April 23, 2020 Tr. at 46-47. Again, however, Miller did not
explain this.
Miller supplemented his testimony with an updated
spreadsheet showing the occupancy of the Jail’s housing
units as of April 23. This spreadsheet showed that the
capacity of almost every tier that was not in Cermak,
the RTU, or under quarantine was fifty percent or
below. However, in Division 2, Tier D1-D was at eightyone percent capacity, and Tier D4-R was at fifty-nine
percent (Tier D3-B was right at fifty percent). A number
of Cermak and RTU tiers had occupancy rates as high as
ninety-seven or one hundred percent.
On cross examination, the plaintiffs’ counsel asked
Miller about the high occupancy levels in certain Cermak
and RTU tiers reported in the April 17 and April 22
spreadsheets. Miller explained that Cermak needed to
house those individuals together to be able to provide them
with access to care at all hours of the day or night. Miller
acknowledged that social distancing was not possible for
those housed in the Cermak and RTU tiers.
Plaintiffs’ counsel also asked Miller about a high
occupancy rate listed in the April 17 spreadsheet for a tier
(referenced above) that was not in Cermak, the RTU, or

54a
Appendix B
under quarantine: Tier D of Dorm 1 in Division 2, which
was then at eighty-one percent capacity. The April 22
spreadsheet showed that the dorm was still at the same
capacity. Miller stated: “There’s another security level
and/or issue with having this many people on this tier
that we’ve had to abide by.” Id. at 31. He did not clarify
the nature of the security issue. Miller acknowledged
that social distancing was not possible for detainees on
that tier.
When the Court asked Miller if there was still room
at the Jail to move more detainees out of dorms and into
cells, Miller responded, “I do have a plan in my back
pocket.” Id. at 57. He explained that he was working on
moving people out of Dorms 1, 2, and 3. He added that the
Jail is considering reconfiguring housing arrangements
on tiers for detainees who are women to see if there is a
way to create more capacity, presumably to disperse the
much larger population of detainees who are men.
As for cleaning and sanitation of common areas, Miller
reported that detainees have been given the supplies
they need to do sanitation; he attributed shortfalls in
sanitation to their own behavior. For example, he stated,
at each microwave stations and shared showers and toilets,
detained persons have been provided cleaning solution so
that they can sanitize the facility prior to use.
Finally, Miller stated, to ensure implementation of its
response measures, such as sanitation of common areas
or use of PPE, the Sheriff has deployed “audit teams”
that oversee these efforts. For example, the Jail has a

55a
Appendix B
PPE audit team that patrols PPE use and educates staff
members and detained persons who are not using PPE
properly.
Plaintiffs called as their hearing witness Dr. Homer
Venters, a medical doctor with over a decade of experience
in correctional health. Dr. Venters is the former Deputy
Medical Director of the New York City Jail Correctional
Health Service, a position in which he oversaw care of
detainees and medical policies governing care in New
York City’s twelve jails. He had previously submitted a
declaration along with plaintiffs’ preliminary injunction
reply brief. At the hearing, he testified that, in his view,
the Jail’s coronavirus response efforts have three key
deficiencies: (1) lack of a cohesive coronavirus response
plan; (2) failure to screen for individuals at higher risk
of experiencing severe health consequences from a
coronavirus infection; and (3) insufficient social distancing.
First, Dr. Venters explained that having a cohesive
plan, rather than a collection of policy documents that
address different aspects of emergency response,
is a critical first step to addressing an outbreak of a
communicable disease in a jail facility. He stated that
because jails are such complex systems, employing and
housing several thousand people, it is not possible to
respond to a large outbreak without a single, coordinate
plan that coordinates response measures implemented by
security, health, and administrative staff.
Second, Dr. Venters testified that screening medically
vulnerable individuals is critical so that they can

56a
Appendix B
immediately receive heightened surveillance of possible
symptoms of a coronavirus infection. This heightened
surveillance would entail daily checks on those individuals
for symptoms such as elevated temperature, shortness of
breath, and fatigue.
Third, Dr. Venters emphasized the importance of social
distancing in combatting the spread of coronavirus. In his
declaration, Dr. Venters stated that medical literature
on the coronavirus confirms that social distancing is an
essential strategy in controlling an outbreak. During
the hearing, he explained that because the coronavirus
spreads so easily through respiratory droplets emitted
from an infected person, transmission “is greatly impeded
by physical distance that we establish through social
distancing.” Id. at 67.
During his testimony, Dr. Venters emphasized that
practicing social distancing only in some specific areas of a
congregate setting like the Jail is insufficient to curb virus
transmission rates. Because people are densely packed in
many contexts during routine operations of a detention
facility—e.g., sleeping areas, dayrooms, shower facilities,
and areas where medication is dispensed—it is critical to
implement social distancing throughout the entire facility.
Dr. Venters explained that a “lack of a full commitment
or complete commitment to social distancing” in the Jail
would promote faster transmission of the coronavirus, and
more detainees and staff would become “seriously ill.” Id.
at 74. In his declaration, Dr. Venters had observed that the
concern about severe health effects is heightened when
considering detainees, because they are statistically more

57a
Appendix B
likely than the general public to have pre-existing health
problems such as cardiovascular disease and cancer.
Dr. Venters also discussed the importance of
communication with detainees and staff as a means
to ensure that they practice social distancing in
an appropriate way. Specifically, he said, to ensure
widespread observance of this practice, individuals must
understand what social distancing means and why it is
important.
On cross examination, Dr. Venters acknowledged
that outbreak management in a correctional setting
imposes “unique challenges,” id. at 79, and that the CDC
Guidelines are “now the most important set of principles”
on response, id. at 81. He also acknowledged that the CDC
Guidelines provide that social distancing might not always
be feasible in a correctional setting.
Dr. Venters testified that although use of singleoccupancy cells facilitates social distancing, doing so poses
a risk of increasing detainees’ psychological distress from
social isolation. He also testified that the Jail’s practice of
housing detainees with mental health conditions in doubleoccupancy cells is inappropriate, because they cannot
practice social distancing at all. Though these two concerns
point in opposite directions, Dr. Venters reconciled them
by clarifying that, in the current pandemic environment,
housing detainees in single-occupancy cells is preferable
to double-occupancy because social distancing is critical.
To address the psychological toll of isolation in singleoccupancy cells, Dr. Venters testified, the Jail should

58a
Appendix B
provide opportunities for detained persons to come out
of their cells and benefit from engagement with others in
common areas while practicing social distancing.
Dr. Venters’s testimony largely buttressed the points
made by several other medical doctors and epidemiologists
in affidavits and declarations that the plaintiffs had
attached to their complaint and briefing of this motion.
The plaintiffs’ medical, public health, and correctional
health experts have analogized the conditions in the Jail
to those on cruise ships, which have experienced some of
the largest concentrated outbreaks of the coronavirus.
Specifically, these experts observe, a jail, like a cruise
ship, is an environmentally enclosed, congregate-living
setting with high levels of movement of people. Mohareb
Dec., Pls.’ Reply in Supp. of Renewed Mot. for Prelim. Inj.,
Ex. B (dkt. no. 64-3) at 5; Gonsalves Dec., Pls.’ Renewed
Mot. for Prelim. Inj., Ex. G (dkt. no. 55-7) ¶¶ 17, 27; Med.
Profs.’ Dec., Compl., Ex. B (dkt. no. 1-2) ¶¶ 24, 25, 26.
In particular, Dr. Amir Mohareb, a medical doctor
who is a biothreat response expert and an instructor
at Harvard Medical School, used the example of the
Diamond Princess cruise ship to highlight the importance
of social distancing. The Diamond Princess sailed from
Japan to Hong Kong in January of this year. After one of
its passengers tested positive for the coronavirus in the
last week of January, “strict precautions of hand hygiene
and cabin isolation were implemented for all crew and
passengers.” Mohareb Dec. (dkt. no. 64-3) at 5. Despite
these efforts, 700 of the people who had been on the
ship tested positive for the virus over the course of the

59a
Appendix B
following month. This example, Dr. Mohareb, said, reflects
that in the context of a congregate living arrangement like
a cruise ship, hand hygiene and cabin cell isolation are
insufficient to control the transmission of the coronavirus.
He stated that a jail, which is similarly a congregate
environment, “constitutes an equal or greater risk setting
to that of a cruise ship.” Id.
Dr. Mohareb explained that because respiratory
droplets emitted by an infected person can travel up to
six feet and be inhaled by another, social distancing is “a
necessary intervention to prevent the spread of infection”
from the coronavirus. Id. at 3, 6. He emphasized that social
distancing is particularly important because an infected
person may be mildly symptomatic or not symptomatic at
all. Dr. Mohareb also noted that numerous authoritative
bodies, including the CDC, the World Health Organization,
and the Infectious Diseases Society of America, have
recommended social distancing to control the transmission
of coronavirus. He added that mathematical modeling
supports a conclusion that social distancing is “the primary
means by which individuals can be safely protected from
the threat of COVID-19.” Id. at 5.
All of the plaintiffs’ expert affidavits emphasized the
critical need to implement social distancing in order to
meaningfully control the spread of the virus. Gonsalves
Dec. ¶ 29 (social distancing is the “only way” to control
outbreak); see also Rasmussen-Torvik Dec., Pls.’ Reply
in Supp. of Renewed Mot. for Prelim. Inj., Ex. C (dkt.
no. 64-4) ¶ 9. They reiterated Dr. Venters’s point that
the very design of a correctional facilities promotes

60a
Appendix B
transmission of the coronavirus because it densely packs
large groups of people together. Dr. Gonsalves stated
that although correctional facilities are like cruise ships
in that they are enclosed environments, they present an
even higher risk of rapid transmission of the coronavirus
because of “conditions of crowding, the proportion of
vulnerable people detained, and often scant medical care
resources.” Gonsalves Dec. ¶ 17. In a joint declaration, five
medical doctors with experience working in a correctional
setting—including three doctors who had worked at the
Jail—similarly observed that the “crowded congregate
housing arrangements” of jails and prisons promote the
transmission of respiratory illnesses like the coronavirus
disease. Med. Profs.’ Dec. (dkt. no. 1-2) ¶ 24.
Beyond providing additional support for the points in
Dr. Venters’s testimony, the plaintiffs’ other medical and
public health experts added that the risks of severe health
consequences from a coronavirus infection are not limited
only to those who have preexisting medical conditions or
are over the age of sixty-five. According to Dr. Gonsalves,
“young and healthy individuals may be more susceptible
than originally thought.” Gonsalves Dec. ¶ 5. He reported
that in March, the CDC reported that one-fifth of infected
people between the ages of twenty to forty-four had been
hospitalized. Dr. Mohareb also stated that “a fraction of
patients with COVID-19 in all groups go on to develop
severe respiratory disease.” Mohareb Dec. at 1.
At the conclusion of the April 23 preliminary injunction
hearing, the Court extended the TRO, which was set to
expire that day, pending its ruling on the motion for a
preliminary injunction.

61a
Appendix B
Discussion
“A preliminary injunction is an extraordinary
remedy.” Whitaker v. Kenosha Unified Sch. Dist. No. 1
Bd. of Educ., 858 F.3d 1034, 1044 (7th Cir. 2017). A court’s
determination of whether to issue a preliminary injunction
or temporary restraining order involves a two-step
inquiry, with a threshold phase and a balancing phase. Id.
First, the party seeking the preliminary injunction has to
make a threshold showing, which has three elements: (1)
reasonable likelihood of success on the merits of the claim;
(2) irreparable harm to the movant absent preliminary
injunctive relief; (3) lack of adequate remedies at law. Id.
If the movant makes the threshold showing, the court
proceeds to the balancing step, in which it determines
“whether the balance of harm favors the moving party or
whether the harm to other parties or the public sufficiently
outweighs the movant’s interests.” Id.
Because they request relief that changes the status
quo or requires the Sheriff to take affirmative action, the
plaintiffs are requesting what is sometimes referred to as
“mandatory” preliminary injunctive relief. See Graham
v. Med. Mut. of Ohio, 130 F.3d 293, 295 (7th Cir. 1997);
O’Malley v. Chrysler Corp., 160 F.2d 35, 37 (7th Cir. 1947);
cf. Schrier v. Univ. Of Co., 427 F.3d 1253, 1260 (10th Cir.
2005) (“[D]etermining whether an injunction is mandatory
as opposed to prohibitory can be vexing.”). Mandatory
preliminary injunctions typically are “cautiously viewed
and sparingly issued.” Graham, 130 F.3d at 295 (quoting
Jordan v. Wolke, 593 F.2d 772, 774 (7th Cir. 1978)); see
also Knox v. Shearing, 637 F. App’x 226, 228 (7th Cir.

62a
Appendix B
2016). But “there may be situations justifying a mandatory
temporary injunction compelling the defendant to take
affirmative action” based on the circumstances, Jordan,
593 F.2d at 774, and “the clearest [of] equitable grounds,”
W. A. Mack, Inc. v. Gen. Motors Corp., 260 F.2d 886, 890
(7th Cir. 1958). At least two courts have recognized the
unusual nature of mandatory preliminary injunctions
and yet issued them after finding violations of the rights
of people in custody during the coronavirus pandemic.
See Barbecho v. Decker, No. 20-CV-2821 (AJN), 2020
U.S. Dist. LEXIS 66163, 2020 WL 1876328, at *2, 8-9
(S.D.N.Y. Apr. 15, 2020); Jones v. Wolf, No. 20-CV-361,
2020 U.S. Dist. LEXIS 58368, 2020 WL 1643857, at *2,
14-15 (W.D.N.Y. Apr. 2, 2020).
In assessing each claim, the Court will address the
first threshold requirement for a preliminary injunction:
likelihood of success on the merits, which requires
showing only a “better than negligible” chance of success.
Whitaker, 858 F.3d at 1046 (quoting Cooper v. Salazar,
196 F.3d 809, 813 (7th Cir. 1999)). Generally speaking,
“[t]his is a low threshold,” id., but the Court gives the
matter greater scrutiny here in light of the fact that
plaintiffs are seeking affirmative conduct by the Sheriff.
A. Habeas corpus claim
Plaintiffs and subclass A have petitioned for a writ
of habeas corpus under 28 U.S.C. § 2241. The Court first
addresses the issue of exhaustion of remedies and then
considers subclass A’s ability to satisfy the criteria for a
representative action.

63a
Appendix B
1.

Exhaustion

As the Court concluded in its TRO decision, a petition
for a writ of habeas corpus under 28 U.S.C. § 2241 is the
appropriate mechanism for a state pretrial detainee to
challenge his or her detention. Jackson v. Clements, 796
F.3d 841, 843 (7th Cir. 2015). “Because a pre-trial detainee
is not yet in custody pursuant to the judgment of a State
court, relief under 28 U.S.C. § 2254 is not available.” Id.
(internal quotation marks omitted).
Section 2241 has no express exhaustion requirement,
but courts apply a common-law exhaustion rule. Richmond
v. Scibana, 387 F.3d 602, 604 (7th Cir. 2004). A pretrial
detainee must “exhaust all avenues of state relief” before
seeking a writ of habeas corpus through a section 2241
action. See United States v. Castor, 937 F.2d 293, 296-97
(7th Cir. 1991). Although there are exceptions, “the hurdle
is high.” Richmond, 387 F.3d at 604. In deciding whether
an exception applies, courts “must balance the individual
and institutional interests involved, taking into account
‘the nature of the claim presented and the characteristics
of the particular administrative procedure provided.’”
Gonzalez v. O’Connell, 355 F.3d 1010, 1016 (7th Cir. 2004)
(quoting McCarthy v. Madigan, 503 U.S. 140, 146, 112 S.
Ct. 1081, 117 L. Ed. 2d 291 (1992), superseded by statute
on other grounds as recognized in Porter v. Nussle, 534
U.S. 516, 122 S. Ct. 983, 152 L. Ed. 2d 12 (2002)) . A court
may excuse exhaustion where:
(1) requiring exhaustion of administrative
remedies causes prejudice, due to unreasonable

64a
Appendix B
de l ay or a n i nde f i n it e t i me f r a me for
administrative action; (2) the agency lacks
the ability or competence to resolve the issue
or grant the relief requested; (3) appealing
through the administrative process would
be futile because the agency is biased or
has predetermined the issue; or (4) where
substantial constitutional questions are raised.
Id.
It is undisputed that a state court has the authority
to release a pretrial detainee. A person who is detained
in Illinois may challenge his or her detention by seeking
judicial review of his or her bond. 725 Ill. Comp. Stat. Ann.
5/110-6. On March 23, 2020, in response to an emergency
petition filed by the Cook County Public Defender, the
Presiding Judge of the Cook County Circuit Court’s
Criminal Division issued an order setting out an expedited
bond hearing process that applied to seven designated
classes of detained persons. Def.’s Resp. to Mot. for TRO,
Ex. E (dkt. no. 31-1) at 1-2. The seven classes included
those at an elevated risk of contracting coronavirus due
to their ages or underlying medical conditions—that is,
the putative members of subclass A. Id. The expedited
hearings took place from March 24 through March 27.
Id. at 3-5. Although the expedited hearings do not appear
to be currently ongoing, Cook County’s courts are still
available for emergency matters, and judges are hearing
motions to review or reduce bail daily at all locations where
court is held. Def.’s Supp. Resp. to Mot. for TRO, Ex. A
(dkt. no. 41-1) at 1.

65a
Appendix B
In the TRO decision, the Court concluded that the
plaintiffs—who both were named as representatives of
subclass A—could not show that they exhausted available
state remedies before petitioning for habeas corpus
because they did not “contend that they sought expedited
bond hearings or initiated any sort of state proceedings
challenging their bonds.” Mays, 2020 U.S. Dist. LEXIS
62326, 2020 WL 1812381, at *6. The Court declined
to excuse exhaustion because it found that the state’s
existing bond reduction process is “anything but futile”;
the plaintiffs did not show that the process is “unduly
time-consuming in a way that undermines their claimed
constitutional rights”; and they did not show that state
courts cannot remedy the type of constitutional violations
they raise. Id.
After the Court issued its decision, the plaintiffs’
counsel learned that Foster had sought release in the
Circuit Court of Cook County through an expedited
bond hearing. (The plaintiffs do not contend that Mays
separately sought release in state court prior to the filing
of this lawsuit.) Foster is charged with domestic battery,
robbery, and unlawful restraint. Pls.’ Renewed Mot. for
Prelim. Inj., Ex. F (dkt. no. 55-6) at ECF p. 3 of 17. His
bail was set at $50,000, requiring him to post $5,000 to be
released, which he is unable to afford. Id. In his motion to
reduce bond, he described his serious medical conditions
and explained that they place him at a heightened risk of
becoming critically ill if he contracts coronavirus. Id. at
ECF p. 4-5 of 17. He also argued that it would violate his
constitutional rights to keep him in custody during the
coronavirus pandemic. Id. at ECF p. 13 of 17. On April 2,

66a
Appendix B
2020, a state trial judge heard and denied Foster’s motion.
See id. at ECF p. 16 of 17.
The plaintiffs argue that Foster has sufficiently
presented his request to the state courts and should not
be required to do more. They acknowledge that he has
not exhausted all avenues of state relief: he could appeal
the state court’s denial of his motion to reduce his bond,
but plaintiffs do not contend that he done so. They argue,
however, that the Court should excuse exhaustion based on
the futility of an appeal or the Court’s equitable authority
to excuse exhaustion. They contend that an appeal
would take weeks to pursue, making appellate remedies
practically unavailable to him in light of the urgency of
the coronavirus pandemic and causing an unreasonable
delay that would force him to continue to suffer the
alleged harm. In support of this contention, they offer
an affidavit from Lester Finkle, the Chief of Staff to the
Cook County Public Defender, who explains the procedure
for interlocutory appeals of denials to modify bail. Pls.’
Renewed Mot. for Prelim. Inj., Ex. C (dkt. no. 55-3). Under
Illinois Supreme Court Rule 604(c), before a defendant can
file such an appeal, he must file a verified motion in the trial
court providing certain information about himself. Id. ¶ 2.
Only after the trial court denies the verified motion can
the defendant file an appeal. Id. The affidavit submitted
by the plaintiffs reflects that this process typically takes
two to four weeks. Id. ¶ 5. After that, if the appellate court
denies the defendant’s appeal, he can seek discretionary
review in the Illinois Supreme Court. Id. ¶ 3. Based on
this information, the plaintiffs argue that their state-court
remedies are futile or practically unavailable and that

67a
Appendix B
requiring them to pursue these remedies would unfairly
prejudice them.
The plaintiffs’ contentions are not persuasive. Their
only evidence, Finkle’s affidavit, describes how long such
an appeal would take under ordinary circumstances. But
here we are not dealing with not ordinary circumstances.
The affidavit does not adequately show how the state
appellate process would be expected to work for a
medically vulnerable detainee claiming that due to a
global pandemic that has infiltrated the Jail, he faces
immediate risk of serious health consequences unless his
bail is reduced. We know the state courts are capable of
dealing with emergency requests of this type promptly
and efficiently; Cook County trial court judges dealt
quickly and efficiently with hundreds of such requests in
late March, and they continue to do so now. There is no
reason to believe that the Illinois Appellate Court would
treat such an appeal as an ordinary, run-of-the-mill bail
issue and would refuse to deal with it promptly. Although
a court may excuse exhaustion in the unusual case where
a state process would cause an unreasonable delay, see,
e.g., Gonzalez, 355 F.3d at 1016, the plaintiffs have not
established that this is so in the present situation.
The plaintiffs also contend that the existing bond
review processes provide no effective remedy for the
claims that the class members advance in this case.
Specifically, they contend that the Illinois statute
governing bail, 725 Ill. Comp. Stat. Ann. 5/110-5, does
not require state courts to consider a detained person’s
medical health in deciding whether to set or reduce

68a
Appendix B
the amount of bail and that state judges making those
decisions would not be expected to consider the medical
risks at the Jail. But they point to no evidence that state
courts are not permitted to consider detained persons’
medical conditions, let alone that state courts reviewing
bonds are not actively considering detained persons’
medical conditions in light of the coronavirus pandemic.
To the contrary, the evidence in the record suggests that
state courts are considering the medical dangers the
coronavirus presents to detained persons. As the Court
indicated in its TRO decision, between early March and
early April 2020, the Jail’s population decreased by over
1,175 detainees, Mays, 2020 U.S. Dist. LEXIS 62326,
2020 WL 1812381, at *6; since then, the population has
decreased by at least 300 more detainees, see Def.’s Resp.
to Renewed Mot. for Prelim. Inj., Ex. A (dkt. no. 62-1) at 1.
An affidavit submitted by the plaintiffs reflects that this
reduction in the Jail’s population has occurred, at least
in part, because state court judges have granted bond
reductions. See Pls.’ Renewed Mot. for Prelim. Inj., Ex.
B (dkt. no. 55-2) ¶ 3 (state courts released 719 detainees
through an expedited process for bond reconsiderations in
light of the coronavirus pandemic). In short, the contention
that state courts cannot or will not consider detained
persons’ medical conditions in bond review proceedings
is unsupported. Accordingly, the Court concludes that
the plaintiffs have not shown that the state courts do not
provide an effective remedy for detained persons with
medical conditions that place them at a high risk of severe
illness or death if they contract coronavirus.
The plaintiffs also appear to argue that the state
courts cannot provide an adequate remedy because, they

69a
Appendix B
contend, unlike the federal habeas claims in this case,
state courts can consider factors other than medical
need. That contention is based on an erroneous premise,
which the Court will discuss momentarily, that a district
court addressing a habeas corpus petition challenging jail
conditions under section 2241 cannot or would not consider
other factors such as whether a detainee poses a threat to
public safety. The bottom line is that the plaintiffs have
not shown that the bond reduction remedy offered by the
state courts is any less effective than a federal remedy.
For these reasons, the Court concludes—as it did in
its TRO decision—that the plaintiffs have no likelihood
of success on the habeas corpus claim advanced by them
on behalf the representatives of subclass A due to their
failure to exhaust available state court remedies.
2.

Representative action

Even if the plaintiffs could establish some likelihood
of success on their contention that the failure to exhaust
state remedies should be excused, they would be unable to
satisfy the criteria for a representative action. Although
the Court need not actually certify a representative action
at this point, before issuing a preliminary injunction it
would need to find that the requirements for such an
action conditionally would be met. Mays, 2020 U.S. Dist.
LEXIS 62326, 2020 WL 1812381, at *3 (collecting cases).
Because the plaintiffs cannot satisfy those requirements,
the representative class has no likelihood of success on
the merits.

70a
Appendix B
In the Seventh Circuit, the Federal Rule of Civil
Procedure that governs class actions, Rule 23, does not
apply to habeas corpus proceedings. Bijeol v. Benson, 513
F.2d 965, 967-68 (7th Cir. 1975); cf. Rodriguez v. Hayes,
591 F.3d 1105, 1117 (9th Cir. 2010). But representative
actions—which are analogous to class actions—on rare
occasions can be brought in habeas corpus proceedings.
Bijeol, 513 F.2d at 967-68; see also United States ex rel.
Morgan v. Sielaff, 546 F.2d 218, 220-21 (7th Cir. 1976);
Kazarov v. Achim, No. 02 C 5097, 2003 U.S. Dist. LEXIS
22407, 2003 WL 22956006, at *8 (N.D. Ill. Dec. 12, 2003);
United States ex rel. Green v. Peters, 153 F.R.D. 615, 619
(N.D. Ill. 1994); Faheem-El v. Klincar, 600 F. Supp. 1029,
1033 (N.D. Ill. 1984). The Seventh Circuit has not “set down
a strict formula which must be mechanically followed”
before people in custody can bring a representative
habeas corpus action. Morgan, 546 F.2d at 221. Instead,
it has suggested that courts can look to the provisions of
Rule 23 in determining whether a representative action
is appropriate, though courts need not “precisely” comply
with Rule 23. Id. n.5. The Court thus finds that Rule 23
is instructive in analyzing whether plaintiffs can bring a
representative action. The parties seem to agree; they
discuss the issue within the framework of Rule 23.
To bring a class action, and by analogy a representative
action, a plaintiff must show that the proposed class
meets the four requirements of Rule 23(a): “numerosity,
commonality, typicality, and adequate representation.”
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338, 349, 131
S. Ct. 2541, 180 L. Ed. 2d 374 (2011). In addition, “the
proposed class must satisfy at least one of the three

71a
Appendix B
requirements listed in Rule 23(b).” Id. at 345. The plaintiffs
here rely on, or analogize to, Rule 23(b)(2), which applies
when “the party opposing the class has acted or refused
to act on grounds that apply generally to the class, so that
final injunctive relief or corresponding declaratory relief
is appropriate respecting the class as a whole.” Fed. R.
Civ. P. 23(b)(2).
The parties dispute whether subclass A satisfies each
requirement of Rule 23, as applied to representative
actions, apart from numerosity. The Court discusses each
disputed requirement in turn.
a.

Commonality

To establish that they are likely to satisfy the
commonality requirement, the plaintiffs must show that
there likely “are questions of law or fact common to” the
members of subclass A. Fed. R. Civ. P. 23(a)(2). “That
language is easy to misread.” Wal-Mart, 564 U.S. at 349.
“Commonality requires the plaintiff[s] to demonstrate
that the class members have suffered the same injury.” Id.
at 349-50 (internal quotation marks omitted). In addition,
“[t]heir claims must depend upon a common contention”
for which the “determination of its truth or falsity will
resolve an issue that is central to the validity of each
one of the claims in one stroke.” Id. at 350. Thus “what
matters . . . is not the raising of common ‘questions’ . . .
but rather, the capacity of a [representative] proceeding
to generate common answers apt to drive the resolution
of the litigation.” Id. at 350 (emphasis omitted). “Where
the same conduct or practice by the same defendant gives

72a
Appendix B
rise to the same kind of claims from all class members,
there is a common question.” Suchanek v. Sturm Foods,
Inc., 764 F.3d 750, 756 (7th Cir. 2014).
Subclass A conditionally satisfies the commonality
requirement because the plaintiffs likely can show that
its members “suffered the same injury.” See Wal-Mart,
564 U.S. at 349-50. Specifically, the members of subclass
A can show that the Sheriff’s response to the coronavirus
pandemic gave rise to their habeas claim. In addition, the
plaintiffs point to several questions the determination of
which, they contend, will resolve issues that are central
to the validity of their habeas claim. For purposes of
commonality, the Court need consider only one: whether
coronavirus presents so severe a risk of harm to some
people in the Sheriff’s custody such it is unconstitutional
to confine them in in the Jail. 6 In a representative
proceeding, a common answer to that question likely
would drive the resolution of the litigation by resolving
a core issue underlying subclass A’s request for a writ of
habeas corpus.
6. The Court notes that the plaintiffs posed different questions
in their motion for class certification than in their reply brief in
support of their motion for a preliminary injunction. Compare
Pls.’ Mot. to Cert. Class (dkt. no. 6) at 7-8 with Pls.’ Reply in Supp.
of Renewed Mot. for Prelim. Inj. (dkt. no. 64) at 21-22. Which
particular question the Court identifies as conditionally satisfying
the commonality requirement makes no difference for the purpose
of this opinion. Regardless, at least one question the plaintiffs pose
in their reply brief would also satisfy the commonality requirement:
whether detainees in the Jail, as a matter of due process, are entitled
to practice social distancing consistent with people in the community
at large.

73a
Appendix B
The Sheriff contends that subclass A cannot satisfy
the commonality requirement because its members
seek habeas corpus relief that would require individual
proceedings or determinations. But issues pertaining to
the individualized nature of the desired injunctive relief
go to the requirements of Rule 23(b), not commonality.
See id. at 360-62; Bell v. PNC Bank, N.A., 800 F.3d 360,
379-80 (7th Cir. 2015). In other words, the commonality
requirement of Rule 23(a) does not demand that the relief
ultimately awarded to each plaintiff be the same. See id.;
Suchanek, 764 F.3d at 756 (commonality of relief is not
essential); In re IKO Roofing Shingle Prods. Liab. Litig.,
757 F.3d 599, 602 (7th Cir. 2014) (“[The commonality
requirement as discussed in] Wal-Mart has nothing to
do with commonality of damages.”). Nor is this a case
in which the commonality requirement is not satisfied
because individual plaintiffs experienced the harm in
meaningfully different ways. Cf. Jamie S. v. Milwaukee
Pub. Sch., 668 F.3d 481, 497-98 (7th Cir. 2012) (class of
disabled students did not meet commonality requirement
where its members likely experienced alleged violations
of federal and state law in different ways). The putative
members of subclass A all experienced the alleged harm
from the Sheriff’s response to coronavirus in the same or
similar ways, specifically their allegedly increased risk of
exposure to the virus. In addition, all of them raise the
same kind of claim, and their claims all involve a common
question that would resolve a central issue of that claim.
The Court acknowledges that, in a case raising
claims similar to the habeas corpus claims asserted in
this one, another judge in this district recently took a

74a
Appendix B
different approach with regard to commonality. A putative
representative class of convicted prisoners in Money v.
Pritzker, No. 20-CV-2093, 2020 U.S. Dist. LEXIS 63599,
2020 WL 1820660 (N.D. Ill. Apr. 10, 2020), also sought
habeas corpus relief and medical furloughs or home
detentions under section 1983 based on an allegedly
inadequate response to the coronavirus pandemic by the
director of the Illinois Department of Corrections. 2020
U.S. Dist. LEXIS 63599, [WL] at *1-2. For the section
1983 claim, the court found the only common question
“apt to drive the resolution of the litigation,” 2020 U.S.
Dist. LEXIS 63599, [WL] at *15 (quoting Wal-Mart, 564
U.S. at 350), was “which class members should actually
be given a furlough,” id. That question did not satisfy
the commonality requirement, the court found, because
“individualized determinations” would be necessary to
answer it. Id. The court also indicated that the habeas
claim would not be “suitable for representative or class
treatment” because “release determinations must be
made on an individual basis regardless of the vehicle
for considering and effectuating them.” 2020 U.S. Dist.
LEXIS 63599, [WL] at *21 n.15. The court did not clarify
whether it based its finding that the habeas claim would
be unsuitable for representative or class treatment
on the commonality requirement or another Rule 23
consideration. See id.
This Court respects the court’s decision in Money,
which it cites as persuasive authority elsewhere in this
opinion. But to the extent that the court in Money found
that the putative classes failed to satisfy the commonality
requirement because their requested relief would entail

75a
Appendix B
individualized determinations, this Court departs from
the analysis in Money. As indicated, the commonality
requirement does not mean that the relief ultimately
awarded to each plaintiff must be the same. Thus whether
the release determinations would need to be made on
an individual basis does not factor into the Rule 23(a)
commonality analysis.
The Court concludes, for the reasons stated above,
that the putative class satisfies Rule 23(a)’s commonality
requirement.
b.

Typicality

The Sheriff contends that the putative subclass does
not meet Rule 23(a)’s typicality requirement. He does not
explain why, and he is incorrect. The named plaintiffs’
habeas corpus “claim is typical if it arises from the same
event or practice or course of conduct that gives rise to
the claims of other [subclass] members and is based on the
same legal theory.” Lacy v. Cook County, 897 F.3d 847, 866
(7th Cir. 2018) (alteration omitted). “This requirement is
meant to ensure that the named representative’s claims
have the same essential characteristics as the claims
of the class at large.” Id. (internal quotation marks
omitted). Typicality is satisfied for subclass A because the
named plaintiffs have alleged the same injurious conduct
stemming from the Sheriff’s response to the coronavirus
pandemic as the other members of the subclass and have
advanced the same legal theory as the subclass at large.

76a
Appendix B
c.

Rule 23(b)(2)

Rule 23(b)(2) is the sticking point for the habeas
corpus plaintiffs’ attempt to bring a representative action
on behalf of subclass A. As indicated, Rule 23(b)(2) allows
for class certification where “the party opposing the class
has acted or refused to act on grounds that apply generally
to the class, so that final injunctive relief . . . is appropriate
respecting the class as a whole.” Fed. R. Civ. P. 23(b)(2).
It “applies only when a single injunction or declaratory
judgment would provide relief to each member of the
class,” not “when each individual class member would be
entitled to a different injunction.” Wal-Mart, 564 U.S. at
360.
The Sheriff contends that the putative subclass
A does not satisfy Rule 23(b)(2) because the plaintiffs
seek individualized relief. He suggests that any habeas
corpus proceeding would need to account for each
subclass member’s individual circumstances, including,
for example, the danger each detainee would pose to the
public if released. The plaintiffs expressly concede that
the relief would need to be at least partly individualized.
They contend, however, that this could be achieved
through “brief, individual proceedings” without defeating
class certification. Pls.’ Reply in Supp. of Renewed Mot.
for Prelim. Inj. (dkt. no. 64) at 23; see also Pls.’ Renewed
Mot. for Prelim. Inj. (dkt. no. 55) at 16.
In actions where plaintiffs seek an injunction that
“would merely initiate a process through which highly
individualized determinations of liability and remedy

77a
Appendix B
are made,” Rule 23(b)(2) is not satisfied. Jamie S., 668
F.3d at 499 (7th Cir. 2012) (injunction that established a
system for identifying disabled children and implementing
individualized education plans and remedies did not satisfy
Rule 23(b)(2) because it “merely establishe[d] a system
for eventually providing individualized relief”). Compare
id. and Kartman v. State Farm Mut. Auto. Ins. Co., 634
F.3d 883, 893 (7th Cir. 2011) (in case challenging insurer’s
performance of hail storm damage appraisals, injunction
requiring class-wide roof reinspection did not satisfy
Rule 23(b)(2) where it “would only initiate thousands
of individualized proceedings to determine breach and
damages”) with Chi. Teachers Union, Local No. 1 v. Bd.
of Educ. of City of Chi., 797 F.3d 426, 441-42 (7th Cir.
2015) (proposed class was maintainable under Rule 23(b)
(2) where plaintiffs asked the court for a declaration that
a school board’s policies violated Title VII and prospective
relief including a moratorium on a challenged practice and
the appointment of a monitor).
The plaintiffs concede that issuing writs of habeas
corpus in this case would entail individualized proceedings
but not that Rule 23(b)(2) precludes them from proceeding
on a representative basis. They suggest that the type of
supposedly brief, individualized proceedings they seek
“have long been commonplace in class litigation.” Pls.’
Reply in Supp. of Renewed Mot. for Prelim. Inj. (dkt.
no. 64) at 23. But the cases they cite to support that
proposition are distinguishable from this one. Both Barnes
v. District of Columbia, 278 F.R.D. 14 (D.D.C. 2011), and
Dunn v. City of Chicago, 231 F.R.D. 367 (N.D. Ill. 2005),
amended on reconsideration, No. 04 C 6804, 2005 U.S.

78a
Appendix B
Dist. LEXIS 30888, 2005 WL 3299391 (N.D. Ill. Nov. 30,
2005), involved individualized proceedings on damages
under Rule 23(b)(3), not individualized proceedings for
injunctive relief under Rule 23(b)(2). See Barnes, 278
F.R.D. at 19-23; Dunn, 231 F.R.D. 367, at 375-78. Dunn
also involved class members who had variations in how
they experienced the constitutional violations—an issue
the court properly discussed as part of the commonality
analysis, not the Rule 23(b)(2) analysis. See id. at 372.
Even if the plaintiffs did not concede it, individualized
proceedings would be required for writs of habeas corpus
that the plaintiffs seek because the Prisoner Litigation
Reform Act (PLRA) applies to their habeas corpus
claims. Under the PLRA, in tailoring any prospective
or preliminary injunctive relief “in any civil action
with respect to prison conditions,” a court must “give
substantial weight to any adverse impact on public safety,”
among other considerations. 18 U.S.C. § 3626(a)(1)(A), (a)
(2). The PLRA defines “civil action with respect to prison
conditions” as “any civil proceeding arising under Federal
law with respect to the conditions of confinement or the
effects of actions by government officials on the lives of
persons confined in prison, but does not include habeas
corpus proceedings challenging the fact or duration
of confinement in prison.” Id. § 3626(g)(2). Thus if the
plaintiffs’ habeas claims constitute civil actions as defined
by the PLRA, the Court would need to give substantial
weight to the public safety of granting writs, which would
require consideration of, among other things, any danger
each individual member of subclass A poses to the public.

79a
Appendix B
As the Court indicated in its TRO decision, the
question of whether detained persons can even use a
section 2241 petition to challenge the conditions of their
confinement has divided courts. Mays, 2020 U.S. Dist.
LEXIS 62326, 2020 WL 1812381, at *6 (comparing, e.g.,
Aamer v. Obama, 742 F.3d 1023, 1032, 408 U.S. App.
D.C. 291 (D.C. Cir. 2014) (a prisoner may challenge the
conditions of his confinement in a federal habeas corpus
petition) and Thompson v. Choinski, 525 F.3d 205, 209
(2d Cir. 2008) (same) with Spencer v. Haynes, 774 F.3d
467, 469-70 (8th Cir. 2014) (section 2241 petitions may
not challenge conditions)). The Seventh Circuit has
expressed a “long-standing view that habeas corpus is
not a permissible route for challenging prison conditions,”
at least when a prisoner’s claim does not have “even an
indirect effect on the duration of punishment.” Robinson
v. Sherrod, 631 F.3d 839, 840-41 (7th Cir. 2011). But the
Seventh Circuit has also noted that “the Supreme Court
[has] left the door open a crack for prisoners to use habeas
corpus to challenge a condition of confinement.” Id. at 840
(quoting Glaus v. Anderson, 408 F.3d 382, 387 (7th Cir.
2005)) (citing Nelson v. Campbell, 541 U.S. 637, 644-46,
124 S. Ct. 2117, 158 L. Ed. 2d 924 (2004); Bell v. Wolfish,
441 U.S. 520, 526 n.6, 99 S. Ct. 1861, 60 L. Ed. 2d 447
(1979); Preiser v. Rodriguez, 411 U.S. 475, 499-500, 93 S.
Ct. 1827, 36 L. Ed. 2d 439 (1973)).
In the TRO decision, the Court said that it did not
need to decide the question of whether the plaintiffs could
challenge conditions of confinement in a habeas corpus
proceeding definitively at the time but stated that were
it “required to address this point, [the Court] would not

80a
Appendix B
consider it to be an absolute bar to plaintiffs’ motion for
a temporary restraining order.” Mays, 2020 U.S. Dist.
LEXIS 62326, 2020 WL 1812381, at *6. The Court stated
that “[t]he plaintiffs’ claims, as they have framed them, do
bear on the duration of their confinement (they contend,
ultimately, that they cannot be held in the Jail consistent
with the Constitution’s requirements), and they are not the
sort of claims that are, or can be, appropriately addressed
via a claim for damages.” Id.
But the plaintiffs’ claims also bear on the conditions
of their confinement: they challenge the constitutionality
of the conditions in the Jail during the coronavirus
pandemic, and they contend that the conditions are so
deficient that it is unconstitutional for subclass A to be
confined at the Jail. The Seventh Circuit has not expressly
addressed whether the PLRA applies to habeas corpus
petitions that involve conditions of confinement, but it
has not foreclosed the application of the PLRA to such
petitions. Cf. Walker v. O’Brien, 216 F.3d 626, 634 (7th
Cir. 2000) (stating that actions “brought under section
2241 . . . as habeas corpus petitions are not subject to the
PLRA”—but not addressing such petitions that challenge
the conditions of confinement); see also Thomas v. Zatecky,
712 F.3d 1004, 1005 (7th Cir. 2013) (Walker holds, among
other things, “that a collateral attack under § 2241 or
§ 2254 is not a ‘civil action’ for the purpose” of the PLRA
(emphasis added)). By specifying that a “civil action with
respect to prison conditions . . . does not include habeas
corpus proceedings challenging the fact or duration of
confinement in prison,” the language of the PLRA appears
suggests that it may cover other types of habeas corpus

81a
Appendix B
proceedings, including, potentially, those challenging
the conditions of confinement. See Advocate Health
Care Network v. Stapleton, 137 S. Ct. 1652, 1659, 198 L.
Ed. 2d 96 (2017) (courts should interpret a statute in a
way that would “give effect, if possible, to every clause
and word”). And at least some courts addressing the
issue have suggested that the PLRA applies to habeas
corpus petitions involving the conditions of confinement.
See Jones v. Smith, 720 F.3d 142, 145, 145 n.3 (2d Cir.
2013) (the PLRA does not apply to “habeas petition[s]
seeking to overturn a criminal conviction or sentence”
but presumably would apply to conditions-of-confinement
habeas claims brought under section 2241); Blair-Bey v.
Quick, 151 F.3d 1036, 1042, 331 U.S. App. D.C. 362 (D.C.
Cir.) (habeas corpus petitions challenging conditions of
confinement “would have to be subject to the PLRA’s . . .
rules, as they are precisely the sort of actions that the
PLRA sought to address”), on reh’g, 159 F.3d 591, 333
U.S. App. D.C. 1 (D.C. Cir. 1998).
Accordingly, the Court concludes that the PLRA
applies to the plaintiffs’ habeas corpus claim. The
PLRA’s mandate that a court “give substantial weight
to any adverse impact on public safety” before issuing
preliminary injunctive or prospective relief thus would
apply to the habeas corpus claim. See 18 U.S.C. § 3626(a)
(1)(A), (a)(2). To do so, the Court would need to consider
the circumstances of the detained persons and any threat
they pose to public safety, which plainly would vary from
one person to another. This is a process that would render
the claim unsuitable to certification under Rule 23(b)(2)
or its analogy for representative actions.

82a
Appendix B
The plaintiffs also state, in two sentences found at
the very end of a small-type, twenty-four-line footnote,
that a release order would not require a court to resolve
individualized questions regarding safety because such an
order would give the Sheriff discretion on which detained
persons to release. Pls.’ Reply in Supp. of Renewed Mot.
for Prelim. Inj. (dkt. no. 64) at 21 n.16. The plaintiffs
make this point with respect to commonality for their
section 1983 claim, not on the question of whether the
habeas corpus claim may be handled on a representative
basis. They nowhere attempt to explain how the Court
could condition the issuance of writs of habeas corpus on
detainee-specific decisions made by the Sheriff. As this
Court stated in its TRO decision, “[t]he issuance of [a]
writ of habeas corpus through a section 2241 petition is
a federal remedy (in other words, it does not depend on
state law).” Mays, 2020 U.S. Dist. LEXIS 62326, 2020 WL
1812381, at *7. Nor could the issuance of a writ depend
on subsequent decisions by a detained person’s custodian.
The habeas corpus claim proceeds against the custodian
based on the fundamental, long-standing rule that a
person in custody “may be liberated if no sufficient reason
is shown to the contrary.” Rumsfeld v. Padilla, 542 U.S.
426, 435, 124 S. Ct. 2711, 159 L. Ed. 2d 513 (2004) (quoting
Wales v. Whitney, 114 U.S. 564, 574, 5 S. Ct. 1050, 29 L.
Ed. 277 (1885)). The only remedy available for a habeas
corpus claim is liberation of the person in custody. See id.
It is difficult to imagine a writ of habeas corpus that would
tell a jailer to release the petitioner—unless he decides
it would not be a good idea to do so. Plaintiffs offer no
authority supporting the proposition that a writ of habeas
corpus could appropriately be issued in this way.

83a
Appendix B
In sum, though representative habeas corpus actions
do not need to comply “precisely” with Rule 23, Morgan,
546 F.2d at 221 n.5, the plaintiffs cannot meet the
requirements for representative treatment.7
Because the plaintiffs’ habeas corpus claims founder
on the exhaustion requirement, and because they have
not established that the claims may be pursued on a
representative basis, their representative action on behalf
of subclass A has no likelihood of success on the merits.
Accordingly, the plaintiffs’ request for the Court to release
medically vulnerable members of subclass A on unsecured
or non-monetary bail conditions pending review of their
habeas corpus claims is moot.
B. Section 1983 claim
The Court next addresses the question of likelihood
of success on the plaintiffs’ section 1983 claim, dealing
with conditional class certification first, followed by the
merits. The Court then addresses certain provisions of
the PLRA as applied to the section 1983 claim.
7. The Court acknowledges that this is different from the
conclusion it reached in the TRO decision, in which it conditionally
certified subclass A. See Mays, 2020 U.S. Dist. LEXIS 62326, 2020
WL 1812381, at *4. But that was, of course, a provisional decision.
And even for a non-conditionally certified class, a court may alter
or amend an order granting class certification at any point before
final judgment. Fed. R. Civ. P. 23(c)(1)(C); Gen. Tel. Co. of Sw. v.
Falcon, 457 U.S. 147, 160, 102 S. Ct. 2364, 72 L. Ed. 2d 740 (1982)
(class certification order is “inherently tentative,” and a district court
“remains free to modify it in the light of subsequent developments
in the litigation”).

84a
Appendix B
1.

Conditional class certification

For their section 1983 claim, the plaintiffs seek classwide relief in the form of a preliminary injunction. But
because the plaintiffs only recently filed the lawsuit, there
has not yet been a class certification ruling. As the Court
indicated in its TRO opinion, “[t]his does not foreclose the
possibility of relief for the plaintiffs at this stage, because
a district court has general equity powers allowing it to
grant temporary or preliminary injunctive relief to a
conditional class.” Mays, 2020 U.S. Dist. LEXIS 62326,
2020 WL 1812381, at *3 (citing Lee v. Orr, No. 13 C 8719,
2013 U.S. Dist. LEXIS 173801, 2013 WL 6490577, at *2
(N.D. Ill. Dec. 10, 2013); Al Otro Lado v. Wolf, 952 F.3d
999, 1005 n.4 (9th Cir. 2020); Gooch v. Life Inv’rs Ins. Co.
of Am., 672 F.3d 402, 433 (6th Cir. 2012); Howe v. Varity
Corp., 896 F.2d 1107, 1112 (8th Cir. 1990)). “Furthermore,
Federal Rule of Civil Procedure 23(b)(2) ‘does not restrict
class certification to instances when final injunctive relief
issues’ and permits certification of a conditional class for
the purpose of granting preliminary injunctive relief.” Id.
(quoting Meyer v. Portfolio Recovery Assocs., LLC, 707
F.3d 1036, 1043 (9th Cir. 2012)).
As indicated, to bring a class action a plaintiff must
show that the proposed class meets the four requirements
of Rule 23(a): “numerosity, commonality, typicality, and
adequate representation.” Wal-Mart, 564 U.S. at 349. In
addition, “the proposed class must satisfy at least one of
the three requirements listed in Rule 23(b).” Wal-Mart,
564 U.S. at 345. The plaintiffs rely on Rule 23(b)(2).

85a
Appendix B
As an initial matter, the Court must clarify the scope
of the class or subclasses for which the plaintiffs have
sought certification. They assert count 1 under section
1983 on behalf of all putative members of a class consisting
of “all people who are currently or who will in the future
be housed in the Cook County Jail for the duration of the
COVID-19 pandemic.” Compl. (dkt. no. 1) ¶ 60. In their
reply brief in support of their motion for a preliminary
injunction, however, the plaintiffs indicate that they also
request injunctive relief for claims under section 1983
specifically for the putative members of proposed subclass
B, which consists of “all people who are currently housed
on a tier where someone has already tested positive for
the coronavirus,” Id. ¶ 62. See, e.g., Pls.’ Reply in Supp.
of Renewed Mot. for Prelim. Inj. (dkt. no. 64) at 29
(requesting the transfer of members of putative subclass
B). Accordingly, the Court takes this as meaning that,
with respect the section 1983 claim, the plaintiffs seek
injunctive relief on behalf of both the overall class and
subclass B.
The parties dispute whether the class and subclass B
satisfy each requirement of Rule 23, except for numerosity.
The Court’s analysis earlier in this opinion finding that
subclass A (the subclass seeking habeas relief) satisfies
the typicality and commonality requirements apply to
the overall class and subclass B as well. Specifically, the
class and subclass B satisfy the commonality requirement
because their members “have suffered the same injury”
and their claims “depend upon a common contention” for
which class action proceedings will “generate common
answers apt to drive the resolution of the litigation.” Wal-

86a
Appendix B
Mart, 564 U.S. at 350 (emphasis omitted). As with subclass
A, the claims members of the class and subclass B raise
at least one common question that satisfies Rule 23(a)’s
commonality requirement: whether coronavirus presents
so severe a risk of harm to those in the Sheriff’s custody
that their conditions of confinement are unconstitutional.
For the reasons previously discussed, Rule 23(a)’s
commonality requirement does not involve whether each
member of the class would be entitled to identical relief.
The Class and subclass B also satisfy Rule 23(a)’s
typicality requirement. Each member’s section 1983 claim
arises from the Sheriff’s response to the coronavirus
pandemic—“the same event or practice or course of
conduct”—and “is based on the same legal theory.” See
Lacy, 897 F.3d at 866 (alteration omitted).
The Court’s analysis under Rule 23(b)(2), however,
differs from its analysis regarding the habeas corpus
claim. Again, Rule 23(b)(2) allows for class certification
where “the party opposing the class has acted or refused
to act on grounds that apply generally to the class, so that
final injunctive relief . . . is appropriate respecting the
class as a whole.” Fed. R. Civ. P. 23(b)(2). It “applies only
when a single injunction or declaratory judgment would
provide relief to each member of the class,” not “when each
individual class member would be entitled to a different
injunction.” Wal-Mart, 564 U.S. at 360.
A good deal of the injunctive relief that the plaintiffs
seek would provide relief to the entire class via a
single order. Specifically, on behalf of the overall class,

87a
Appendix B
the plaintiffs request a single order mandating social
distancing and/or extending the TRO or converting it
to a preliminary injunction, which would provide the
same relief to each class member. Accordingly, the class
satisfies the requirements of Rule 23(b) to the extent the
plaintiffs request relief under section 1983 mandating
social distancing and/or extending the TRO or converting
it into a preliminary injunction.
The plaintiffs’ requests for prisoner transfers and/
or releases on behalf of subclass B, however, likely would
entail individual determinations to some degree. The
parties do not dispute that the PLRA applies to the
plaintiffs’ section 1983 claim or that the 1983 claim involves
prison conditions. As discussed earlier with regard to
the habeas corpus claim, before granting prospective or
preliminary injunctive relief on the section 1983 claim,
the PLRA requires the Court to “give substantial weight
to any adverse impact on public safety,” in addition to
making other findings. 18 U.S.C. § 3626(a)(1)(A), (a)(2).
As indicated, the Sheriff contends that these individual
determinations prevent certification under 23(b)(2). As
the Court has discussed, the plaintiffs contend (albeit only
in a footnote) that a court would not be required to make
those individual determinations because a court could
grant a single injunction while delegating those questions
to the Sheriff. Pls.’ Reply in Supp. of Renewed Mot. for
Prelim. Inj. (dkt. no. 64) at 21 n.16; see also Brown, 563
U.S. at 537-38 (three-judge court adequately considered
“public safety by leaving” decision “of how best to comply
with its population limit to state prison officials”). The
Court recognizes that analysis of whether the Sheriff

88a
Appendix B
may exercise discretion in carrying out a transfer or
release order may be different for the section 1983 claim.
Among other differences, a petition for habeas corpus
contemplates a singular form of relief with regard to
habeas—release from custody—whereas a court has a
broader spectrum of possible relief under section 1983. See
Rumsfeld, 542 U.S. at 435; Preiser, 411 U.S. at 484-86, 489.
The range of injunctive relief available under section 1983
may allow courts to “leave details of implementation to [a]
State’s discretion by leaving sensitive policy decisions to
responsible and competent policy state officials.” See, e.g.,
Brown, 563 U.S. at 538. The Court need not decide that
issue now, however, because, as it will explain later in this
opinion, at this point it concludes that the predicate under
the PLRA for convening a three-judge court or ordering
prisoner transfers has not been established.
In sum, the Court conditionally certifies the class
to the extent the plaintiffs request relief under section
1983 requiring social distancing and/or extending the
TRO or converting it to a preliminary injunction. The
Court declines to decide whether subclass B satisfies the
requirements of Rule 23(b) because it is not necessary to
do so at this time.
2.

Likelihood of success on the merits

The injunctive relief requests remaining for
determination are the class’s requests to require social
distancing throughout the Jail and (it appears) advance
identification and further screening of detained persons
with conditions that make them more vulnerable to severe

89a
Appendix B
health consequences from coronavirus disease, as well
as their request to convert the TRO to a preliminary
injunction. (The Court addresses in later sections the
plaintiffs’ request to require the Sheriff to transfer
detainees out of the Jail and to convene a three-judge
panel.)
The claims of the class arise under the Due Process
Clause of the Fourteenth Amendment. “When a state
actor [ ] deprives a person of his ability to care for himself
by . . . detaining him . . . , it assumes an obligation to
provide some minimum level of well-being and safety.”
Johnson v. Rimmer, 936 F.3d 695, 706 (7th Cir. 2019)
(quoting Collignon v. Milwaukee County, 163 F.3d 982,
987 (7th Cir. 1998)). The Due Process Clause requires a
jailer to provide a pretrial detainee with food, shelter,
and basic necessities, including reasonably adequate
sanitation, ventilation, bedding, hygienic materials, and
utilities, Hardeman v. Curran, 933 F.3d 816, 820 (7th Cir.
2019), and to “meet[ ] the person’s medical needs while
he is in custody,” Johnson, 936 F.3d at 706. More broadly,
the Due Process Clause protects pretrial detainees,
who “have not been convicted of anything,” Miranda v.
County of Lake, 900 F.3d 335, 350 (7th Cir. 2018), from
conditions that “amount[ ] to punishment.” Kingsley v.
Hendrickson, 576 U.S. 389, 135 S. Ct. 2466, 2472, 192 L.
Ed. 2d 416 (2015) (quoting Graham v. Connor, 490 U.S.
386, 395 n.10, 109 S. Ct. 1865, 104 L. Ed. 2d 443 (1989));
Hardeman, 933 F.3d at 823.
Here there is no question that the plaintiffs’ claims
involve conditions that are sufficiently serious to invoke

90a
Appendix B
the Fourteenth A mendment; the Sheriff does not
argue otherwise. A pretrial detainee may establish a
Fourteenth Amendment violation based on a condition, or
combination of conditions, posing an “unreasonable risk
of serious damage to [his] future health.” Henderson v.
Sheahan, 196 F.3d 839, 847 (7th Cir. 1999) (decided under
Eighth Amendment “deliberate indifference” standard).
See Helling v. McKinney, 509 U.S. 25, 33, 35, 113 S.
Ct. 2475, 125 L. Ed. 2d 22 (1993) (Eighth Amendment
case; “exposure of inmates to a serious, communicable
disease” that poses a risk of future harm is a deprivation
sufficiently serious to invoke constitutional protections).
This is precisely where persons detained in the Jail find
themselves. The coronavirus is indisputably present in the
Jail. And the persons detained there are housed in settings
that facilitate its transmission. This is true throughout
the Jail, given the close proximity in which even singlecelled detained persons are housed and the fact that
they occupy common areas like bathrooms, showers, and
dayrooms where other inmates congregate or have been
present. And it is particularly true for detained persons
who are doubled celled and those who are still housed
in the dormitory units, where dozens (or more) spend
twenty-four hours per day, or close to it, in the same
room. It is equally undisputed that persons are detained
in these settings with the knowledge of the Sheriff and
his personnel, who have assigned them to live in these
quarters while aware of the risks of virus transmission.
All of this, taken together, is sufficient for the plaintiffs to
have well more than a “better than negligible chance,” see
Whitaker, 858 F.3d at 1046, of establishing the threshold
requirement of their due process claim—conduct that

91a
Appendix B
the Sheriff knows puts detainees at a significant risk of
serious harm from coronavirus. See Kingsley, 135 S. Ct.
at 2472; Miranda, 900 F.3d at 353. Meeting this threshold
requirement of the due process standard does not require
an intent to cause harm; it requires only knowledge of
“the physical consequences” of one’s conduct. Kingsley,
135 S. Ct. at 2472.
The primary dispute before the Court, and the point on
which the Sheriff focuses his defense, involves the second
requirement of a due process claim. To succeed on their
claim, the plaintiffs must show that the Sheriff’s conduct
in addressing the risks posed by exposure to coronavirus
is objectively unreasonable in one or more respects. See,
e.g., McCann v. Ogle County, 909 F.3d 881, 886 (7th Cir.
2018). At the preliminary injunction stage, however, the
plaintiffs are not required to prove this definitively; they
are required only to establish a reasonable likelihood that
they will ultimately succeed in proving it.
The plaintiffs concede that the Sheriff and others
have taken significant steps to reduce the Jail’s population
and to decrease the number of persons housed in groups
or double celled. They argue, however, that the Sheriff’s
actions do not go far enough and that detained persons
continue to be unreasonably exposed to a risk of serious
harm. The plaintiffs contend that social distancing is not
being enforced even in units where detained persons are
single celled, given joint usage of showers, toilet facilities,
and dayrooms. And, they say, social distancing is not even
a possibility for the hundreds who are double celled or
remain in dormitory units. The plaintiffs also contend

92a
Appendix B
that despite policies promulgated by the Sheriff, proper
sanitation—in particular, frequent cleaning of surfaces
and facilities used in common, distribution of cleaning
materials to detainees, and so on—is not actually being
carried out on the ground. Finally, the plaintiffs contend—
and it is undisputed—that nothing has been done by the
Sheriff to enable him to identify, in advance, detained
persons with medical or other conditions that make them
particularly vulnerable to serious illness should they
contract the coronavirus.
The Sheriff argues that he and others have taken
significant steps to reduce the risk to detained persons
from coronavirus. One critical aspect of this is a very
significant reduction in the overall population of the Jail,
accomplished by bond reductions issued by judges and by
expansion, to its limits, of the Sheriff’s electronic home
monitoring program. In addition, in recent weeks, there
have been far fewer new detainees admitted on a daily
basis than has been the case historically, presumably
due to fewer arrests. At the same time, the Sheriff has
taken steps to increase capacity, including by reopening
previously shuttered buildings and parts of buildings
within the Jail complex. Together, these actions have
enabled the Sheriff to take further steps to separate
persons who remain detained in the Jail. Specifically, a
far greater percentage of detainees are now in cells by
themselves. And far fewer are housed in the dormitory
units than before, with many having been transferred to
single-cell units. In addition, at the Sheriff’s direction,
detainees have been provided guidance regarding social
distancing. The Sheriff has also instituted policies to

93a
Appendix B
enhance sanitation practices and to carry out these
policies. He has also implemented the distribution of
facemasks to certain detained persons—in particular,
those who are in quarantine—consistent with the
availability of supplies, and he has undertaken efforts to
acquire more. (Some of this has taken place as a result of
the TRO entered on April 9.)
It cannot reasonably be disputed that the Sheriff
has undertaken a significant, and impressive, effort to
safeguard detained persons in his custody from infection
by coronavirus. And based on the record, including the
testimony of Executive Director Miller at the April 23
hearing, the Court is satisfied that the Sheriff and his staff
have acted in good faith, with the goal of protecting the
people placed in his custody, consistent with his obligation
to maintain security.
Were this an Eighth Amendment case involving
convicted prisoners, the efforts the Court has just
described likely would be the end of the story. To prevail in
a case involving a convicted prisoner, a plaintiff is required
to show that the prison official was deliberately indifferent
to the risk of harm to the plaintiff—in other words, the
official knew about but disregarded that risk. See, e.g.,
Orr v. Shicker, 953 F.3d 490, 499 (7th Cir. 2020); Garcia
v. Armor Corr. Health Serv., Inc., 788 F. App’x 393, 395
(7th Cir. 2019). Were the plaintiffs in this case required to
make that showing, they would be unable to prevail; the
Sheriff has been anything but deliberately indifferent to
the risk of harm to pretrial detainees from coronavirus.

94a
Appendix B
But because this is a case involving persons detained
prior to an adjudication of their guilt or innocence,
the Sheriff’s good intentions are not dispositive of the
plaintiffs’ claims. There is a critical difference between
a claim regarding conditions of confinement brought by
pretrial detainees like the plaintiffs and one brought
by a convicted prisoner under the Eighth Amendment,
who unlike a pretrial detainee can constitutionally be
subjected to punishment. See Hardeman, 933 F.3d at 824
(Eighth Amendment standard is “more demanding”). The
standard by which a court evaluates a claim by a pretrial
detainee like the plaintiffs “is solely an objective one.”
Kingsley, 135 S. Ct. at 2473. The plaintiffs are not required
to show that the Sheriff had an intent to punish or to harm
them, id.; indeed, they need not show any sort of malicious
or bad intent at all. Rather, what they are required to
show—actually, on a preliminary injunction, simply
establish a reasonable likelihood of showing—is that the
Sheriff’s conduct with respect to the particular condition
has been objectively unreasonable in one or more respects.
See McCann, 909 F.3d at 886. In applying this standard, a
court “focus[es] on the totality of facts and circumstances”
the defendant faced “to gauge objectively—without regard
to any subjective belief held by the [defendant]—whether
the response [to the conditions] was reasonable.” Id.
The plaintiffs contend that the Sheriff’s response
to the coronavirus outbreak at the Jail has not been
objectively reasonable or sufficiently protective of the
people in his custody, at least with respect to the issues
currently before the Court—social distancing, sanitation,
and identification and monitoring of highly vulnerable

95a
Appendix B
detainees. In evaluating the plaintiffs’ contentions,
the Court assesses objective reasonableness “from the
perspective of ‘a reasonable [official] on the scene,’ based
on what the [official] knew at the time.” Mays, 2020 U.S.
Dist. LEXIS 62326, 2020 WL 1812381, at *9 (quoting
Kingsley, 135 S. Ct. at 2473). The question, in the present
context, is whether the Sheriff “acted reasonably to
mitigate the risks to [the] health and safety of detainees.”
Id. (citing Hardeman, 933 F.3d at 825; Darnell v. Pineiro,
849 F.3d 17, 35 (2d Cir. 2017)). And in determining the
reasonableness of the Sheriff’s actions, the Court “must
account for his legitimate interest in managing the Jail
facilities,” and it must “defer to policies and practices that
‘are needed to preserve internal order and discipline and
to maintain institutional security.’” Id. (quoting Kingsley,
135 S. Ct. at 2473); see Bell, 441 U.S. at 547.
The fact of the matter is that the Sheriff’s actions
have not eliminated the risk to detained persons; far from
it. But this, too, is not dispositive. Although a jailer must
make a reasonable effort to abate conditions that pose
an excessive risk to the health or safety of the people in
his custody, the fact that he fails to prevent actual harm
does not mean that his response was unreasonable. See
Dale v. Poston, 548 F.3d 563, 569 (7th Cir. 2008) (applying
Eighth Amendment deliberate indifference standard).
More specifically, the Constitution does not require a
detention facility to provide “foolproof protection from
infection” by a communicable disease. Forbes v. Edgar, 112
F.3d 262, 266 (7th Cir. 1997) (applying Eighth Amendment
standard); see also Smith v. Sangamon Cty. Sheriff’s
Dep’t, 715 F.3d 188, 191 (7th Cir. 2013) (applying Eighth

96a
Appendix B
Amendment standard; “Prison and jail officials are not
required to guarantee [a] detainee’s safety.” (internal
quotation marks omitted)). That said, the ongoing risk to
detained persons at the Jail, confirmed by increases in the
number who have tested positive for coronavirus and the
death of six detained persons from coronavirus disease
as of April 23, is the backdrop against which the Court
must view the Sheriff’s conduct.
The Court beg ins w ith the question of social
distancing. As the plaintiffs see it, a policy that fails to
fully implement social distancing throughout the Jail—
which indisputably has not happened—cannot possibly
be considered an objectively reasonable response to the
coronavirus outbreak there. At least until full social
distancing is enforced, the plaintiffs contend, detained
persons face an unacceptably high risk of death or serious
harm to their health.
The Sher iff ’s position is likew ise simple and
straightforward. His implementation of a coronavirus
response plan at the Jail complies, he says, with the
CDC Guidelines, and for this reason his actions have
been objectively reasonable. The Guidelines, he points
out, do not require social distancing in correctional
facilities where it is not feasible given physical space,
population, and staffing. 8 The plaintiffs respond that the
8. Largely based on this aspect of the CDC Guidelines, the
Court, in deciding the TRO motion, declined to require the Sheriff
to enforce social distancing other than during the intake process,
one very obvious point at which social distancing was not taking
place. The TRO ruling, however, is neither final nor binding. The

97a
Appendix B
CDC Guidelines are not a surrogate for constitutional due
process requirements.
To support his position that compliance with the
CDC Guidelines should effectively be dispositive, the
Sheriff cites Carroll v. DeTella, 255 F.3d 470 (7th Cir.
2001). There the Seventh Circuit held that a convicted
prisoner could not show that prison officials had been
deliberately indifferent to his lack of access to safe
drinking water, because radium concentrations in the
prison’s drinking water were at a level that the U.S.
Environmental Protection Agency deemed at the time
to be safe. Id. at 472-73. The court noted that because
prisoners are not entitled to better quality of air, water,
or environment than the general public, prisons do not
have “a duty to take remedial measures against pollution
or other contamination that the agencies responsible for
the control of these hazards do not think require remedial
measures.” Id.
The Sheriff’s reliance on Carroll is unavailing. First
of all, the plaintiffs do not suggest any entitlement on
the part of pretrial detainees to conditions that exceed
health and safety standards applicable to the general
public. But that aside, the CDC Guidelines, unlike the
EPA standards relied upon in Carroll, do not say or
suggest that compliance makes detained people safe. This
is particularly so in view of the fact that the Guidelines
include feasibility qualifiers, particularly in relation to
Court has reassessed the matter with the benefit of more thorough
briefing and a more complete record.

98a
Appendix B
social distancing. See CDC Guidelines at 1, 3, 4, 11. Given
this limitation, the Guidelines are not the same as a safety
standard set by a regulatory agency.
For their part, the plaintiffs suggest that the CDC
Guidelines “shed no light” on whether the Sheriff’s
conduct has been objectively reasonable, in conformity
with constitutional requirements. Pls.’ Reply in Supp. of
Renewed Mot. for Prelim. Inj. (dkt. no. 64) at 10 (quoting
Thompson v. City of Chicago, 472 F.3d 444, 454 (7th
Cir. 1996)). The Court disagrees with this as well. The
plaintiffs rely to a significant extent on Thompson. There
the court, considering a claim of excessive force against
a police officer—a claim also determined by a standard
of objective reasonableness—stated that a policy on the
use of force established by the police department was
“completely immaterial [on] the question of whether a
violation of the federal constitution has been established.”
Id. at 454. But later, in United States v. Brown, 871 F.3d
532 (7th Cir. 2017), the Seventh Circuit clarified that
Thompson simply means that a police department’s
own policies do not establish the standard of what is
reasonable for purposes of the Constitution. See id. at 537
(“Despite its strong language, Thompson should not be
understood as establishing a rule that evidence of police
policy or procedure will never be relevant to the objectivereasonableness inquiry.”). The court explained in Brown
that, in the fact-intensive objective reasonableness
analysis, evidence of national or widely used police policies
could be relevant to helping a factfinder understand
how a reasonable officer might have behaved under the
circumstances that faced the defendant. Id. at 538. The

99a
Appendix B
court noted that the relevance of such policy evidence may
turn on the “factual complexity” of the circumstances
facing the defendant, and it may be less relevant in
circumstances in which a factfinder can rely on common
sense to determine the reasonableness of conduct. See id.
Here—unlike, perhaps, a relatively simple excessive
force claim against an arresting officer—the circumstances
facing the Sheriff in operating the Jail are quite complex.
In these circumstances, guidance from an expert body
like the CDC is beneficial in assessing the objective
reasonableness of the Sheriff’s conduct in the face of an
ongoing outbreak. Indeed, in Forbes, the Seventh Circuit
concluded that a prison’s response to a case of active
tuberculosis in its facility had been objectively reasonable
in part because it had implemented and effected the
recommendations of the CDC. Forbes, 112 F.3d at 267.
In sum, the CDC Guidelines are an important piece
of evidence to consider in assessing the Sheriff’s conduct,
but they cannot be appropriately viewed as dispositive
standing alone. Indeed, the CDC’s recommendations on
tuberculosis were not dispositive in Forbes; the court
also considered other facts—noting, for example, that
the prison had only one case of active tuberculosis, “a far
cry” from an outbreak. Id. As the Court has indicated,
one reason why the CDC Guidelines are not appropriately
viewed as dispositive of the plaintiffs’ due process claims
is the way in which they account for feasibility. Although
feasibility may be a consideration in determining objective
reasonableness, see Gayton v. McCoy, 593 F.3d 610, 622
(7th Cir. 2010) (decided under deliberate indifference

100a
Appendix B
standard), no case of which the Court is aware sets it as
a dispositive factor. That, however, is exactly what the
CDC Guidelines do, at least if read as the Sheriff suggests:
they set a feasibility or practicality limitation on social
distancing practices that they also call “a cornerstone
of reducing transmission of respiratory diseases such
as COVID-19.” CDC Guidelines at 4. One can certainly
understand why the CDC, a public health body, has
acknowledged these sorts of limits upon its ability to
prescribe guidelines for managing jails. But from a
constitutional-law standpoint, it is difficult to believe
that “do what you can, but if you can’t, so be it” 9 satisfies
a jailer’s constitutional obligation to take objectively
reasonable steps to mitigate known risks to the life and
health of people in his custody who are detained awaiting
determination of their guilt or innocence.
Currently the Sheriff is housing hundreds of detained
persons under conditions that make social distancing
completely impossible or nearly so, or at least very
difficult. Those for whom it is completely impossible are
the detainees who are double celled. Those for whom it is at
least very difficult and likely impossible are detainees who
are housed in dormitory units that are not operating at a
greatly reduced capacity. Specifically, a significant number
of the existing dormitory units are operating at or greater
than fifty percent capacity. Based on the record before the
Court, social distancing is practically impossible in such
units, and this cannot be completely attributed to detainee
9. The Court does not intend by this to suggest that this is the
attitude of the Sheriff, the Executive Director, or their staff. Here the
Court is characterizing a legal argument, not any person’s behavior.

101a
Appendix B
conduct or misconduct: if people are kept in groups in
relatively close quarters, it is entirely predictable that
they will have difficulty maintaining separation.
At the current stage of the pandemic, group housing
and double celling subject detainees to a heightened, and
potentially unreasonable and therefore constitutionally
unacceptable, risk of contracting and transmitting the
coronavirus. Such arrangements make it impossible
or unduly difficult to maintain social distancing, a
“cornerstone” of the reduction of coronavirus transmission
among detainees. The Court, however, must account for
and give deference to the Sheriff’s interest in managing
the Jail facilities and to practices that are needed to
preserve order and discipline and maintain security. See
Kingsley, 135 S. Ct. at 2473; Bell, 441 U.S. at 547. These
include documented considerations that make group
or double celling appropriate or necessary. Feasibility
limitations imposed by existing or otherwise available
physical facilities are also taken into account, though this
is not and cannot be a controlling factor. In this regard, it
is worth noting that despite general statements by both
sides to the contrary, it does not appear, based on the
evidence, that the Sheriff has yet hit the feasibility limit
on getting detainees out of group housing, even if one
considers only the Jail complex itself. See Apr. 23, 2020
Hearing Tr. at 57:2-19 (testimony by Executive Director
Miller referencing the possibility of further moves of
detained persons out of dormitories).
Based on the evidence submitted, the Court finds
that the plaintiffs are reasonably likely to succeed on

102a
Appendix B
their contention that group housing or double celling of
detained persons is objectively unreasonable given the
immediate and significant risk to their life and health
from transmission of coronavirus, except in the following
situations:
• Persons detained in tiers or dormitories currently under
quarantine following a positive test for the coronavirus
within the tier or dormitory, as this makes it inadvisable
to transfer them to other housing arrangements until
the quarantine period has expired (what the Sheriff
refers to as “quarantine tiers”).
• Detained persons who have tested positive for the
coronavirus and are under medical observation (what
the Sheriff refers to as “isolation tiers”), a housing
arrangement that the CDC Guidelines specifically
authorize.
• Detained persons who have tested positive for
coronavirus and are recovering (what the Sheriff refers
to as “convalescent tiers”), which the CDC Guidelines
likewise authorize.
• Double-celled or dormitory-housed detainees for whom
there is a documented determination by a medical or
mental health professional that single-celling poses a
risk of suicide or self-harm.
• Persons detained housed in a dormitory unit that is
at less than fifty percent capacity, which the record
reflects will permit adequate social distancing.

103a
Appendix B
• Detained persons committed, at the documented
direction of a medical or mental health professional,
to a group housing unit that is equipped for medical
or mental health treatment, if but only if there is not
available space in an appropriate housing or medical
unit that permits full social distancing.
Detained persons housed in any of the listed
“acceptable” arrangements will, however, need facemasks
that are replaced at appropriate intervals and must be
provided with instruction on how to use a facemask and
the reasons for its use. They also must be instructed, at
regular intervals, on the importance of social distancing.
The Court has omitted from the list above two
categories of detained persons referenced in Executive
Director Miller’s affidavits and testimony: persons put
into group housing or double celled because of conduct
issues (including those who Miller referred to during
his testimony as “our disorderly . . . population,” Apr.
23, 2020 Tr. at 52:6) or for reasons associated with the
PREA. On the record as it currently stands, the plaintiffs
have a reasonable likelihood of succeeding on a contention
that it is objectively unreasonable to effectively preclude
social distancing for such persons. With regard to PREA
detainees, the proposition that they cannot be single celled
is counterintuitive, to say the least.10 And with regard to
individuals with conduct issues, without more the Court
cannot say that there is an objectively reasonable basis
10. This is so whether these persons are alleged perpetrators
or likely victims, which is not clear from the record.

104a
Appendix B
to hold them in a setting that does not permit adequate
social distancing. With regard to detained persons in these
categories, the Court is willing to entertain a properlysupported request by the Sheriff to include them in the
category of persons who may be appropriately detained
in group housing, perhaps with appropriate distancing.
Beyond what the Court has described, the plaintiffs
have not established a reasonable likelihood of success
on their due process claims. Specifically, the Court is not
prepared to say that it is constitutionally inappropriate,
in light of the coronavirus pandemic, to detain persons in
the Jail in any form of group housing or to detain them
in single cells given the likelihood of multiple uses of
common facilities and areas. This would be tantamount to
saying that, in the present circumstances, the Constitution
prohibits detaining people in jails. The plaintiffs have not
established, and are not likely to be able to establish, that
this is so.
Next, the Court addresses the plaintiffs’ contentions
regarding advance identification of detained persons
who are especially vulnerable to severe illness or death
if they contract the coronavirus. The Court remains
unpersuaded that the plaintiffs have a reasonable
likelihood of showing that this is objectively unreasonable
and thus violative of those class members’ constitutional
rights. The plaintiffs’ experts opined that screening is
important so that vulnerable individuals can be monitored
for symptoms. Miller explained, however, that any person
with symptoms consistent with coronavirus disease is
already provided immediate screening and treatment,

105a
Appendix B
and medical professionals treating such a person will have
immediate access to his or her medical records (which
include an inventory of medical conditions reported by the
detained person upon intake or thereafter). Though, as the
Court stated in its TRO decision, advance identification
of persons with heightened vulnerability would appear
to be a good practice and perhaps a best practice, the
plaintiffs have not shown that failing to do so is, under
the circumstances, objectively unreasonable.
Finally, the Court addresses the plaintiffs’ request
for extension of the TRO. The TRO required the Sheriff
to establish and implement a policy regarding coronavirus
testing; provide cleaning supplies to detainees and staff
and soap and/or hand sanitizer to detained persons;
establish and implement a policy regarding sanitization
of frequently touched surfaces; and provide facemasks
to all detained persons who are quarantined. Mays, 2020
U.S. Dist. LEXIS 62326, 2020 WL 1812381, at *14-15. The
plaintiffs ask the Court to convert these requirements
into a preliminary injunction. The Sheriff argues that the
Court need not extend or convert the TRO because he has
complied with it and continues to do so.
A court “retains the power to grant injunctive relief”
even after the defendant ceases the allegedly unlawful
conduct. Milwaukee Police Ass’n v. Jones, 192 F.3d 742,
748 (7th Cir. 1999); see also United Air Lines, Inc. v.
Air Line Pilots Ass’n, Int’l, 563 F.3d 257, 275 (7th Cir.
2009). The moving party must show that such relief still
is required. Milwaukee Police Ass’n, 192 F.3d at 748.
“The necessary determination is that there exists some

106a
Appendix B
cognizable danger of recurrent violation, something more
than the mere possibility which serves to keep the case
alive.” Id. (quoting United States v. W. T. Grant Co., 345
U.S. 629, 633, 73 S. Ct. 894, 97 L. Ed. 1303 (1953)); see also
United Air Lines, Inc., 563 F.3d at 275 (“The court may
consider how easily former practices might be resumed at
any time in determining the appropriateness of injunctive
relief.”). Where the cessation of an allegedly wrongful
activity occurred “only after a lawsuit has been filed,”
a district court is “within its discretion” to find that the
cessation was “not voluntary, and that even a voluntary
cessation is not determinative.” Id.
Although the Sheriff appears to have complied with
the TRO, the Court cannot say that the constitutional
violations the Court sought to address will not recur
absent an extension of the TRO’s requirements. The
Sheriff’s actions to develop policies on sanitation and
coronavirus testing, distribute soap and cleaning supplies,
and distribute facemasks to detained persons who are
quarantined—at least those done after the April 9
TRO—cannot be said to have been undertaken entirely
voluntarily. Rather, they were done in response to the
TRO, and there is at least some evidence of problems in
carrying out the TRO’s directives. In addition, without
a court order, there is at least a possibility that these
important measures could slip to the wayside, despite
the Sheriff’s best intentions, as he works to manage the
complexities of the Jail during this public health crisis. For
these reasons, the Court concludes that it is appropriate
to convert the TRO to a preliminary injunction.

107a
Appendix B
3.

Transfer

The plaintiffs next request the transfer of members
of subclass B out of the Jail “to another safe location in
the Sheriff’s custody.” Pls.’ Reply in Supp. of Renewed
Mot. for Prelim. Inj. (dkt. no. 64) at 2. Until recently, they
primarily suggested that such a location could include
“home confinement or electronic home monitoring.” Pls.’
Resp. to April 3, 2020 Ord. (dkt. no. 26-1) at 17; see also
Pls.’ Renewed Mot. for Prelim. Inj. (dkt. no. 55) at 16-17
(requesting transfer without specifying the location to
which detained people should be transferred). But in their
most recent reply brief, they suggest that this also could
include transfer to “another correctional space, a hospital
or medical facility, a clinic, [or] administrative furlough.”
Pls.’ Reply in Supp. of Renewed Mot. for Prelim. Inj.
(dkt. no. 64) at 29. The Sheriff contends that, under the
PLRA, only a three-judge court may order such transfers
and that, regardless, he lacks the authority to transfer
detainees to electronic home monitoring. The Court starts
with the threshold issue: whether this Court may, on its
own, order the transfer of detained persons as proposed
by the plaintiffs.
As indicated, under the PLRA, “[i]n any civil action
in Federal court with respect to prison conditions, a
prisoner release order shall be entered only by a threejudge court.” 18 U.S.C.§ 3626(a)(3)(B). The PLRA defines
“prisoner release order” as “any order, including a
temporary restraining order or preliminary injunctive
relief, that has the purpose or effect of reducing or limiting
the prison population, or that directs the release from or

108a
Appendix B
nonadmission of prisoners to a prison.” 18 U.S.C. § 3626(g)
(4). It defines “prison” as “any Federal, State, or local
facility that incarcerates or detains juveniles or adults
accused of, convicted of, sentenced for, or adjudicated
delinquent for, violations of criminal law.” Id. § 3626(g)
(5). This definition plainly includes the Jail.
The plaintiffs contend that the transfer of detained
persons that they seek would not be a prisoner release
order because it would simply involve moving them from
one place under the Sheriff’s control to another place
under his control. That misses the mark. Transfers to
home confinement, administrative furlough, or electronic
home monitoring in particular—which, at least up until
they filed their reply brief, are the primary forms of
transfer the plaintiffs have requested—would constitute
prisoner release orders because they would have “the
purpose or effect of reducing [the] population” of the
Jail. Id. § 3626(g)(4); Money, 2020 U.S. Dist. LEXIS
63599, 2020 WL 1820660, at *12 (transfers of prisoners to
temporary medical furlough or home detention within the
state’s custody would constitute prisoner release orders
because “the PLRA does not focus on custodial status
under state law, nor does it say anything about whether
the reduction of population is temporary or permanent.”).
Population reduction is the “whole point” of the transfers
the plaintiffs seek—they propose to prevent or curb
the spread of coronavirus to detained persons, and in
particular those who are vulnerable, by reducing the Jail’s
population. See 2020 U.S. Dist. LEXIS 63599, [WL] at *13.
The transfers sought by the plaintiffs would constitute
prisoner release orders for an additional reason: they

109a
Appendix B
would direct the release of detained persons out of the Jail.
See 18 U.S.C. § 3626(g)(4). The plaintiffs contend that, for
people confined at home at the direction of a state authority,
a home may amount to a prison within the meaning of the
PLRA. To be sure, the list of institutions that qualify as
prisons under the PLRA is not limited to those specified
in the statute. Witzke v. Femal, 376 F.3d 744, 753 (7th
Cir. 2004) (confinement in a drug rehabilitation halfway
house qualified as confinement in a correctional facility
under the PLRA). But, as defined by the PLRA, a prison
is a facility. Id. § 3626(g)(5). The common definition of a
facility is “a building or establishment that [provides a
service or feature of a specified kind].”11 That does not
appear to cover a person’s home; a home, even one in which
a person is residing subject to a court or law enforcement
authority’s order, is not a place that provides specified
services or features.12 It is hard to see the PLRA’s
definition of “prison” stretching that far. In addition, even
if home confinement and/or electronic home monitoring
constitutes imprisonment under state law (an issue the
Court need not decide), an order mandating the transfer
of prisoners out of the Jail to confinement in their homes
likely would constitute a prisoner release order because it
would “direct[] the release [of prisoners] from . . . a prison”
to another place of confinement, 18 U.S.C. § 3626(g)(4).
11. Facility, Oxford English Dictionary Online, https://www.
oed.com/view/Entry/67465?redirectedFrom=facility& (last visited
April 26, 2020).
12. Home, Oxford English Dictionary Online, https://www.oed.
com/view/Entry/87869?rskey=8yYRsS&result=1&isAdvanced=fal
se (last visited April 26, 2020).

110a
Appendix B
The plaintiffs, however, appear to take the position
even if prisoner transfers have the effect of reducing
the prison population, a single-judge court may order
them where the basis for the order is not crowding or
overcrowding. They may be correct. One of the PLRA’s
requirements for the entry of a prisoner release order by
a three-judge panel is that “crowding is the primary cause
of the violation of a Federal right.” 18 U.S.C. § 3626(a)
(3)(E)(i). Some courts have concluded that single-judge
courts can order the transfers of prisoners, at least to
other facilities, where the purpose of the transfer involves
the prisoners’ medical needs or vulnerabilities. See Plata
v. Brown, No. C01-1351 TEH, 427 F. Supp. 3d 1211, 2013
U.S. Dist. LEXIS 90669, 2013 WL 12436093, at *9-10, 15
(N.D. Cal. June 24, 2013) (ordering the transfer to other
institutions of certain medically high-risk categories of
prisoners out of two prisons where they were at risk of
contracting Valley Fever, a disease not spread through
human-to-human contact); Reaves v. Dep’t of Correction,
404 F. Supp. 3d 520, 523-24 (D. Mass. 2019) (denying a stay
pending appeal and explaining why the PLRA permitted
the court to order the transfer of a quadriplegic prisoner
to a medical facility equipped to care for him in Reaves v.
Dep’t of Correction, 392 F. Supp. 3d 195 (D. Mass. 2019),
appeal docketed, No. 19-2089 (1st Cir. Nov. 4, 2019)); see
also Money, 2020 U.S. Dist. LEXIS 63599, 2020 WL
1820660, at *12 n.11 (suggesting that a single-judge
courts can order prisoner transfers for reasons other
than crowding). This conclusion seems correct: because
three-judge courts can order prisoner releases only where
crowding is the primary cause of the violation of a federal
right, 18 U.S.C. § 3626(a)(3)(E)(i), to ensure the vindication

111a
Appendix B
of people in custody’s constitutional rights, the PLRA must
be read to permit courts to order transfers where some
other condition causes the violation of a constitutional
right. See Plata, 2013 U.S. Dist. LEXIS 90669, 2013 WL
12436093, at *9-10.
But a single judge’s ability to order a prisoner transfer
for reasons other than crowding makes no difference in
this case: the primary basis for the transfers the plaintiffs
request is to reduce crowding in the Jail. See Money,
2020 U.S. Dist. LEXIS 63599, 2020 WL 1820660, at *13
(plaintiffs’ suggestion that they did not seek a remedy
for overcrowding “contradict[ed] the allegations of their
complaint and their entire theory of the case”). To put it
in simple terms, one of plaintiffs’ core contentions is that
their constitutional rights are being violated because
social distancing, which they contend is crucial to protect
their health, has not been or cannot be accomplished at
the Jail. Social distancing is essentially the converse
of overcrowding. Thus it is apparent that the plaintiffs’
request for prisoner transfers or releases is based on
overcrowding.
To be more specific, one of the central allegations in
the complaint is that the crowded conditions in the Jail
“ensure the continued[,] rapid, uncontrolled spread of
COVID-19 within the Jail and beyond—because the Jail is
not and cannot be isolated from the larger community” and
“because the Jail is a crowded, congregate environment.”
Compl. (dkt. no. 1) ¶ 2; see also, e.g., id. at ¶¶ 20, 25-26, 3035, 37-41, 46, 51. The plaintiffs hinge their legal arguments
on the contention that “without a reduction of the Jail’s

112a
Appendix B
population, the lives and safety of the persons confined
there cannot be reasonably protected” because “social
distancing is not possible with the current jail population.”
Pls.’ Reply in Supp. of Renewed Mot. for Prelim. Inj. (dkt.
no. 64) at 1; see also, e.g., Pls.’ Renewed Mot. for Prelim. Inj.
(dkt. no. 55) at 1 (“The virus is spreading rapidly in the jail
. . ., and that is not surprising: People are sleeping within
three feet of each other, eating and using showers in close
proximity to each other, and touching the same surfaces.”).
They contend that the imperative of social distancing is
an undisputed “medical necessity” and that “[a]ll of the
evidence in this record supports that proposition.” Pls.’
Reply in Supp. of Renewed Mot. for Prelim. Inj. (dkt. no.
64) at 3. As indicated, they cite evidence from a range
of sources—including the CDC, the governor of Illinois,
the City of Chicago, and medical and epidemiological
experts—reflecting that social distancing is among the
most effective and important interventions to reduce the
spread of coronavirus and protect public health right now.
Id. at 3-5; see also, e.g., Pls.’ Renewed Mot. for Prelim. Inj.
(dkt. no. 55) at 4-8. And, crucially, they contend that social
distancing at the jail is impossible because of its current
population levels. Id. at 10 (“[I]f the current population of
a jail unavoidably creates intolerable risk to life and health
then the current population must change.”); see also id. at
10-13; Pls.’ Reply in Supp. of Renewed Mot. for Prelim. Inj.
(dkt. no. 64) at 6-8. In short, the plaintiffs are requesting
transfers because social distancing is impossible; with
that in mind, it is incongruous to contend that crowding
is not the basis or primary basis for seeking compelled
transfers. See Money, 2020 U.S. Dist. LEXIS 63599, 2020
WL 1820660, at *13.

113a
Appendix B
Citing United States v. Cook County, 761 F. Supp. 2d
794 (N.D. Ill. 2000), the plaintiffs contend that the PLRA
applies only to prisoner release orders that are “explicitly
related to population caps,” not to all such orders stemming
primarily from crowding. Pls.’ Reply in Supp. of Renewed
Mot. for Prelim. Inj. (dkt. no. 64) at 32 (citing id. at 79697). That interpretation stretches the statute’s language
too far. Even if “[s]ponsors of the PLRA were especially
concerned with courts setting ‘population caps,’” Plata,
2013 U.S. Dist. LEXIS 90669, 2013 WL 12436093, at *10
(quoting Gilmore v. California, 220 F.3d 987, 998 n. 14 (9th
Cir. 2000)), the PLRA’s text does not limit prisoner release
orders issued by three-judge courts to only orders that
set population caps, see 18 U.S.C. § 3626(a)(3)(E). United
States v. Cook County does not suggest otherwise. The
three-judge court in that case found “that overcrowding
[was] a primary cause of unconstitutional conditions at the
jail” because it caused, among other things, “excessive
force by guards, grossly unsanitary and unhealthy
conditions, and grossly inadequate medical (including
mental-health) care.” Cook County, 761 F. Supp. 2d at 797.
Although these conditions might have existed even without
overcrowding, overcrowding made them worse. Id. at
797-98. Thus the purpose of the prisoner release order in
Cook County was not merely to set prison caps but, rather,
to address constitutional violations caused primarily by
overcrowding. See id. The same is true in this case: the
severe medical risks posed by coronavirus would exist
even if the Jail was not crowded, but the plaintiffs contend
the crowding at the Jail significantly enhances those risks
and makes the outbreak more challenging to control. The
purpose of a transfer order would be to address alleged

114a
Appendix B
constitutional violations stemming from coronavirus due
to crowding in the Jail, and that is the type of order than
only a three-judge court may issue.
4.

Three-judge court

The plaintiffs also have asked the Court to convene a
three-judge court “to consider whether and to what extent
to enter a prisoner release order.” Pls.’ Reply in Supp. of
Renewed Mot. for Prelim. Inj. (dkt. no. 64) at 2. Under the
PLRA, “[i]n any civil action in Federal court with respect
to prison conditions, a prisoner release order shall be
entered only by a three-judge court.” 18 U.S.C.§ 3626(a)
(3)(B). The Sheriff contends that the requirements for
convening a three-judge court have not been met.
The PLRA provides that no court may enter a prisoner
release order unless two requirements are met. 18 U.S.C.
§ 3626(a)(3)(A). First, a court must have “previously
entered an order for less intrusive relief that has failed to
remedy the deprivation of the Federal right sought to be
remedied through the prisoner release order.” Id. § 3626(a)
(3)(A)(i) (the “previous order requirement”). In addition,
the defendant must have “had a reasonable amount of time
to comply with the previous court orders.” Id. § 3636(a)(3)
(A)(ii) (the “reasonable time requirement”).
Together, these requirements ensure that a threejudge court’s prisoner release order is a “last resort
remedy.” Brown, 563 U.S. at 514. A party requesting a
prisoner release order and the convening of a three-judge
court must file “materials sufficient to demonstrate” that

115a
Appendix B
both requirements have been met. Id. § 3636(a)(3)(C). A
federal judge can also request sua sponte the convening
of a three-judge court if both requirements are met. Id.
§ 3626(a)(3)(D). The judge need not consider the likelihood
of whether a three-judge court would issue a prisoner
release order. See Plata v. Schwarzenegger, No. C01-1351TEH, 2007 U.S. Dist. LEXIS 56031, 2007 WL 2122657,
at *1 (N.D. Cal. July 23, 2007).
a.

Previous order requirement

The Court starts with the previous order requirement.
It previously entered an order for less intrusive relief by
issuing the TRO. Mays, 2020 U.S. Dist. LEXIS 62326,
2020 WL 1812381, at *14-16. The Sheriff contends that
the TRO does not satisfy the PLRA’s previous order
requirement because it did not include an order requiring
social distancing. In the TRO decision, the Court found
that the plaintiffs had failed “to show a reasonable
likelihood of success on their contention that the Sheriff
is acting in an objectively unreasonable manner by failing
to mandate full social distancing.” 2020 U.S. Dist. LEXIS
62326, [WL] at *10. The Court declined to order relief
with respect to social distancing throughout the Jail
but required the Sheriff to enforce social distancing in
connection with the new detainee intake process. 2020
U.S. Dist. LEXIS 62326, [WL] at *14.
The previous order requirement is “satisfied if the
court has entered one order [that] ‘failed to remedy’ the
constitutional violation.” Brown v. Plata, 563 U.S. at 514.
Neither the statute nor the relevant case law suggests that

116a
Appendix B
a court must attempt all possible steps short of release
before requesting the convening of a three-judge court.
See 18 U.S.C. § 3626; Brown, 563 U.S. at 514-16. And
the PLRA does not require a previous order involving a
particular type of remedy; instead, it simply requires a
previous order that attempted but failed to remedy the
constitutional deprivation itself. See id. In Brown, the
Supreme Court affirmed an order of a three-judge court
mandating a population limit for California’s prison system
as a remedy for constitutional violations in two class
actions, one involving a class of prisoners with serious
mental disorders and the other involving prisoners with
serious medical conditions. Id. at 499, 502. The Court found
that district courts “acted reasonably when they convened
a three-judge court,” despite recent, ongoing plans to
address the at-issue constitutional violations, because they
“had a solid basis to doubt” that the “additional efforts . . .
would achieve a remedy.” Id. at 516.
In the TRO, the Court ordered relief less intrusive
than a prisoner release order. Specifically, it required
the Sheriff to establish and implement policies regarding
coronavirus testing and sanitation in the Jail, implement
social distancing during the new detainee intake process,
provide adequate soap and/or hand sanitizer and sanitation
supplies, and provide facemasks to all detained persons
who are quarantined. Mays, 2020 U.S. Dist. LEXIS 62326,
2020 WL 1812381, at *14-15. Because the TRO has not
remedied the overall claimed constitutional violation—
deficient conditions in the Jail during a pandemic—it
satisfied the PLRA’s previous order requirement.

117a
Appendix B
b.

Reasonable time requirement

Additionally, before a three-judge court is convened
under the PLRA, the defendant must have “had a
reasonable amount of time to comply with the previous
court orders,” as indicated. Id. § 3626(a)(3)(A)(ii). This
provision “requires that the defendant have been given a
reasonable time to comply with all of the court’s orders.”
Brown, 563 U.S. at 514 (emphasis added). In some
situations, a court may need “to issue multiple orders
directing and adjusting ongoing remedial efforts” while it
“attempts to remedy an entrenched constitutional violation
through reform of a complex institution.” Id. at 516. “Each
new order must be given a reasonable time to succeed,
[and] reasonableness must be assessed in light of the entire
history of the court’s remedial efforts.” Id. But a court
may request the convening of a three-judge court even
while its remedial efforts are ongoing; otherwise, a court
unreasonably would have “to impose a moratorium on new
remedial orders” before a three-judge court considers the
issuance of a prisoner release. Id.
In Brown, the Supreme Court found that defendants
in the two consolidated cases had reasonable time to
comply with court orders where one court had “engaged
in remedial efforts” for five years and the other court
had done so for twelve years. Id. Remedial efforts were
ongoing when the district courts requested three-judge
courts, but those ongoing efforts merely attempted “to
solve the crisis” through the same “basic plan[s]” as
earlier efforts. Id. at 515. In one case, a special master
the district court appointed to oversee remedial matters

118a
Appendix B
had issued over seventy remedial orders. Id. The courts
had no “assurance[s] that further, substantially similar
efforts would yield success absent a population reduction.”
Id. Indeed, advances that had been made in one case
were “‘slip-sliding away’ as a result of overcrowding.” Id.
(quoting court-appointed special master).
The plaintiffs contend that the Sheriff has had a
reasonable time to comply with the Court’s previous
order. They have requested a preliminary injunction
ordering social distancing, but, in light of the urgency of
the situation, they also have requested the convening of
a three-judge court to consider the question of prisoner
release. The plaintiffs appear to contend that if an
injunction directing social distancing does not remedy the
alleged constitutional violations, then only the immediate
release of prisoners by a three-judge court will achieve a
remedy, so a three-judge court needs to be ready to issue
a ruling as soon as that time comes. The Sheriff contends
that he has not reasonably had time to comply with any
such order because the Court has not directed him to
implement social distancing throughout the Jail.
The Court recognizes that determination of what
amounts to a “reasonable time” to comply with a court’s
previous orders may depend on the circumstances, and
here the circumstances are extraordinary, involving an
infectious virus that can be transmitted quickly from
person to person. So here, perhaps, a “reasonable time”
may amount to days or a small number of weeks, not
years as may be the case in other situations. Undue delays
in responding to the coronavirus pandemic may place
detained persons’ health and lives in imminent danger.

119a
Appendix B
Unlike in Brown, however, the ongoing remedial
efforts in this case might remedy the ongoing constitutional
violation—which, to be clear, involves the objective
reasonableness of the Sheriff’s response to the coronavirus
outbreak, not existence of coronavirus itself—if given
adequate time. The Sheriff has offered evidence that
may be understood to suggest that he is making a
substantial effort to comply with the Court’s order and
attempt to improve the conditions of confinement at the
Jail in response to the coronavirus pandemic. As detailed
earlier in this opinion, he has complied with the TRO
by implementing social distancing at intake; developing
and implementing a plan to distribute soap, sanitizer,
and cleaning suppliers more frequently; and providing
facemasks to detained persons housed on tiers under
quarantine. In addition, he has made efforts to spread
out detainees within the Jail, even though the TRO did
not mandate it. As detailed earlier, he has opened up
previously closed units, doubled the number of persons
housed in single-occupancy cells, attempted to ensure that
detained persons are assigned beds in dorm units that
are spaced more than six feet apart, and adopted various
practices to encourage detained persons to practice social
distancing in dorms and in common areas. As the Court
has explained, it believes that the narrowly tailored relief
it is ordering via this opinion appropriately addressed the
claimed constitutional violations on which the plaintiffs
have shown a likelihood of success. Unlike in Brown, the
additional relief ordered in this decision is not based on
the same “basic plan” as earlier efforts but rather takes a
different and focused approach. Brown, 563 U.S. at 515. In
short, it will require preventative public health measures

120a
Appendix B
that the Court has not previously ordered and that the
Sheriff has not shown he has implemented.
Further, although the PLRA’s previous order
requirement refers to a single order, its reasonable
time requirement uses the plural “orders.” Compare 18
U.S.C. § 3626(a)(3)(A)(i) with id. § 3626(a)(3)(A)(ii); see
also Brown, 563 U.S. at 514. Nothing in the statute or
the relevant case law indicates that a court must convene
a three-judge panel after issuing only one order. Rather,
the case law reflects that a court can, and perhaps in some
circumstances should, make additional efforts beyond
a single TRO before convening a three-judge court to
consider ordering the release of imprisoned or detained
persons. See id. (releasing prisoners is a “last resort
remedy”). This seems particularly true where, as here,
a Court has a basis on which to issue an additional order
that is not “substantially similar” to its previous order
and thus can attempt a new approach to remedying the
constitutional violation that might “yield success.” Cf.
Brown, 563 U.S. at 515.
For these reasons, the Court is not persuaded that
it has given its less-intrusive orders “a reasonable time
to succeed,” Brown, 563 U.S. at 516; that the Sheriff has
“reasonable amount of time to comply” with those orders,
18 U.S.C. § 3626(a)(3)(A)(ii); or that the Sheriff could have
reasonable time to comply in light of the further efforts
the Court is taking in this order to remedy the claimed
constitutional violations. The Court concludes that the
PLRA’s reasonable time prerequisite for the convening
of a three-judge court has not yet been satisfied.

121a
Appendix B
For these reasons, the Court declines to request the
convening of a three-judge court.13
5.

Irreparable harm

In addition to showing a likelihood of success on
the merits, the plaintiffs must show that they will likely
suffer irreparable harm without a preliminary injunction.
Whitaker, 858 F.3d at 1044. Irreparable harm is “harm
that cannot be repaired and for which money compensation
is inadequate.” Orr v. Shicker, 953 F.3d 490, 502 (7th Cir.
2020) (internal quotation marks omitted). The plaintiffs
must show more than a “mere possibility” of harm
but not that harm has already occurred or is certain
to occur. Whitaker, 858 F.3d at 1045. “[A] remedy for
unsafe conditions need not await a tragic event.” Helling
v. McKinney, 509 U.S. 25, 33, 113 S. Ct. 2475, 125 L. Ed.
2d 22 (1993).
The plaintiffs have satisfied this requirement.
They have shown a likelihood that, without additional
measures to expand and enforce social distancing and the
continuation of measures aimed at enhancing sanitation
of surfaces within the Jail and otherwise curbing the
spread of coronavirus among detained persons, some of
the class members will contract the virus. If they contract
coronavirus, class members—particularly those over
the age of sixty-five or with certain preexisting health
13. As the Court has previously advised the parties, however,
immediately after the issuance of the TRO, the Court advised the
chief circuit judge of the pendency of the case and the potential need,
at some point, to convene a three-judge court.

122a
Appendix B
conditions—risk severe health consequences, including
death. These grave risks to health are not an insignificant
possibility for the class members, all of whom are live in
the Jail’s congregate environment, where the coronavirus
has been spreading for weeks and where detained
persons—even those who sleep their own cells—share
spaces like common areas and showers. Therefore, the
plaintiffs have adequately shown a likelihood that they will
suffer irreparable harm without a preliminary injunction.
6.

No adequate remedy at law

The plaintiffs also must show that they have no
adequate remedy at law should the preliminary injunction
not issue. Whitaker, 858 F.3d at 1046. They are not
required to show that a remedy is “wholly ineffectual”
but rather “that any award would be seriously deficient
as compared to the harm suffered.” Id. Where harm
cannot be practicably remedied by monetary damages,
there is no adequate legal remedy. See id.; Foodcomm
Int’l v. Barry, 328 F.3d 300, 304 (7th Cir. 2003); see also
W.S.R. v. Sessions, 318 F. Supp. 3d 1116, 1126-27 (N.D. Ill.
2018) (no adequate remedy of law to address harm from
prolonging child’s separation from parent). The plaintiffs
have clearly shown that the risk of harm to their health
and possibly their lives cannot be fully remedied through
damages, and therefore they have shown that they have
no adequate remedy at law.
7.

Balancing of harms

“Once a mov ing par ty has met its burden of
establishing the threshold requirements for a preliminary

123a
Appendix B
injunction, the court must balance the harms faced by both
parties and the public as a whole.” Whitaker, 858 F.3d at
1054. The nature of the balancing analysis depends on
the moving party’s likelihood of success: the higher the
likelihood, the more the balance tips in favor of granting
injunctive relief. Id. Before issuing an injunction ordering
a defendant to perform an affirmative act, which can
impose “significant burdens on the defendant,” a court
must give “careful consideration [to] the intrusiveness
of the ordered act, as well as the difficulties that may
be encountered in supervising the enjoined party’s
compliance with the court’s order.” Kartman, 634 F.3d at
892 (discussing certification of a class seeking mandatory
injunctive relief).
The Sheriff argues that the balance of harms weighs
against issuing a preliminary injunction because he is
doing the best he can to contain the spread of coronavirus
at the Jail, including, he contends, following the CDC
Guidelines to the greatest extent possible. He argues
that an order requiring him to implement more health
and protective measures would be disruptive to his
ongoing and persistent efforts to protect detainees from
coronavirus. He also argues that the Court should defer
to his expertise and judgment regarding the best policies
and practices to implement at the Jail, particularly
in light of the fundamental need for him to maintain
internal security and order. See Bell, 441 U.S. at 54748. The plaintiffs contend that the risk of severe health
consequences or death to the class members is so grave
that it tips the balance of harms in favor of granting a
preliminary injunction. Additionally, the plaintiffs argue

124a
Appendix B
the public’s interest in containing outbreaks of coronavirus
favors granting injunctive relief.
The Court concludes that the balance favors granting
preliminary injunctive relief to the plaintiffs to the limited
extent contemplated by this order. First, as detailed above,
the plaintiffs have presented ample evidence of conditions
that pose an unreasonable risk of serious harm to the class
members’ health and, despite the laudable strides the
Sheriff has made since the Court issued the TRO, at least
some shortcomings in the Sheriff’s mitigation of that risk.
This evidence tips the balance in favor of injunctive relief
because, as the Court has explained, the plaintiffs have far
surpassed their burden of demonstrating a “better than
negligible” likelihood of success on the merits. Whitaker,
858 F.3d at 1046 (quoting Cooper v. Salazar, 196 F.3d 809,
813 (7th Cir. 1999)). The interest of the public in containing
the spread of coronavirus further tips the balance in favor
of injunctive relief.
As it did in issuing the TRO, the Court acknowledges
the deference owed to the Sheriff in the operation of the
Jail and in his development of internal procedures to
maintain safety, order, and security and to response to
this severe crisis. The Court recognizes the immense
amount of time and work that the Sheriff and his staff have
spent trying to respond to this crisis. The Court further
recognizes that compliance with judicial orders impose
burdens on the Sheriff and his staff, in no small part by
requiring them to devote some of their limited time and
resources to following a court’s directives.

125a
Appendix B
The Court has taken these considerations into account
in ordering the limited relief described in this order. It
has ensured that the relief is narrowly drawn, extends no
further than necessary, and is the least intrusive means
necessary to address the shortcomings discussed earlier
in this opinion. The Court has tailored the relief to account
for deference to the Jail’s ongoing planning and efforts
to address the risks associated with the coronavirus
outbreak. The Court also has, as indicated earlier, taken
into account the enhanced requirements for issuing what
it has referred to as a “mandatory injunction.” And the
Court has concluded that it will not encounter significant
obstacles in supervising the order despite its mandatory
nature. Despite these considerations, the risk to the health
and safety of detainees and others is sufficient to permit
and require preliminary injunctive relief.
C. Preliminary injunctive relief
For the reasons stated above, the plaintiffs have met
the criteria for a preliminary restraining order with
regard to at least parts of Count 1 of their complaint.
The Court orders as follows and will also include this
in a separate preliminary injunction order issued under
Federal Rule of Civil Procedure 65(d).
• The Sheriff shall maintain and carry out a policy
requiring prompt coronavirus testing of: (1)
detained persons who exhibit symptoms consistent
with coronavirus disease, and (2) at medically
appropriate times, detained persons who have
been exposed to others who have exhibited those

126a
Appendix B
symptoms or have tested positive for coronavirus.
With regard to the category (2), the Sheriff must
acquire and maintain sufficient testing materials so
that determination of the appropriateness of testing
such persons is made pursuant to medical and public
health considerations and not the availability of
testing materials.
• The Sheriff shall enforce social distancing during
the new detainee intake process, including
continued suspension of the use of bullpens and
other multiple-person cells or enclosures to hold
new detainees awaiting intake.
• The Sheriff shall provide soap and/or hand sanitizer
to all detainees in quantities sufficient to permit
them to frequently clean their hands.
• The Sheriff shall provide sanitation supplies
sufficient and adequate to enable all staff and
detainees to regularly sanitize surfaces and objects
on which the virus could be present, including in
all areas occupied or frequented by more than
one person (such as two-person cells, as well as
bathrooms, showers, and other surfaces in common
areas). The Sheriff shall also maintain and carry
out a policy requiring sanitization between all uses
of frequently touched surfaces and objects as well
as monitoring and supervision to ensure that such
sanitization takes place regularly.

127a
Appendix B
• The Sheriff shall provide facemasks to all detained
persons who are quarantined—i.e., those who
have been exposed to a detained person who is
symptomatic (even if not coronavirus-positive).
The facemasks must be replaced at medically
appropriate intervals, and the Sheriff must provide
the users with instruction on how to use a facemask
and the reasons for its use.
• The Sheriff shall establish by no later than April
29, 2020 and shall put into effect by no later than
May 1, 2020 a policy precluding group housing or
double celling of detained persons, except in the
following situations:
○ Persons detained in tiers or dormitories currently
under quarantine following a positive test for
the coronavirus within the tier or dormitory
(“quarantine tiers”);
○ Detained persons who have tested positive for the
coronavirus and are under medical observation
(“isolation tiers”);
○ Detained persons who have tested positive for
coronavirus and are recovering (“convalescent
tiers”);
○ Double-celled or dormitory-housed detainees for
whom there is a documented determination by a
medical or mental health professional that singlecelling poses a risk of suicide or self-harm;

128a
Appendix B
○ Persons detained housed in a dormitory unit that
is at less than fifty percent capacity; and
○ Detained persons committed, at the documented
d i rect ion of a med ica l or ment a l hea lth
professional, to a group housing unit that is
equipped for medical or mental health treatment,
if but only if there is not available space in an
appropriate housing or medical unit that permits
full social distancing.
• Detained persons housed in any of the listed
“acceptable” arrangements must be provided
with facemasks that are replaced at medically
appropriate intervals. The detained persons
must be provided with instruction on how to use
a facemask and the reasons for its use. They also
must be instructed, at regular intervals, on the
importance of social distancing.
• On May 1, 2020, the Sheriff shall file a report
regarding his compliance with the terms of the
preliminary injunction.
Finally, the Court will entertain submissions by
the parties regarding the duration of the preliminary
injunction, in particular the social distancing provisions.
Typically, a preliminary injunction lasts until the trial
on the merits, but the order the Court is entering is
predicated on an underlying condition—the ongoing
pandemic—that, one can hope, will not last indefinitely.
Under ordinar y circumstances, there is nothing

129a
Appendix B
constitutionally inappropriate about housing detained
persons in groups and allowing them to come into contact
with each other. Currently we are not living in ordinary
circumstances—hence the preliminary injunction—but
once matters return to something approaching normal,
it may be appropriate to loosen the requirements of the
injunction. The Court (either the emergency judge or the
assigned judge) will address this with the parties at a
future date.
Conclusion
The Court grants the plaintiffs’ motion for preliminary
injunction in part and denies it in part as set out in this
Memorandum Opinion and Order [dkt. no. 55].
Date: April 27, 2020
/s/ Matthew F. Kennelly
MATTHEW F. KENNELLY
United States District Judge

130a
C
APPENDIX C — Appendix
MEMORANDUM
OPINION
AND ORDER OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF ILLINOIS, EASTERN DIVISION,
DATED APRIL 9, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF ILLINOIS, EASTERN DIVISION
Case No. 20 C 2134
ANTHONY MAYS, INDIVIDUALLY AND ON
BEHALF OF A CLASS OF SIMILARLY SITUATED
PERSONS; AND JUDIA JACKSON, AS NEXT
FRIEND OF KENNETH FOSTER, INDIVIDUALLY
AND ON BEHALF OF A CLASS OF SIMILARLY
SITUATED PERSONS,
Plaintiffs-Petitioners,
v.
THOMAS DART,
Defendant-Respondent.
MEMORANDUM OPINION AND ORDER
MATTHEW F. KENNELLY, District Judge:1
1. Judge Kennelly is addressing this matter as emergency
judge pursuant to paragraph 5 of Second Amended General Order
20-0012.

131a
Appendix C
Anthony Mays and Kenneth Foster 2 are pretrial
detainees at Cook County Jail in Chicago, Illinois. On
behalf of themselves and a putative class, they have sued
the Cook County Sheriff Thomas Dart, who operates
the Jail, alleging that he has violated their rights under
the Fourteenth Amendment by failing to provide them
with reasonably safe living conditions in the face of the
current coronavirus pandemic. The plaintiffs assert claims
under 42 U.S.C. § 1983 and for writs of habeas corpus
under 28 U.S.C. § 2241. They have moved for entry of a
temporary restraining order requiring the Sheriff to take
additional precautions to stem the spread of coronavirus
into and within the Jail. Ultimately, plaintiffs contend,
they cannot be held at the Jail in a way that is consistent
with their constitutional rights—though they do not seek
outright release from custody as part of their motion for a
temporary restraining order. Rather, they seek changes
in the Sheriff’s policies, including in how they are carried
out, as well as, for one proposed subclass, a change in the
locations where they are kept in custody. See Emerg. Mot.
for Temp. Restraining Order of Prelim. Inj., dkt. no. 2, at
15-16, 17-19 (spelling out the relief sought on the request
for a TRO).
The Court begins by acknowledging the importance
of the issues presented by the parties. The Sheriff is
responsible for operating and administering a very large
physical facility—actually a campus of separate physical
2. The claim for Foster is brought by Judia Jackson, his next
friend, because plaintiffs’ counsel attempted to contact Foster by
telephone but were unable to reach him due to the Jail’s operational
limits arising out of the coronavirus pandemic.

132a
Appendix C
facilities—whose population, if one considers including
both detainees and staff, is the size of a small (but not all
that small) town. This is an extraordinarily difficult task.
The detainee population runs the gamut from persons with
lengthy criminal records who are accused of committing
violent crimes to non-violent offenders in custody for
the first time who, perhaps, remain in custody only
because they and their families were unable to post bond
money. And it also runs the gamut from young, healthy
persons to older detainees with serious medical or mental
health issues. Operating the Jail, even under normal
circumstances, is a very challenging task that occupies
a large, full-time staff of policymakers, subject matter
experts, and front-line correctional officers, medical and
mental health workers, counselors, and others. And these
are not normal circumstances. Fashioning a public policy
and public health response to the coronavirus pandemic
has challenged government officials across our country
and throughout the world, who are facing a crisis unlike
any we have faced for decades, and perhaps generations.
The task is no less difficult, and no less unfamiliar, for
administrators of jails.
This does not mean, however, that constitutional
protections fall by the wayside. Government officials in
our country are bound by constitutional requirements
even when they are dealing with difficult and unfamiliar
challenges to public health and safety. Persons accused of
crimes who are detained pending trial do not shed their
constitutional rights at the jailhouse door. The government
has determined to lock them up pending determination of
their guilt or innocence, and by doing so the government

133a
Appendix C
takes on an obligation to protect their health and safety.
And it cannot be forgotten that by requiring this, we
safeguard the health and safety of the community at
large—from which the detainees have come and to which
they and the officers guarding them will return.
In light of these considerations, and for the reasons
stated below, the Court issues a temporary restraining
order, though considerably narrower than the order the
plaintiffs have requested. In particular, the Court declines
the plaintiffs’ request to require the Sheriff to move
certain of them to other forms of custodial arrangements
such as home incarceration.
Background
Mays and Foster have serious medical conditions that
make them highly vulnerable to complications arising
from what has been termed COVID-19, a novel form
of coronavirus that is causing a global pandemic. (The
Court will use the term coronavirus.) As of this morning,
432,550 Americans and over 1,502,610 people around the
world have been diagnosed with the virus—figures that
understate its spread, as they include only those who have
managed to get tested. See Coronavirus Resource Center,
Johns Hopkins Univ. & Med., https://coronavirus.jhu.edu/
(last updated April 9, 2020, 8:38 A.M.). Over 89,910 have
died, including over 14,800 Americans. Id. At present,
there is no known cure and no known vaccine.
People over the age of 65 and people of all ages with
serious underlying medical conditions face an elevated

134a
Appendix C
risk of suffering from severe illness if they contract
coronavirus. Because the virus spreads more rapidly when
people are in close contact with each other, government
officials have drastically reduced activity involving personto-person contact in cities, nations, and economies around
the world, including Chicago and Illinois.
Reducing the spread of the virus is, however,
especially challenging in jails and prisons. The Cook
County Jail is a complex where, at any given time,
thousands of detainees live in either barracks-style
dormitories, shared cells, or individual cells as they await
trial on the crimes of which they have been accused. As
of April 8, 2020, 251 detainees and 150 employees at the
Jail have tested positive for coronavirus, and one detainee
has died of apparent complications from it. See COVID-19
Cases at CCDOC, Cook County Sheriff’s Office, https://
www.cookcountysheriff.org/covid-19-cases-at-ccdoc/ (last
updated April 8, 2020, 5:00 P.M.). While the Court was
drafting this opinion, the news broke that the Jail is the
largest single known source of infections in the nation.
See Timothy Williams and Danielle Ivory, “Chicago’s
Jail is Top U.S. Hot Spot as Virus Spreads Behind
Bars” (April 8, 2020), N.Y. Times, https://www.nytimes.
com/2020/04/08/us/coronavirus-cook-county-jail-chicago.
html (last updated April 9, 2020, 8:47 A.M.). The plaintiffs
allege that conditions at the Jail—including, for example,
the very close proximity in which detainees are held in
the Jail’s housing divisions and intake areas, inadequate
distribution of soap and sanitation supplies for detainees,
and a lack of personal protective equipment (PPE) for
detainees who have been exposed to others with symptoms
of the virus—violate constitutional requirements.

135a
Appendix C
On April 3, 2020, the plaintiffs filed this lawsuit. In
Count 1, they allege, under 42 U.S.C. § 1983, that the
Sheriff has violated their Fourteenth Amendment right
to constitutionally adequate living conditions by failing
to implement appropriate measures to control the spread
of the virus. In Count 2, they petition for writs of habeas
corpus through 28 U.S.C. § 2241 because, they contend,
they cannot constitutionally be detained at the Jail during
the pandemic.
At the same time the plaintiffs filed suit, they moved to
certify a class consisting of “all people who are currently
or who will in the future be housed in the Cook County
Jail for the duration of the COVID-19 pandemic.” Compl.,
dkt. no. 1, ¶ 60. They also requested certification of two
subclasses. “Subclass A consists of all people who, because
of age or previous medical conditions, are at particularly
grave risk of harm from COVID-19.” Id. ¶ 61. “Subclass
B consists of all people who are currently housed on a
tier where someone has already tested positive for the
coronavirus.” Id. ¶ 62.
The plaintiffs also immediately moved for a temporary
restraining order or preliminary injunction requiring
implementation of specified preventive and protective
measures at the Jail. See Emerg. Mot. for Temp.
Restraining Order of Prelim. Inj., dkt. no. 2, at 15-16.
The measures that the plaintiffs seek to implement
would require the Sheriff to triage medically vulnerable
detainees, enable social distancing, provide detainees
with adequate supplies for sanitation and handwashing,
distribute PPE to detainees, and take additional

136a
Appendix C
steps when quarantining and isolating symptomatic of
coronavirus positive detainees, among other things. And,
as indicated, their motion seeks relocation of certain class
members to other custodial locations. On April 7, 2020,
the Court held a hearing on the motion, at which counsel
appeared and argued via telephone.
Discussion
A. Conditional class certification
The plaintiffs seek classwide relief in the form of a
temporary restraining order, but because the lawsuit
was just filed there has not yet been a class certification
ruling. This does not foreclose the possibility of relief for
the plaintiffs at this stage, because a district court has
general equity powers allowing it to grant temporary or
preliminary injunctive relief to a conditional class. Lee
v. Orr, No. 13 CV 8719, 2013 U.S. Dist. LEXIS 173801,
2013 WL 6490577, at *2 (N.D. Ill. Dec. 10, 2013) (citing Ill.
League of Advocates for the Developmentally Disabled
v. Ill. Dep’t of Human Servs., No. 13 C 1300, 2013 U.S.
Dist. LEXIS 90977, at *10-11 (N.D. Ill. June 28, 2013));
see also Al Otro Lado v. Wolf, 952 F.3d 999, 1005 n.4 (9th
Cir. 2020); Gooch v. Life Inv’rs Ins. Co. of Am., 672 F.3d
402, 433 (6th Cir. 2012) (“[T]here is nothing improper
about a preliminary injunction preceding a ruling on
class certification.”); Howe v. Varity Corp., 896 F.2d 1107,
1112 (8th Cir. 1990). Furthermore, Federal Rule of Civil
Procedure 23(b)(2) “does not restrict class certification to
instances when final injunctive relief issues” and permits
certification of a conditional class for the purpose of

137a
Appendix C
granting preliminary injunctive relief. Meyer v. Portfolio
Recovery Assocs., LLC, 707 F.3d 1036, 1043 (9th Cir.
2012); see also Howe, 896 F.2d at 1112 (affirming grant of
a preliminary injunction to a conditional class).
Under Rule 23(a), the four prerequisites for class
certification are numerosity, commonality, typicality, and
adequate representation. Beaton v. SpeedyPC Software,
907 F.3d 1018, 1025 (7th Cir. 2018). “Once these four
prerequisites are satisfied, the potential class must also
satisfy at least one provision of Rule 23(b).” Rosario v.
Livaditis, 963 F.2d 1013, 1017 (7th Cir. 1992). The plaintiffs
have made a sufficient showing for conditional certification
of Subclasses A and B for the purpose of the present
motion for a temporary restraining order.
As for the first prerequisite, numerosity, there is
“no magic number” that is regarded as sufficient, but
forty is generally accepted as sufficient to satisfy Rule
23(a). Mulvania v. Sheriff of Rock Island Cty., 850 F.3d
849, 859 (7th Cir. 2017). It is undisputed that there are
over 4,000 detainees in the Jail, and the plaintiffs cite
statistics that in incarcerated populations, on average
15 percent of the detainees have asthma, 10 percent
have heart conditions, 10 percent have diabetes, and 30
percent have hypertension. Applying even the lowest of
these percentages to the detainee population of over 4,000
yields hundreds of detainees with medical conditions that
heighten the risk of harm from a coronavirus infection.
This is sufficient to establish numerosity for conditional
certification of Subclass A. As for Subclass B, the plaintiffs
have likewise sufficiently demonstrated numerosity for

138a
Appendix C
purposes of conditional certification. Over two hundred
detainees have tested positive for coronavirus, and most
detainees are housed in tiers which are shared with
anywhere from forty to several hundred other detainees.
This is sufficient to show that there are likely far more
than forty detainees in proposed Subclass B.
There is also commonality with respect to the
claims of Subclass A member and Subclass B members.
Commonality requires at least one question common to all
the class members, the answer to which is “apt to drive
the resolution of the litigation.” Wal-Mart Stores, Inc. v.
Dukes, 564 U.S. 338, 350, 131 S. Ct. 2541, 180 L. Ed. 2d 374
(2011). Both subclasses’ claims turn on a common question
of whether detainees are facing an unconstitutional risk
of harm to their health due to conditions in the Jail that
facilitate the spread of coronavirus and the absence of
protections adequate to stem its spread.
The Seventh Circuit has explained that a named
plaintiff’s claims are typical if they “arise[ ] from the same
event or practice or course of conduct that gives rise to
the claims of other class members and [are] based on the
same legal theory.” Lacy v. Cook County, 897 F.3d 847, 866
(7th Cir. 2018). The claims of the named plaintiffs here are
typical of the class, because the named plaintiff and the
members of the class all contend that they face a serious
risk of contracting coronavirus due to the Jail’s allegedly
deficient living conditions and precautions, and they and
the class seek the same relief. In addition, the named
plaintiffs’ claims are typical of the putative members of
Subclass A, who all contend that they face an elevated risk

139a
Appendix C
of experiencing complications if they contract coronavirus,
and of the putative members of Subclass B, who all claim
exposure at the Jail to someone who has already tested
positive.
There is also adequate representation of both
subclasses by Foster. Under this requirement of Rule
23(a), the named plaintiff must be a member of the putative
class and must have the same interest and injury as
other members. Beaton, 907 F.3d at 1027. Foster alleges
that he faces heightened risk of harm from coronavirus
infection because he suffers from stomach cancer, lung
disease, asthma, and bronchitis, so he is a member of
putative Subclass A. And because several people on
Foster’s tier have tested positive for coronavirus, he is
also a member of putative Subclass B. Foster shares an
interest with members of both subclasses in relief from
the jail conditions that the classes allege have put them at
risk severe risk of health harm from coronavirus.
In sum, the requirements of Rule 23(a) are sufficiently
met to allow provisional certification of both subclasses for
purposes of the motion for temporary restraining order.
Rule 23(b)(2) permits class actions if “the party
opposing the class has acted or refused to act on grounds
that apply generally to the class,” so that injunctive or
declaratory relief is appropriate for the class as a whole.
The plaintiffs satisfy this requirement because they seek
“the same . . . injunctive relief for everyone” in the class
and in each subclass. See Chi. Teachers Union, Local No.
1 v. Bd. of Educ. of Chi., 797 F.3d 426, 442 (7th Cir. 2015).

140a
Appendix C
For these reasons, the Court conditionally certifies
Subclasses A and B for the purpose of the motion for a
temporary restraining order.
B. Temporary restraining order
The Court addresses in this decision only the
plaintiffs’ motion for a temporary restraining order, not
their motion for a preliminary injunction. One reason is
that the motion involves at least some disputed facts that
potentially require an evidentiary hearing before they
may be determined. See Dexia Credit Local v. Rogan,
602 F.3d 879, 884 (7th Cir. 2010); Promatek Indus., Ltd.
v. Equitrac Corp., 300 F.3d 808, 814 (7th Cir. 2002), as
amended (Oct. 18, 2002); Syntex Ophthalmics, Inc. v.
Tsuetaki, 701 F.2d 677, 682 (7th Cir. 1983). The motion
for preliminary injunction is therefore left for later
consideration.
The standard for issuing a temporary restraining
order is identical to that governing the issuance of a
preliminary injunction. Trs. of the Chi. Reg’l Council
of Carpenters Welfare Fund v. Norem, No. 17 C 4851,
2017 U.S. Dist. LEXIS 170743, 2017 WL 4620798, at *2
(N.D. Ill. Oct. 16, 2017) (citing Long v. Bd. of Educ., Dist.
128, 167 F. Supp. 2d 988, 990 (N.D. Ill. 2001)). A court’s
determination of whether to issue a preliminary injunction
or temporary restraining order involves a two-step
inquiry, with a threshold phase and a balancing phase.
Whitaker v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ.,
858 F.3d 1034, 1044 (7th Cir. 2017). At the threshold phase,
the moving party must show: (1) without the requested

141a
Appendix C
relief, he will suffer irreparable harm during the pendency
of his action; (2) traditional legal remedies would be
inadequate; and (3) he has some likelihood of success on
the merits. Id. If the movant satisfies these requirements,
the court proceeds to the balancing analysis “to determine
whether the balance of harms favors the moving party or
whether the harm to other parties or the public sufficiently
outweighs the movant’s interests.” Id.
The Court also notes that the plaintiffs are arguably
seeking what is sometimes referred to as a “mandatory
injunction,” that is, a restraining order that requires an
affirmative act by the defendant. Mandatory injunctions
are “ordinarily cautiously viewed and sparingly issued.”
Graham v. Med. Mut. of Ohio, 130 F.3d 293, 295 (7th Cir.
1997).
1.

Likelihood of success on the merits

The moving party “need not demonstrate a likelihood
of absolute success on the merits.” Whitaker, 858 F.3d
at 1046. A “better than negligible” chance of success is
sufficient. Id. (quoting Cooper v. Salazar, 196 F.3d 809,
813 (7th Cir. 1999)).
a.

Habeas corpus

Plaintiffs and subclass A have petitioned for a writ
of habeas corpus under 28 U.S.C. § 2241, which is the
appropriate way for a state pre-trial detainee to challenge
his or her detention. Jackson v. Clements, 796 F.3d 841,
843 (7th Cir. 2015). “Because a pre-trial detainee is not

142a
Appendix C
yet in custody pursuant to the judgment of a State court,
relief under 28 U.S.C. § 2254 is not available.” Id. (internal
quotation marks omitted).
Section 2241 has no express exhaustion requirement,
but courts apply a common-law exhaustion rule. Richmond
v. Scibana, 387 F.3d 602, 604 (7th Cir. 2004). A pretrial
detainee must “exhaust all avenues of state relief” before
seeking a writ of habeas corpus through a section 2241
action. See United States v. Castor, 937 F.2d 293, 296-97
(7th Cir. 1991). Although there are exceptions, “the hurdle
is high.” Richmond, 387 F.3d at 604. In deciding whether
an exception applies, courts “must balance the individual
and institutional interests involved, taking into account
‘the nature of the claim presented and the characteristics
of the particular administrative procedure provided.’”
Gonzalez v. O’Connell, 355 F.3d 1010, 1016 (7th Cir. 2004)
(quoting McCarthy v. Madigan, 503 U.S. 140, 146, 112 S.
Ct. 1081, 117 L. Ed. 2d 291 (1992), superseded by statute
on other grounds as recognized in Porter v. Nussle, 534
U.S. 516, 122 S. Ct. 983, 152 L. Ed. 2d 12 (2002)). A court
may excuse exhaustion where:
(1) requiring exhaustion of administrative
remedies causes prejudice, due to unreasonable
de l ay or a n i nde f i n it e t i me f r a me for
administrative action; (2) the agency lacks
the ability or competence to resolve the issue
or grant the relief requested; (3) appealing
through the administrative process would
be futile because the agency is biased or
has predetermined the issue; or (4) where
substantial constitutional questions are raised.

143a
Appendix C
Id.; see also Chazen v. Marske, 938 F.3d 851, 863 (7th Cir.
2019) (applying futility exception).
It is undisputed that a state court has the authority
to release a pretrial detainee. A detainee in Illinois may
challenge his or her detention by seeking judicial review
of his or her bond. 725 Ill. Comp. Stat. Ann. 5/110-6. 3 And
on March 23, 2020, in response to an emergency petition
filed by the Cook County Public Defender, the Presiding
Judge of the Cook County Circuit Court’s Criminal
Division issued an order setting out an expedited bond
hearing process that applied to seven designated classes
of detainees. Defs.’ Resp., Ex. E (dkt. no. 31-1) at 1-2. The
classes included those at an elevated risk of contracting
coronavirus due to their ages or underlying medical
conditions—that is, the putative members of Subclass
A. Id. The expedited hearings took place from March
24 through March 27. Id. at 3-5. Although the expedited
hearings do not appear to be currently ongoing, Cook
County’s courts are still available for emergency matters,
and judges are hearing motions to review or reduce bail
daily at all locations where court is held. Defs.’ Supp.
Resp., Ex. A (dkt. no. 41-1) at 1.
The plaintiffs do not contend that they sought
expedited bond hearings or initiated any sort of state
3. At the hearing held on April 7, 2020, though not in their
supplemental brief filed after the hearing, the plaintiffs advanced
another futility argument, specifically that the risk to their health
could not be asserted as a basis to allow release on bond. The
argument is unsupported, and it is undercut by the numerous bond
reductions and releases that have taken place in recent weeks, largely
as a result of the coronavirus outbreak.

144a
Appendix C
proceedings challenging their bonds. 4 Instead, they
contend that exhaustion is futile because the bond review
process does not move quickly enough. The defendants,
in turn, contend that the plaintiffs should have sought
reductions of their bonds through the expedited and/or
emergency hearings that were available, may now seek
release via other established processes, and that these
processes are not futile.
The plaintiffs in subclass A cannot show that
they exhausted available state court remedies before
petitioning for habeas corpus. As indicated, the plaintiffs
have not sought bond reductions at all. And the record
reflects that this process is anything but futile. During
the week the expedited bond hearings were held, the Jail’s
population decreased by 424 detainees. Defs.’ Resp., Ex.
B (dkt. no. 30-2) ¶ 27. Since March 9, the Jail’s population
has decreased by 1,175 detainees—bringing it to a record
low, at least for the past few decades—and even since the
completion of the expedited bond hearing process, the
Jail’s population has decreased by over 265 detainees.
E.g., id. ¶¶ 10, 28-29.
Nor have the plaintiffs established that the existing
and available process for review of their detention is
unduly time-consuming in a way that undermines their
4. At the hearing, but not in any of their briefs, the plaintiffs
suggested that the Public Defender’s motion could serve to exhaust
their claims. But they were not named parties to that motion and,
regardless, the state court’s ruling on that motion would undermine
their argument because it made possible an additional avenue of
relief.

145a
Appendix C
claimed constitutional rights. They say the process, in
its entirety, could take several weeks or months. But
this assumes a given detainee will lose at every stage
and will have to appeal all the way to the state supreme
court. In the Court’s view, it is rather incongruous to
call an otherwise available process unnecessarily timeconsuming or futile when one has made no effort to initiate
it. More to the point, the plaintiffs point to no evidence that
detainees who have sought bond hearings are currently
facing undue delays. Thus although a court may excuse
exhaustion in unusual circumstances if it would cause an
unreasonable delay, see, e.g., Gonzalez, 355 F.3d at 1016,
the plaintiffs have not made the necessary showing. And to
the extent they contend that the requirement of exhaustion
should be excused due to the nature of the constitutional
questions they raise, they have made no showing that the
state courts cannot remedy these claimed violations.
In sum, the habeas corpus claim on the part of the
representatives of subclass A is barred due to their failure
to exhaust available state court remedies. As a result,
the subclass has no likelihood of success on the merits. 5
This renders moot the plaintiffs’ request for the Court to
establish a procedure for the expedited consideration of
release of the members of subclass A, which the plaintiffs
sought only with respect to the habeas corpus claim.
5. If the plaintiffs wish to seek prompt appellate review of
this ruling, the Court is willing to consider dismissing Count 2
of their complaint for failure to exhaust and certifying the ruling
for immediate appeal under 28 U.S.C. § 1292(b). Any such request
should be presented to the undersigned judge in his capacity as
emergency judge.

146a
Appendix C
Though this determination renders the parties’
other arguments regarding habeas corpus superfluous,
the Court will address certain of them to ensure a more
complete record and to eliminate issues from the need for
future consideration. First, the parties dispute whether
detainees can even challenge the conditions of their
confinement through section 2241—an issue that has
also divided courts. Compare, e.g., Aamer v. Obama, 742
F.3d 1023, 1032, 408 U.S. App. D.C. 291 (D.C. Cir. 2014) (a
prisoner may challenge the conditions of his confinement
in a federal habeas corpus petition) and Thompson v.
Choinski, 525 F.3d 205, 209 (2d Cir. 2008) (same) with
Spencer v. Haynes, 774 F.3d 467, 469-70 (8th Cir. 2014)
(section 2241 petitions may not challenge conditions). The
Seventh Circuit has expressed a “long-standing view that
habeas corpus is not a permissible route for challenging
prison conditions,” at least when a prisoner’s claim does
not have “even an indirect effect on the duration of
punishment.” Robinson v. Sherrod, 631 F.3d 839, 840-41
(7th Cir. 2011). But the Seventh Circuit has also noted that
“the Supreme Court [has] left the door open a crack for
prisoners to use habeas corpus to challenge a condition
of confinement.” Id. at 840 (internal quotation marks
omitted) (citing Glaus v. Anderson, 408 F.3d 382, 387 (7th
Cir.2005); Nelson v. Campbell, 541 U.S. 637, 644-46, 124 S.
Ct. 2117, 158 L. Ed. 2d 924 (2004); Bell v. Wolfish, 441 U.S.
520, 526 n.6, 99 S. Ct. 1861, 60 L. Ed. 2d 447 (1979); Preiser
v. Rodriguez, 411 U.S. 475, 499-500, 93 S. Ct. 1827, 36 L.
Ed. 2d 439 (1973)). Were the Court required to address
this point, it would not consider it to be an absolute bar to
plaintiffs’ motion for a temporary restraining order. The
plaintiffs’ claims, as they have framed them, do bear on

147a
Appendix C
the duration of their confinement (they contend, ultimately,
that they cannot be held in the Jail consistent with the
Constitution’s requirements), and they are not the sort of
claims that are, or can be, appropriately addressed via a
claim for damages. The Court need not, however, decide
this point definitively at this point.
Next, the Sheriff argues that he has no authority to
release detainees because, he contends, only the criminal
trial court has authority to release a person in custody.
Citing the Illinois County Jail Act, 730 Ill. Comp. Stat.
Ann. 125/14, the Sheriff contends that he can transfer
pretrial detainees—which, his counsel conceded at the
hearing (contrary to statements in the Sheriff’s brief),
could include placing them in home custody—but that he
lacks authority to release them outright. This argument
has no bearing on the petition for habeas corpus. The
issuance of writ of habeas corpus through a section 2241
petition is a federal remedy (in other words, it does not
depend on state law), and a habeas corpus petition is
always addressed to the prisoner’s custodian, in this
case the Sheriff. Rumsfeld v. Padilla, 542 U.S. 426, 447,
124 S. Ct. 2711, 159 L. Ed. 2d 513 (2004) (“Whenever a
§ 2241 habeas petitioner seeks to challenge his present
physical custody within the United States, he should
name his warden as respondent.”). Whether the Sheriff
has authority under state law to release detainees on his
own does not matter.
Finally, the Sheriff also suggests that the subclass A
plaintiffs’ habeas corpus petition is barred by Younger
v. Harris, 401 U.S. 37, 91 S. Ct. 746, 27 L. Ed. 2d 669

148a
Appendix C
(1971), which “requires federal courts to abstain from
interfering with pending state proceedings to enforce
a state’s criminal laws and certain other types of law
as well.” Sweeney v. Bartow, 612 F.3d 571, 573 (7th Cir.
2010). Although the Seventh Circuit has held that Younger
abstention may apply to a habeas corpus petition, id.,
there is no basis to abstain here, as there is no pending
state proceeding. The Sheriff’s real argument is nonexhaustion, not Younger abstention.
b.

Section 1983 claim

The Fourteenth A mendment protects pretrial
detainees, who are entitled to a constitutional presumption
of innocence, from being held in conditions that amount
to punishment. Miranda v. County of Lake, 900 F.3d
335, 350-51 (7th Cir. 2018). Analysis of a due process
challenge to conditions of confinement involves two
steps. See Miranda, 900 F.3d at 353. The first is a
determination of whether the defendant’s conduct was
purposeful, knowing, or “perhaps even reckless[],” id.,
with respect to the “physical consequences in the world”
of his conduct. Kingsley v. Hendrickson, 576 U.S. 389,
135 S. Ct. 2466, 2472, 192 L. Ed. 2d 416 (2015). The
conditions created by the defendant’s conduct must be,
“from an objective standpoint, sufficiently serious.” See
Gray v. Hardy, 826 F.3d 1000, 1005 (7th Cir. 2016).6 The
6. The claim in Gray was brought by a convicted prisoner,
not a pretrial detainee, and therefore his claim was governed by
the Eighth Amendment, not the Fourteenth Amendment. The
analyses of conditions-of-confinement claims under Fourteenth
Amendment and Eighth Amendment overlap in the assessment of

149a
Appendix C
second step is an assessment of the reasonableness of
the defendant’s conduct, in light of the “totality of facts
and circumstances” facing the defendant. McCann v.
Ogle County, 909 F.3d 881, 886 (7th Cir. 2018). The
reasonableness of the defendant’s conduct is measured
objectively “without regard to any subjective belief held
by the [defendant].” Id.
i.

Knowing conduct and seriousness of
conditions

The Sheriff does not dispute that his establishment of
certain policies and his non-establishment of others that
are sought amounts to knowing conduct; at the hearing.
For a condition created by a defendant’s conduct to be
“sufficiently serious” to violate a detainee’s Fourteenth
Amendment rights, the defendant’s knowing acts or
omissions must result “in the denial of the minimal
civilized measure of life’s necessities.” See Gray, 826 F.3d
at 1005 (quoting Farmer v. Brennan, 511 U.S. 825, 834, 114
S. Ct. 1970, 128 L. Ed. 2d 811 (1994)). Actual, present harm
is not required; conditions that pose an “unreasonable
risk of serious damage to the [detainee’s] future health”
may violate a detainee’s Fourteenth Amendment rights.
See Henderson v. Sheahan, 196 F.3d 839, 847 (7th Cir.
1999). To determine if conditions of confinement pose an
“unreasonable risk” to pretrial detainees’ future health,
whether the conditions were sufficiently severe, but they diverge
in the assessment of the propriety of the defendant’s conduct: the
standard is subjective for Eighth Amendment claims (which require
a showing of deliberate indifference) and objective for Fourteenth
Amendment claims (which require a showing of unreasonableness).
See Hardeman v. Curran, 933 F.3d 816, 822 (7th Cir. 2019).

150a
Appendix C
a court must make a “scientific and statistical inquiry into
the seriousness of the potential harm and the likelihood
that such injury to health will actually be caused” by the
conditions. Id. A court must also consider whether the
risk of harm was “not one that today’s society chooses to
tolerate.” Id.
The plaintiffs are reasonably likely to succeed in
showing that at least some of the conditions they cite pose
an unreasonable risk to their future health. See id. The
scientific evidence in the record—including the Center for
Disease Control’s Interim Guidance on Management of
Coronavirus Disease 2019 (COVID-19) in Correctional and
Detention Facilities (“CDC Guidelines”) and a declaration
from medical doctors submitted by the plaintiffs—reflects
that coronavirus is highly contagious, persists in the
environment, and may be hard to detect by observation
of symptoms only. The virus apparently spreads easily,
through coughing or sneezing; droplets with the virus
can remain in the air for up to three hours. Additionally,
and importantly for purposes of the present case,
coronavirus apparently persists on plastic and stainless
steel surfaces for up to two to three days. Those who have
been infected with the virus may not become symptomatic
for up to fourteen days. In light of these qualities and the
present lack of a vaccine or cure for the virus, frequent
handwashing, social distancing, sanitation of surfaces, and
the use of PPE are the only available methods to protect
against coronavirus infection.
In the context of this evidence, the plaintiffs have
demonstrated that certain of the conditions created by

151a
Appendix C
the intentional actions of the Sheriff enable the spread of
coronavirus and significantly heighten detainees’ risk of
contracting the virus. First, the affidavits from current
and recently released detainees reflect that Sheriff’s
personnel have not been cleaning common spaces after a
detainee on the tier has tested positive for coronavirus.7
The affidavits submitted by the plaintiffs also reflect that
detainees are being housed under conditions that make
social distancing impossible, thereby facilitating the
spread of coronavirus. Many detainees are in congregate
living situations, in which anywhere from forty to over
a hundred detainees are housed in a single room. The
beds in these open living spaces are very close together,
separated by only one to four feet. And detainees who are
housed in single-or dual-occupancy cells still must use
common bathroom facilities, which are typically shared
by forty to fifty people, including large groups at a single
time.
The affidavits submitted by the plaintiffs further
suggest that detainees currently lack the means to
attempt to protect themselves from a potential coronavirus
infection. Although they are sharing tier with someone
who has tested positive for coronavirus, the plaintiffs
contend, the Sheriff has not provided them with adequate
supplies of soap, with cleaning supplies, or with PPE such
as facemasks. The record reflects that only symptomatic
7. Although the Sheriff objects that many of the plaintiffs’
affidavits contain hearsay, it is well established that a Court may
consider hearsay in ruling on a preliminary injunction motion (and
thus on a motion for a temporary restraining order). See SEC v.
Cherif, 933 F.2d 403, 412 n.8 (7th Cir. 1991).

152a
Appendix C
detainees have been issued facemasks and that detainees
otherwise have not received any PPE. The plaintiffs’
affidavits reflect that requests for facemasks have been
refused by Jail personnel and that when detainees have
resorted to making their own masks from cloth, those
masks have been confiscated.
The plaintiffs also contend that the Jail is not screening
its population to identify, and separate, detainees who
have heightened vulnerability to coronavirus disease
due to age or preexisting medical conditions. As a result,
the plaintiffs contend, those detainees are housed, and
will in the future be housed, in tiers where a detainee
has tested positive. The plaintiffs argue that this places
these vulnerable detainees at a high risk of severe health
consequences.
The statistical evidence that exists also indicates that
the conditions at the Jail have created a significant and
unreasonable risk to the plaintiffs’ future health. The
Jail currently has the highest rate of new coronavirus
infections in the country, and it far exceeds that of Cook
County. As of April 6, 2020, the infection rate in Cook
County was 1.56 per 1000 people, whereas in the Jail, it
was 50 per 1,000 people. The disparity between these rates
tends to support the contention that the conditions at the
Jail facilitate the spread of coronavirus and exacerbate
the risk of infection for detainees.
The plaintiffs have shown a reasonable likelihood of
success on their contention that at least some current
conditions at the Jail relating to the Sheriff’s response

153a
Appendix C
to the coronavirus outbreak collectively create a risk of
harm from coronavirus that is “not one that today’s society
chooses to tolerate.” See Sheahan, 196 F.3d at 847. In
recognition of the importance of social distancing, Illinois’
governor has instituted a statewide stay-at-home order.
Frequent handwashing, use of PPE such as facemasks,
and sanitizing of commonly used surfaces have, in the past
several weeks, become routine precautions employed by
the general population. Under the circumstances, plaintiffs
are reasonably likely to succeed on their contention that
conditions at the Jail create an unreasonable risk to
their health that is sufficiently serious to bring their due
process rights into play, thus requiring assessment of the
reasonableness of the Sheriff’s actions.
ii.

Objective reasonableness

Objective reasonableness is assessed from the
perspective of “a reasonable [official] on the scene,” based
on what the officer knew at the time, Kingsley, 135 S. Ct.
at 2473; from that perspective a court determines if the
official acted reasonably to mitigate the risks to health and
safety of the detainees. See Hardeman, 933 F.3d at 825; see
also Darnell v. Pineiro, 849 F.3d 17, 35 (2d Cir. 2017). In
assessing the reasonableness of the Sheriff’s conduct, the
Court must account for his legitimate interest in managing
the Jail facilities and must defer to policies and practices
that “are needed to preserve internal order and discipline
and to maintain institutional security.” Kingsley, 135 S.
Ct. at 2473 (quoting Bell, 441 U.S. at 547).
The Sheriff argues that his conduct has been
objectively reasonable because he has promulgated

154a
Appendix C
policies and procedures intended to implement the CDC
Guidelines, which both parties have expressly relied upon
as a guide to assessing the reasonableness of the Sheriff’s
conduct. The establishment of a policy that is consistent
with authoritative guidance and best practices may, in fact,
comply with constitutional requirements. But establishing
appropriate policies does not fully discharge the Sheriff’s
constitutional obligations; a policy is only as good as its
execution. In this case, the plaintiffs challenge certain of
the Sheriff’s policies as inadequate and thus unreasonable,
but they also challenge the implementation of other policies
that may be facially adequate. For example, the plaintiffs
offer an affidavit from a correctional officer who states
that, despite the Sheriff’s declared policy, facemasks are
being rationed and are not readily available for Jail staff.
And they likewise offer affidavits from recent detainees
and from persons who have spoken with current detainees
that are indicative of objectively unreasonable deficiencies
in the implementation of certain of the Sheriff’s declared
policies.
With these considerations in mind, the Court assesses
the plaintiffs’ likelihood of success on its challenges to
the Sheriff’s actions in response to the health risks to
detainees posed by coronavirus.
a.

Medical triage of vulnerable detainees

The plaintiffs contend that the Sheriff has not
established a process to identify detainees who are in
high risk categories for complications from coronavirus
or measures to separate vulnerable detainees from others

155a
Appendix C
who are confirmed or suspected of having the virus.
The Sheriff contends he has worked to establish policies
that are consistent with the CDC’s guidelines and that
identify potentially vulnerable detainees. He points to
evidence that Sheriff’s personnel are working to help the
state courts expedite case and bond review hearings by
identifying detainees who are considered at a high risk
of having complications from the virus based on age or
medical conditions. But apart from using medical alerts
in the Sheriff’s office’s computer system, the submissions
made to the Court offer no description of an actual process
for identifying vulnerable detainees.
Given the widely acknowledged risks to medically
vulnerable individuals, it undoubtedly would be advisable
for the Sheriff to identify, in advance of any symptomatology,
detainees who are in high-risk categories. The CDC’s
guidance says that correctional facilities should ensure
that detainees are medically evaluated and treated “at
the first signs of COVID-19 symptoms,” including a
determination regarding whether an individual is in a
high-risk category. Defs.’ Resp., Ex. O (dkt. no. 30-15),
at 23. Knowing in advance who the high-risk detainees
are, and maintaining an accessible record of this, would
facilitate more careful monitoring and treatment of
the medical condition of any such person who develops
symptoms consistent with coronavirus disease. But the
CDC’s guidance does not require correctional facilities to
identify medically vulnerable detainees before they show
symptoms or to segregate them from other detainees in
advance. For purposes of the present motion, the Court
cannot say that the plaintiffs are likely to succeed on their

156a
Appendix C
contention that the Sheriff’s claimed failure to identify
these detainees in advance is objectively unreasonable.
b.

Social distancing

The plaintiffs contend that the Sheriff’s policies
run afoul of social-distancing guidance; the Sheriff has
not mandated this within the Jail; and current housing
arrangements make social distancing impossible or
virtually so, at least in many of the Jail’s divisions. In
several areas, detainees are housed in congregate setting
somewhat euphemistically called “dormitory”-type
rooms—really, more like a military barracks, with dozens
of inmates in close-quarters bunkbeds in a single large
room. In others, detainees are doubled-celled in very
small rooms. And in most areas of the Jail, large groups
of detainees share showers, bathrooms, and dayrooms,
as is common in most pretrial detention facilities. The
plaintiffs contend that this runs afoul of CDC guidance and
unreasonably endangers detainees’ health. The Sheriff
contends that he is undertaking what he contends are
reasonably feasible efforts to socially distance detainees
and to educate them on the need for social distancing and
how to practice it. The Sheriff also contends that he is
working to reduce the occupancy of the Jails’ dormitorystyle housing by as much as fifty percent. He also points
to a policy that requires the isolation of new detainees
from the Jail’s general population for fourteen days as of
April 6, 2020 (up from seven days in an earlier iteration
of the policy).
At the April 7 hearing, however, defense counsel was
unable to confirm whether such efforts make it possible

157a
Appendix C
to separate detainees’ beds by six feet or, indeed, how
much separation exists in the dormitory-type buildings.
The only evidence in the record suggests that detainees
likely are still packed rather closely in those facilities. In
addition, the record appears to reflect that the Sheriff
continues to maintain the historical practice of holding
all new detainees awaiting intake for extended periods in
enclosed, crowded cells commonly called bullpens. This
occurs even before new detainees—all of whom have come
from the community at large—are medically evaluated.
This, it would appear, is a volitional, knowing policy choice
by the Sheriff.
Plaintiffs have shown a reasonable likelihood of success
on their contention that the intake procedure is objectively
unreasonable and creates an undue risk of harm to new
detainees who are thereby exposed to others who have
not been medically evaluated and may have coronavirus
disease symptoms. The CDC’s guidance recommends that
correctional facilities “[e]nforce increased space between
individuals in holding cells, as well as in lines and waiting
areas such as intake.” Defs.’ Resp., Ex. O (dkt. no. 30-15),
at 11. There is no evidence that the Sheriff is enforcing
those measures, particularly with respect to the intake
process; indeed, what evidence exists is to the contrary.
It is less clear, however, that the Sheriff’s existing
housing arrangements for admitted detainees may be
considered objectively unreasonable. In this regard, the
CDC’s guidance is not as definitive as plaintiffs suggest;
it acknowledges that space limitations may require a
departure from better social-distancing practices. Though

158a
Appendix C
the existing situation likely increases the risk to detainees,
the CDC’s guidance expressly recognizes that complete
social distancing may not be possible in the sleeping
areas of a jail. Space constraints at the Jail do not allow
for the more preferable degree of social distancing that
exists in the community at large. The Court concludes
that plaintiffs have filed to show a reasonable likelihood
of success on their contention that the Sheriff is acting in
an objectively unreasonable manner by failing to mandate
full social distancing. This is particularly so because the
Sheriff’s submission reflects an ongoing effort to modify
custodial arrangements at the Jail in a way that will
permit greater separation of detainees.
c.

Sanitation

The plaintiffs contend that, although sanitation and
handwashing are considered to be among the best defenses
against the spread of coronavirus, the Sheriff’s policies
fail to provide for sufficient distribution of soap, sanitizing
agents, and cleaning products to detainees. In particular,
the plaintiffs note, the Sheriff’s coronavirus response plan
does not provide for the distribution of sanitation supplies
to detainees at all. Affidavits submitted by and on behalf
of both current and former detainees reflect that detainees
are not being given sanitation supplies to clean cells or
shared showers that have not otherwise been sanitized,
and that they either have not received soap or received
only a very small supply insufficient to permit the frequent
hand-washing recommended by public health experts.
In addition, a correctional officer who has submitted an

159a
Appendix C
affidavit in support of plaintiffs’ motion8 states that access
to soap and sanitation supplies also pose a problem for
Jail staff who have some responsibility for cleaning areas
under their observation and control. For his part, the
Sheriff contends he is working to distribute supplies more
frequently, to implement more frequent and thorough
sanitary measures, and follow the CDC’s guidelines.
The CDC’s guidance advises correctional facilities to
ensure that sufficient amounts of sanitation and cleaning
supplies are available and that detainees have free
soap “sufficient to allow frequent hand-washing.” Defs.’
Resp., Ex. O (dkt. no. 30-15), at 8. The CDC also advises
that frequently touched surfaces should be cleaned and
disinfected several times a day. The Sheriff, however, has
offered nothing to indicate that his policies ensure the
provision of sufficient soap to detainees (let alone that it is
being provided free of charge, assuming that is a relevant
consideration for present purposes). By contrast, there is
plenty of evidence to the contrary. The Sheriff also points
to policies that call for sanitation and cleaning supplies to
be made available to detainees, but he offers no evidence
that this is actually happening on the ground, and as
indicated the plaintiffs have offered significant evidence
reflecting that it is not happening. This means that it is
8. At the hearing, defense counsel attempted to cast doubt
upon the credibility of the correctional officer, saying that he had
been involved in other disputes or lawsuits with the Sheriff. The
Court does not and need not make a credibility determination at this
stage, other than to note that the officer’s statements are consistent
with those made by detainees in other affidavits submitted by the
plaintiffs.

160a
Appendix C
highly likely, as the plaintiffs contend, that numerous areas
subject to common access in the Jail, including dayrooms,
other common areas like showers and bathrooms, twoperson cells, and the dormitory-type rooms, are going
uncleaned for extended periods, thus increasing the risk of
transmission of coronavirus by detainees not yet isolated
as symptomatic who have been in or touched objects in
those areas. The Court cannot at this point quantify the
risk, but the significant number of confirmed coronavirus
infections among detainees certainly suggests the risk is
significant. For these reasons, the Court concludes that
plaintiffs have shown a reasonable likelihood of success
on their claim that the execution of the Sheriff’s policies
regarding sanitation and sanitation supplies is objectively
unreasonable.
d.

PPE

The plaintiffs next contend that the Sheriff’s policies
do not require providing PPE to every detainee and that
this is objectively unreasonable under the circumstances.
The first of these propositions appears to be undisputed:
detainees as a whole are not being issued facemasks or
other forms of PPE. Current and former detainees have
stated via affidavits that they did not receive any PPE,
that only detainees with symptoms received PPE, that
detainees’ requests for PPE have been denied by Sheriff’s
personnel, and that when detainees tried to make their
own face coverings, officers have confiscated them.
The Sheriff has offered no contrary evidence on these
points. The plaintiffs also suggest that some, but not all,
correctional officers wear or have been wearing PPE in the

161a
Appendix C
Jail—at least, not until recently (though even this appears
to be disputed via the affidavit from the correctional officer
submitted by the plaintiffs on the morning of April 7). The
Sheriff contends that he has been proactively working to
obtain PPE and conform with best practices regarding its
use, including, as of recently, requiring all employees to
wear PPE in the Jail. The Sheriff also offers evidence that
he has created a team of officers who patrol tiers checking
that correctional staff are appropriately are using PPE.
The CDC’s guidelines for detainees’ use of PPE
recognize some flexibility; they require symptomatic
detainees to wear masks but do not mandate this for those
detainees’ close contacts. But the CDC’s guidance also
indicates that asymptomatic detainees should get “face
masks for source control as feasible based on local supply,
especially if housed as a cohort.” Defs.’ Resp., Ex. O (dkt.
no. 30-15), at 25 (emphasis added). Based on the record
before the Court, the Sheriff’s office gives PPE only to
symptomatic detainees—a significant but still relatively
modest proportion of the total detainee population at this
point—even though the Sheriff currently has enough
supplies to provide PPE to employees for at least a month.
Because current guidance indicates that even cloth masks
can reduce the spread of coronavirus, and the virus is
spreading rapidly throughout the Jail, the plaintiffs have
a reasonable likelihood of success on their contention
that it is objectively unreasonable for the Sheriff to fail
to provide facemasks at least to those detainees who are
in quarantine—i.e., those who have been exposed to a
detainee who is symptomatic (even if not coronaviruspositive). This failure creates an increased risk of further

162a
Appendix C
spread of coronavirus to other detainees, not to mention
Jail staff and, by extension, members of the general
public with whom those staff members have contact. The
plaintiffs likewise have shown a reasonable likelihood of
success on their contention that the Sheriff is not enforcing
the use of PPE by Jail staff who come into contact with
detainees, which poses a similar risk to detainees given
those staff members’ exposure to others outside the Jail.
e.

Quarantine and isolation

The plaintiffs also criticize the Sheriff’s policies on
quarantining detainees who have been exposed to other
detainees who have exhibited symptoms consistent with
coronavirus disease. The policy, as discussed earlier, calls
for quarantining the entire tier where any such detainee
was housed for a fourteen-day period, extended if someone
else in the tier thereafter exhibits symptoms. But plaintiffs’
criticism is not that the policy is inappropriate. Rather
their contention appears to be that in the near to medium
term the Sheriff’s practice will make it impossible for him
to manage the crisis given the number of tiers that likely
will be under quarantine. Plaintiffs’ position, it seems to
the Court, amounts to a contention that the practice of
quarantining is likely to fail, so the Court will ultimately
have to order detainee releases now to relieve the pressure.
That, however, is not the issue currently before the Court,
and in any event the plaintiffs have not made the showing
that this is an appropriate remedy at this point.9
9. For this reason, and because the requirements of 18 U.S.C.
§ 3626(a)(3)(A) have not been met, the Court need not address the
applicability of section 3626 to the plaintiffs’ request for relief. The

163a
Appendix C
The Sheriff contends that he is following the CDC’s
guidance and has implemented it. As indicated, he has
quarantined for at least fourteen days any detainee who
has been in contact with a symptomatic detainee, and if a
tier is quarantined, no new detainees are admitted to it or
transferred from it. In addition, symptomatic detainees
are moved to isolation tiers, and coronavirus-positive
detainees are moved to different isolation tiers, for at least
fourteen days. The plaintiffs offer no evidence reflecting
that this is not what the Sheriff is doing.
The CDC’s guidance does not require correctional
facilities to individually isolate detainees who have tested
positive for coronavirus or have been in close contact
with someone who has. Rather, the CDC recognizes that
some facilities may not have enough individual cells for
individual isolation and may need to quarantine together
groups of detainees exposed to others who have tested
positive. The CDC’s guidance further states that if a
correctional facility has a need to isolate or quarantine
detainees in groups, detainees with confirmed coronavirus
cases should not be placed into isolation with symptomatic
detainees or other detainees. The Sheriff’s policies
follow this recommendation, and the plaintiffs point to
no evidence that he is not implementing those policies.
The Court concludes that plaintiffs have not shown a
reasonable likelihood of success on their contention that
the Sheriff’s quarantining policies and practices are
objectively reasonable.
same is true with regard to subclass B’s request to be transferred
to alternate custodial locations. At least at present, the plaintiffs
are not seeking release from custody.

164a
Appendix C
f.

Coronavirus testing

The plaintiffs contend—and it is reasonable to
believe—that there are likely more infections in the Jail
than currently reported because of the limited availability
of coronavirus tests. They ask the Court to order the
immediate implementation of rapid testing. The Sheriff
contends that Cermak Health Services has obtained
approval to start administering a rapid testing process
developed by Abbott Laboratories as of April 7. But when
the Court asked at the hearing—on April 7—about the
status of that testing, the Sheriff’s counsel did not know
whether or how it was being implemented. Rather, counsel
said that this was up to Cermak, which is controlled by
Cook County, not the Sheriff.
The CDC’s guidance does not offer a specific
recommendation on how widely testing should be done.
It does imply, however, that people who are symptomatic
should be tested if feasible. In light of the evidence that the
Sheriff now has access to rapid coronavirus testing, it is
not objectively reasonable for the Sheriff himself—not just
Cermak Health Services—to fail to have a policy in place
regarding implementation of prompt testing, in particular
for detainees who exhibit symptoms consistent with
coronavirus disease. See, e.g., Calhoun v. Ramsey, 408
F.3d 375, 380 (7th Cir. 2005) (failure to have a policy may,
in certain circumstances, constitute an unconstitutional
policy).

165a
Appendix C
2.

Irreparable harm and inadequate remedy at
law

To meet the threshold requirement for a temporary
restraining order, the plaintiffs must also demonstrate
that without it, they will suffer irreparable harm for which
they lack an adequate remedy at law. Whitaker, 858 F.3d at
1044, 1046. This requires a showing of more than a “mere
possibility” of harm, but harm need not be a certainty in
order for a court may grant relief. Id. at 1044.
The plaintiffs have adequately shown a likelihood that
they will suffer irreparable harm without a temporary
restraining order. Some of the plaintiffs—at least those
over the age of 65 or with preexisting health conditions—
risk severe health consequences, including death, if they
contract coronavirus disease. For others, a coronavirus
infection may result in permanent lung damage. These
grave risks to health are not an insignificant possibility
for the plaintiffs, all of whom are housed in units or tiers
in which a person has tested positive for coronavirus, all
or nearly all of whom are housed in close proximity with
others, and many and likely most of whom have not been
given sufficient soap or sanitation supplies, let alone PPE.
“[A] remedy for unsafe conditions need not await a tragic
event.” Helling v. McKinney, 509 U.S. 25, 33, 113 S. Ct.
2475, 125 L. Ed. 2d 22 (1993). And because the risk of harm
to plaintiffs is a grave threat to their health and possibly
their lives, they have shown a risk of harm for which “it is
not practicable to calculate damages” and therefore has
no adequate remedy at law. See Foodcomm Int’l v. Barry,
328 F.3d 300, 304 (7th Cir. 2003); cf. W.S.R. v. Sessions,

166a
Appendix C
318 F. Supp. 3d 1116, 1126 (N.D. Ill. 2018) (no adequate
remedy of law to address harm from prolonging child’s
separation from parent).
3.

Balancing of harms

“Once a mov ing par ty has met its burden of
establishing the threshold requirements for a preliminary
injunction, the court must balance the harms faced by both
parties and the public as a whole.” Whitaker, 858 F.3d at
1054. The nature of the balancing depends on the moving
party’s likelihood of success: the higher the likelihood,
the more the balance tips in favor of granting injunctive
relief. Id.
The Sheriff argues that this balance tips against
entry of a temporary restraining order because an
injunction requiring him to implement additional health
and protective measures would be disruptive to his
ongoing efforts to address the spread of coronavirus in
the Jail. The Sheriff also argues that the Court should
defer to the Jail’s practices and its execution of policies
that preserve internal order, discipline, and security in the
facility. See Bell, 441 U.S. at 547. The plaintiffs contend
that their risk of severe health consequences or death as
a result of coronavirus infection is so grave that it tips
the balance in favor of granting a temporary restraining
order. Additionally, the plaintiffs argue that the public
health interest in limiting the spread of the virus also
favors granting relief.
The Court concludes that the balance favors granting
injunctive relief to the plaintiffs to the limited extent

167a
Appendix C
contemplated by this order. First, as detailed above, the
plaintiffs have presented ample evidence of conditions
that pose an unreasonable risk of serious harm to the
class members’ health and at least some shortcomings
in the Sheriff’s mitigation of that risk. As the Court has
detailed, this showing, on the points identified earlier,
surpasses the plaintiffs’ burden of showing a “better than
negligible” chance of success. Whitaker, 858 F.3d at 1046.
Furthermore, the interest of the public in containing the
further spread of this highly contagious virus also favors
granting relief to the plaintiffs.
The Court again acknowledges the deference owed
to the Sheriff in the operation of the Jail and in his
development of internal procedures to maintain safety,
order, and security and to response to this severe crisis.
The Court has taken these considerations into account in
ordering the limited relief described in this order. The
Court has tailored this relief to account for deference
to the Jail’s ongoing planning and efforts to address
the risks associated with the coronavirus outbreak. The
Court has also, as indicated earlier, taken into account the
enhanced requirements for issuing what it has referred to
as a “mandatory injunction.” The risk to the health and
safety of detainees and others is sufficient to invoke this
form of relief.
C. Remedy
For the reasons stated above, the plaintiffs have met
the criteria for a temporary restraining order with regard
to at least parts of the claim Count 1 of their complaint.

168a
Appendix C
The next question is what remedy is appropriate under
the circumstances. The Court addresses in turn each
category of remedy the plaintiffs seek.
1.

Coronavirus testing

The plaintiffs seek an order requiring the Sheriff to
acquire access to rapid coronavirus testing and ensure
that all people who enter the Jail with the virus can be
quickly identified and medically isolated. They also seek
an order requiring the Sheriff to quarantine all new
detainees until test results become available or, if testing
cannot be done, for fourteen days unless they become
symptomatic.
In light of the evidence that the Sheriff now has
access to rapid coronavirus testing, and for the reasons
previously stated, the Court grants plaintiffs’ request
only to the following limited extent. The Court directs the
Sheriff to establish by April 11, 2020, and to implement
immediately thereafter, a policy requiring prompt
coronavirus testing of detainees who exhibit symptoms
consistent with coronavirus disease as well as, at medically
appropriate times and to the extent feasible based on the
acquisition of sufficient testing materials, detainees who
have been exposed to others who have exhibited those
symptoms or have tested positive for coronavirus.
Because evidence shows the Sheriff has a policy in
place requiring a fourteen-day quarantine of all new
detainees (the apparent length of coronavirus’s incubation
period), the Court declines to require further testing or

169a
Appendix C
quarantining of new detainees before housing them in the
general population, though the Sheriff should account for
new detainees in his testing plan.
2.

Quarantining and social distancing

The plaintiffs also seek an order requiring the Sheriff
to medically isolate all detainees who are positive for
COVID-19 in a controlled, monitored environment in
which they are not at risk for infecting others; quarantine
all detainees who are symptomatic and/or have been
exposed to a confirmed case of COVID-19 in such an
environment; and mandate social distancing among all
detainees. For the reasons described earlier, the Court at
this time directs only that the Sheriff enforce, effective on
April 11, 2020, social distancing during the new detainee
intake process, including suspending the use of bullpens
to hold new detainees awaiting intake.
3.

Sanitation

The plaintiffs next seek an order requiring the
Sheriff to provide sufficient soap and hand sanitizer to
all detainees so that they may frequently wash their
hands. In addition, they seek an order directing the
Sheriff to provide sanitation supplies to enable all staff
and detainees to regularly sanitize surfaces and objects
on which coronavirus could be present and to provide
supervision to ensure that sanitizing takes place between
uses of those surfaces and objects. They also seek an order
directing the Sheriff to educate all staff and detainees on
the importance of regularly sanitizing all surfaces and
objects on which the virus could be present.

170a
Appendix C
For the reasons stated above, the Court directs the
Sheriff to begin, by April 10, 2020, providing soap and/
or hand sanitizer to all detainees in quantities sufficient
to permit them to frequently clean their hands. The
Court also orders the Sheriff to begin, by April 10, 2020,
providing adequate sanitation supplies to enable all staff
and detainees to regularly sanitize surfaces and objects
on which the virus could be present, including in all areas
occupied or frequented by more than one person (such
as two-person cells, as well as bathrooms and showers).
The Court further directs the Sheriff to establish, by
April 11, 2020, a policy requiring sanitization between
all uses of frequently touched surfaces and objects as
well as monitoring and supervision to ensure that such
sanitization takes place regularly. In light of evidence
that the Sheriff has established education programs on
preventative measures pertaining to coronavirus, the
Court declines to impose any further requirements in
this regard.
4.

PPE

For the reasons the Court has described, it declines
plaintiffs’ request for an order requiring the Sheriff to
provide all detainees with PPE. Instead, the Court orders
the Sheriff, effective April 12, 2020, to provide facemasks
to all detainees who are quarantined—i.e., those who have
been exposed to a detainee who is symptomatic (even if
not coronavirus-positive).
It appears to the Court that, as of the date of the
hearing, the Sheriff is adequately enforcing the use of

171a
Appendix C
PPE by Jail staff who come into contact with detainees,
so the Court declines to impose further requirements in
that regard.
5.

Adequate medical staff

The plaintiffs request the Court to order the Sheriff
to provide adequate medical staff to monitor all detainees
within the Jail. Because the plaintiffs have pointed to
no evidence that the Jail’s medical staff are under the
purview of the Sheriff, as opposed to Cermak Health
Services, the Court declines to impose this requirement
upon the Sheriff. The Court also notes that the record does
not sufficiently reflect a current lack of adequate medical
staff, making the requested relief inappropriate as part
of a temporary restraining order even were this a matter
under the control of the Sheriff.
6.

Medical triage of vulnerable detainees

For the reasons stated above, the Court declines
to enter an order requiring the Sheriff to immediately
identify or segregate all medically vulnerable detainees
even if they are not showing symptoms.
7.

Transfer of Subclass B members

Finally, the plaintiffs have requested an order
requiring transfer of the putative members of Subclass B
to a safe facility or other forms of custody. They contend
that even the implementation of reasonable sanitation and
other related procedures is insufficient to protect these

172a
Appendix C
class members, some of whom may already have been
exposed to coronavirus, from contracting the disease. The
Court concludes that plaintiffs have not demonstrated that
the requirements of this temporary restraining order,
coupled with the steps the Sheriff is already taking to
prevent the spread of the disease, are insufficient and
thus denies this requested relief.
Conclusion
For the foregoing reasons, the Court grants in part
plaintiffs’ motion for a temporary restraining order
[dkt. no. 2] with regard to Count 1 of the complaint
but otherwise denies the motion. The Court enters a
temporary restraining order to the extent explained in the
relief section of this opinion. The Court directs the Sheriff
to file a report by 4:00 p.m. on April 13, 2020 regarding
his implementation of the Court’s directives. The case is
set for a telephonic status hearing before the undersigned
judge, as emergency judge, on April 14, 2020 at 9:00 a.m.
The Clerk will provide the parties with call-in information
prior to April 14.
				/s/ Matthew F. Kennelly
				
M atthew F. K ennelly
				
United States District Judge
Date: April 9, 2020

